No. 20AIn the

Supreme Court of the United States
SYLVIA GEAR, et al.,
Applicants,
v.
WISCONSIN STATE LEGISLATURE, et al.,
Respondents.
On A pplication to Vacate Stay Directed to the Honorable Brett M.
K avanaugh, Associate Justice of the Supreme Court of the United States
and Circuit Justice for the Seventh Circuit

EMERGENCY APPLICATION OF PLAINTIFFS IN SYLVIA
GEAR V. WISCONSIN STATE LEGISLATURE TO VACATE STAY

Douglas M. Poland
Jeffrey A. Mandell
Stafford Rosenbaum LLP
222 West Washington Avenue,
Suite 900
P.O. Box 1784
Madison, Wisconsin 53701-1784
(608) 256-0226

Jon Sherman
Counsel of Record
Michelle K anter Cohen
Fair Elections Center
1825 K Street NW, Suite 450
Washington, DC 20006
jsherman@fairelectionscenter.org
(202) 331-0114

Counsel for Applicants

299240

A
(800) 274-3321 • (800) 359-6859

PARTIES TO THE PROCEEDING
The parties to the proceeding below are as follows:
Applicants Sylvia Gear, Claire Whelan, Katherine Kohlbeck, Diane Fergot,
Gary Fergot, Bonibet Bahr Olsan, Sheila Jozwik, Gregg Jozwik, League of Women
Voters of Wisconsin, and Wisconsin Alliance for Retired Americans were plaintiffs
in the U.S. District Court for the Western District of Wisconsin and appellees in the
U.S. Court of Appeals for the Seventh Circuit.
Defendants below were Marge Bostelmann, Julie M. Glancey, Ann S. Jacobs,
Dean Knudson, Robert F. Spindell, Jr., Mark L. Thomsen, the members of the
Wisconsin Election Commission, and Meagan Wolfe, Administrator of the Wisconsin
Elections Commission. None has appealed the district court’s injunction.
Respondents Republican National Committee (“RNC”) and the Republican
Party of Wisconsin (“RPW”) were intervenor-defendants in the district court. They
have pursued their own appeal from the district court’s injunction, but the Seventh
Circuit denied their motion to stay the injunction for lack of standing to appeal.
RNC and RPW are briefing the issue of their standing to the Seventh Circuit.
Respondent Wisconsin Legislature intervened as a defendant in the district
court proceedings, and is an appellant in the U.S. Court of Appeals for Seventh
Circuit.

i

CORPORATE DISCLOSURE STATEMENT
League of Women Voters of the United States is the parent of Leagues of
Women Voters of Wisconsin. Alliance for Retired Americans is the parent of
Wisconsin Alliance for Retired Americans. There are no publicly-held companies
with a 10% or greater ownership interest in Leagues of Women Voters of Wisconsin
or Wisconsin Alliance for Retired Americans.

ii

RELATED PROCEEDINGS
The related proceedings below are:
1. Democratic National Committee, et al. v. Bostelmann, et al., Nos. 20-2835 &
20-2844 (7th Cir.) – Order entered October 8, 2020;
2. Democratic National Committee, et al. v. Bostelmann, et al., No. 2020AP1634CQ (Wis.) – Order entered October 6, 2020;
3. Gear, et al. v. Dean Knudson, et al., No. 3:20-cv-278 (W.D. Wis.) – Order
entered September 21, 2020;
4. Edwards et al. v. Vos et al., No. 3:20-cv-340 (W.D. Wis.) – Order entered
September 21, 2020; and
5. Swenson v. Bostelmann, No. 3:20-cv-459 (W.D. Wis.) – Order entered
September 21, 2020

iii

TABLE OF CONTENTS
Page
PARTIES TO THE PROCEEDING .............................................................................. i
CORPORATE DISCLOSURE STATEMENT ............................................................... ii
RELATED PROCEEDINGS......................................................................................... iii
TABLE OF CONTENTS ............................................................................................... iv
TABLE OF AUTHORITIES ......................................................................................... vi
EMERGENCY APPLICATION TO VACATE THE SEVENTH CIRCUIT’S
STAY OF THE ORDER ISSUED BY THE UNITED STATES
DISTRICT COURT FOR THE WESTERN DISTRICT OF WISCONSIN ........ 1
INTRODUCTION .......................................................................................................... 2
STATEMENT OF THE CASE ....................................................................................... 6
I.

Email delivery of mail-in absentee ballots has been an option for
some or all absentee voters in Wisconsin for two decades...................... 6

II.

The district court’s 2016 ruling in One Wisconsin Institute struck
down Act 75’s ban on electronic delivery of absentee ballots to
domestic civilian voters ............................................................................ 7

III.

The Seventh Circuit’s decision this summer in Luft v. Evers
reinstated the statutory ban on electronic delivery of absentee
ballots to domestic civilian voters............................................................ 9

IV.

The district court’s preliminary injunction in Gear enjoined the
ban on a limited basis from October 22 through 29 for voters who
have applied for but not received their mail-in absentee ballots ......... 10

STANDARD OF REVIEW ........................................................................................... 11
ARGUMENT ................................................................................................................ 13
I.

The Seventh Circuit has demonstrably erred in its application of
Purcell and applied the precedent arbitrarily, thereby abusing
its discretion ........................................................................................... 13

II.

The Seventh Circuit demonstrably erred by misapplying Purcell,
clearly erred in applying the facts, and disregarded the district
court’s factual findings which were owed deference ............................. 17

iv

a.

The risks of voter confusion and disincentivizing voter
turnout do not apply here and provide no support for the
Seventh Circuit’s stay.................................................................. 19

b.

The risk of increasing administrative burdens and costs is
similarly inapposite here ............................................................. 26

III.

The Legislature is unlikely to succeed on the merits of its appeal ...... 29

IV.

The other equitable Nken factors also militate in favor of
vacating the stay .................................................................................... 36

CONCLUSION............................................................................................................. 40

v

TABLE OF AUTHORITIES
Page(s)
Cases:
Burdick v. Takushi,
504 U.S. 428 (1992) ........................................................................................... 31
Burns v. United States,
287 U.S. 216 (1932) ........................................................................................... 12
Coleman v. Paccar, Inc.,
424 U.S. 1301 (1976) ......................................................................................... 12
Democratic Exec. Comm. of Fla. v. Lee,
915 F.3d 1312 (11th Cir. 2019) ......................................................................... 38
Democratic Nat’l Comm. v. Bostelmann,
No. 20-cv-249, 2020 WL 1638374 (W.D. Wis. Apr. 2, 2020), stayed in
part by Democratic Nat’l Comm. v. Republican Nat’l Comm.,
No. 20-1538, 2020 WL 3619499 (7th Cir. Apr. 3, 2020), stayed in part,
140 S. Ct. 1205 (2020) ....................................................................................... 26
Elrod v. Burns,
427 U.S. 347 (1976) ........................................................................................... 38
Frank v. Walker,
574 U.S. 929 (2014) ........................................................................................... 19
Holtzman v. Schlesinger,
414 U.S. 1304 (1973) ......................................................................................... 11
Luft v. Evers,
963 F.3d 665 (7th Cir. 2020) ......................................................................passim
Maryland v. King,
567 U.S. 1301, 133 S. Ct. 1 (2012) .................................................................... 36
New Motor Vehicle Bd. of Calif. v. Orrin W. Fox Co.,
434 U.S. 1345 (1977) ................................................................................... 36, 37
Nken v. Holder,
556 U.S. 418 (2009) ............................................................................... 11, 13, 36
Norman v. Reed,
502 U.S. 279, 112 S. Ct. 698, 705, 116 L. Ed. 2d 711 (1992) ........................... 30
Obama for Am. v. Husted,
697 F.3d 423 (6th Cir. 2012) ............................................................................. 38

vi

One Wisconsin Institute v. Thomsen,
198 F. Supp. 3d 896 (W.D. Wis. 2016), order enforced,
351 F. Supp. 3d 1160 (W.D. Wis. 2019) .....................................................passim
Planned Parenthood of Greater Tx. Surgical Health Servs. v. Abbot,
571 U.S. 1061 (2013) ......................................................................................... 12
Purcell v. Gonzalez,
549 U.S. 1 (2006) ........................................................................................passim
Tashjian v. Republican Party of Connecticut,
479 U.S. 208 (1986) ..................................................................................... 27, 37
W. Airlines, Inc. v. Int’l Bhd. of Teamsters,
480 U.S. 1301 (1987) ......................................................................................... 12
Walker v. Price,
900 F.3d 933 (7th Cir. 2018) ............................................................................. 12

Statutes & Other Authorities:
1999 Wis. Act 182, § 97 (May 24, 2000) ........................................................................ 6
2001 Exec. Budget Act, § 9415, 2001-2002 Wis. Legis. Serv. Act 16
(2001 S.B. 55) ...................................................................................................... 6
2011 Wis. Act 75, § 50 (Dec. 1, 2011) ............................................................................ 7
Wis. Stat. § 6.34(1) ......................................................................................................... 7
Wis. Stat. § 6.34(1)(a) ......................................................................................................
Wis. Stat. § 6.34(1)(b) .................................................................................................... 7
Wis. Stat. § 6.80(2)(c) ..................................................................................................... 8
Wis. Stat. § 6.86(1) ......................................................................................................... 7
Wis. Stat. § 6.86(5) ......................................................................................................... 8
Wis. Stat. § 6.87(3)(a) .................................................................................................... 5
Wis. Stat. § 6.87(3)(d) ........................................................................................ 5, 6, 7, 9
Wis. Stat. § 6.87(4) ......................................................................................................... 6
Wis. Stat. § 7.15(cm) ................................................................................................ 9, 15

vii

EMERGENCY APPLICATION TO VACATE THE SEVENTH CIRCUIT’S
STAY OF THE ORDER ISSUED BY THE UNITED STATES DISTRICT
COURT FOR THE WESTERN DISTRICT OF WISCONSIN
TO: The Honorable Brett M. Kavanaugh, Circuit Justice for the Seventh
Circuit:
Pursuant to Rules 22 and 23 of the Rules of this Court, Plaintiffs-Applicants
Sylvia Gear, Claire Whelan, Katherine Kohlbeck, Diane Fergot, Gary Fergot,
Bonibet Bahr Olsan, Sheila Jozwik, Gregg Jozwik, League of Women Voters of
Wisconsin, and Wisconsin Alliance for Retired Americans, Plaintiffs-Appellees in
the courts below, respectfully apply for an order vacating the stay issued on October
8, 2020, by a panel of the United States Court of Appeals for the Seventh Circuit, a
copy of which is appended to this application. App. 1–32. Democratic Nat’l Comm.,
et al. v. Bostelmann, et al., No. 20-2835, 2020 WL 5951359 (7th Cir. Oct. 8, 2020).
Plaintiffs-Appellees opposed the Wisconsin Legislature’s stay motion. App. 130–49.
The Seventh Circuit’s order stayed the preliminary injunction that was issued on
September 21, 2020, App. 33–101, Democratic Nat’l Comm. et al. v. Bostelmann, et
al., 20-cv-249-wmc, 20-cv-278-wmc, 20-cv-340-wmc, & 20-cv-459-wmc 2020 WL
5627186 (W.D. Wis. Sept. 21, 2020); see also App. 102–04.1

Four cases were consolidated in these proceedings, and the Gear Plaintiffs were
the sole litigants to seek this part of the preliminary injunction. This Application
only addresses the limited electronic delivery fail-safe. Any district court docket
references are to the lead docket, 20-cv-249 (W.D. Wis.), unless otherwise noted.
1

1

INTRODUCTION
Thousands of Wisconsin voters lost their right to vote in the April 7 election.
Among them were five of the Plaintiffs-Applicants in Gear v. Bostelmann (“Gear
Plaintiffs”), who requested but never received their absentee ballots in the mail and
could not safely vote in person due to the COVID-19 pandemic. To prevent their
disenfranchisement in Wisconsin’s spring election from recurring in the fall general
election, in early July, four months before the November election, they sought a
preliminary injunction requiring the Wisconsin Elections Commission (“WEC” or
“the Commission”) to offer electronic delivery of replacement mail-in absentee
ballots as a fail-safe for themselves and other voters who do not receive their timelyrequested ballots in the mail. See dkt. 421; App. 84–86. The district court found that
“the evidence [was] nearly overwhelming that the pandemic does present a unique
need for relief in light of: (1) the experience during the Spring election, (2) much
greater projected numbers of absentee ballot requests and votes in November, and
(3) ongoing concerns about the USPS’s ability to process the delivery of absentee
ballot applications and ballots timely.” App. 85 (emphasis in original). Accordingly,
it granted the Gear Plaintiffs the limited relief they sought. App. 86, 100. The U.S.
Court of Appeals for the Seventh Circuit stayed the injunction. App. 6.
The Seventh Circuit committed demonstrable legal and factual errors and
abused its discretion in staying the order providing for electronic delivery of
replacement ballots. The history of the litigation over this particular Wisconsin law
puts this case on very different footing from every other election law case that has

2

reached this Court this year. That history demonstrates that the Seventh Circuit, in
this instance, demonstrably erred in applying Purcell v. Gonzalez, 549 U.S. 1 (2006),
in an arbitrary manner.
First, the Seventh Circuit’s admonition that to be timely under Purcell the
district court’s injunction should have been issued in May is irrational with respect
to the Gear case. In May, before the Seventh Circuit’s June 29 decision in Luft v.
Evers, 963 F.3d 665 (7th Cir. 2020), electronic delivery of ballots was available to all
Wisconsin voters, including the Gear Plaintiffs. Consequently, an injunction to
secure electronic delivery of ballots would have been unripe in May, and there
would have been no rational reason for the Gear Plaintiffs to seek one, or for the
district court to order one, at that time. Once the need arose on June 29 for the Gear
Plaintiffs to seek an injunction requiring electronic ballot delivery because the
Seventh Circuit’s Luft decision eliminated their right to it, the Gear Plaintiffs
moved for a preliminary injunction within nine days. The Gear Plaintiffs have not
been dilatory in the slightest, having sought the injunctive relief now stayed by the
Seventh Circuit neither prematurely nor too late. Perhaps the most charitable
reading of the panel majority’s opinion is that it failed to consider the distinct
claims and remedies in the Gear case. On that ground alone, the stay should be
vacated for demonstrable error.
Second, the Seventh Circuit’s rationale is plainly irreconcilable with the same
court’s denial of a stay in August 2016 in One Wisconsin Institute v. Thomsen, 198
F. Supp. 3d 896, 946 (W.D. Wis. 2016), and aff’d in part, vacated in part, rev’d in

3

part sub nom. Luft v. Evers, 963 F.3d 665 (7th Cir. 2020). That case resulted in a
judgment that included a far broader extension of electronic delivery of absentee
ballots than the district court has ordered here, among a multitude of other election
law changes. The stay is also wholly at odds with the Seventh Circuit’s decision to
issue its opinion and mandate in Luft v. Evers, 963 F.3d 665, 676–77 (7th Cir. 2020),
this summer, well after May, when that court held the district court’s injunction
here should have issued to be timely. The Seventh Circuit ultimately reversed the
unstayed injunction in the middle of this year’s August 11 primary election (the
mandate issued while early in-person voting was ongoing) and mere weeks before
the mailing of absentee ballots began for the November general election. No legal
principle or fact can harmonize these divergent outcomes. As such, the Seventh
Circuit demonstrably erred and abused its discretion in applying Purcell in a wholly
arbitrary manner.
Third, the Seventh Circuit demonstrably erred by failing to consider the
specific considerations outlined in Purcell, failing to differentiate among the
numerous voting claims and remedies at issue in these consolidated proceedings,
failing to consider record evidence, and disregarding the district court’s factual
findings. These errors resulted in a stay decision that fundamentally subverts the
objectives and interests identified in Purcell. The alternative-ballot-delivery option
the district court ordered will not confuse election officials or voters, at least some of
whom have already come to expect and rely upon email delivery of mail-in ballots
over the course of many years, until approximately 76 days ago. Many voters were

4

already led to believe that they would be able to use this method in the 2020
election cycle; therefore, if anything, the Seventh Circuit’s ruling switching this
option off in late July will confuse voters who had planned to request electronic
delivery. Moreover, this exceedingly narrow relief will serve to ensure that only the
most vulnerable voters who risk being “thwarted through no fault of their own” can
cast their ballots. App. 85. It will not deter, but facilitate, voter participation.
Finally, election officials and their staff are deeply experienced with this ballot
delivery method and know it well, having used it over the last twenty years. For all
these reasons, the Seventh Circuit has deviated from and undermined this Court’s
statement of the law as set forth in Purcell.
In the absence of guidance from this Court that differentiates among specific
election law changes and ensures more uniform treatment across voting cases, there
is no Purcell principle or even a set of Purcell considerations, just the exercise of
unfettered whim under the aegis of Purcell.2 Respectfully, this Court should vacate
the stay.

App. 10 (Rovner, J., dissenting) (“[T]he Supreme Court’s pattern of staying similar
sorts of injunctions in recent months is long on signaling but short on concrete
principles that lower courts can apply to the specific facts before them.”); id. at 9
(“Perhaps we can say at this point that Purcell and its progeny establish a
presumption against judicial intervention close in time to an election. . . . But how
near? As to what types of changes? Overcome by what showing? These and other
questions remain unanswered.”).
2

5

STATEMENT OF THE CASE
I.

Email delivery of mail-in absentee ballots has been an option
for some or all absentee voters in Wisconsin for two decades.

For the last twenty years, Wisconsin law has permitted some or all voters to
receive an absentee ballot by email. Wis. Stat. §§ 6.87(3)(a), 6.87(3)(d). Voters print
and mark these ballots by hand and then return them to their municipal clerks by
mail or by dropping them off in person. Wis. Stat. §§ 6.87(3)(d), 6.87(4).
The original statute authorizing electronic transmission of ballots was
created by 1999 Wis. Act 182, § 97 (May 24, 2000), took effect in 2000, and
permitted any voter—domestic civilian, military, or overseas—to request and
receive a mail-in absentee ballot by email:
Unless a municipality uses an electronic voting system that requires
an elector to punch a ballot in order to record the elector’s votes, a
municipal clerk of a municipality may, if the clerk is reliably informed
by an absent elector of a facsimile transmission number or electronic
mail address where the elector can receive an absentee ballot, transmit
a facsimile or electronic copy of the absent electors ballot to that
elector in lieu of mailing under this subsection if, in the judgment of
the clerk, the time required to send the ballot through the mail may not
be sufficient to enable return of the ballot by the time provided under
sub. (6).
Wis. Stat. § 6.87(3)(d) (2000) (emphasis added), amended by 2001 Exec. Budget Act,
§ 9415, 2001-2002 Wis. Legis. Serv. Act 16 (2001 S.B. 55) (eliminating punch card
electronic voting systems). For the first decade of this statute’s life span, clerks were
given discretion to decide whether email delivery was necessary to ensure timely
receipt. In 2011, the Wisconsin Legislature mandated that clerks provide such
alternative ballot delivery methods. Wis. Stat. § 6.87(3)(d) (June 10, 2011) (“A

6

municipal clerk shall, if the clerk is reliably informed by an absent elector of a
facsimile transmission number or electronic mail address where the elector can
receive an absentee ballot, transmit a facsimile or electronic copy of the absent
elector's ballot to that elector in lieu of mailing under this subsection.”) (emphasis
added).
Six months later, the Wisconsin Legislature enacted 2011 Wis. Act 75, § 50
(Dec. 1, 2011), mandating that municipal clerks “transmit a facsimile or electronic
copy of the elector’s ballot to that elector in lieu of mailing” only to military and
overseas voters who request delivery by this means. Wis. Stat. § 6.87(3)(d) (“An
elector may receive an absentee ballot only if the elector is a military elector or an
overseas elector under s. 6.34(1) and has filed a valid application for the ballot under
as provided in s. 6.86(1).”) (emphasis added). Now the statute permits only military
electors, as defined in Wis. Stat. § 6.34(1)(a), and overseas electors, as defined in
Wis. Stat. § 6.34(1)(b), to request that their municipal clerk deliver their absentee
ballot electronically instead of by mail.
II.

The district court’s 2016 ruling in One Wisconsin Institute
struck down Act 75’s ban on electronic delivery of absentee
ballots to domestic civilian voters.

Four years after it was enacted, Act 75’s ban on emailing mail-in absentee
ballots to domestic civilian voters was struck down by the district court’s decision in
One Wisconsin Institute v. Thomsen, 198 F. Supp. 3d 896, 946 (W.D. Wis. 2016),
order enforced, 351 F. Supp. 3d 1160 (W.D. Wis. 2019), and aff’d in part, vacated in
part, rev’d in part sub nom. Luft v. Evers, 963 F.3d 665 (7th Cir. 2020). Wisconsin

7

voters can request replacement mail-in absentee ballots by email or fax if they spoil
or fail to receive a ballot up until the ballot-request deadline. See dkt. 423-23,
Wisconsin Elections Commission, Uniform Instructions for Absentee Voting, at 2
(“A voter may request that a replacement ballot be faxed or emailed to him or her.”);
Wis. Stat. § 6.80(2)(c); Wis. Stat. § 6.86(5).
On August 22, 2016, just one month before municipal clerks began mailing
out absentee ballots for the 2016 presidential election, the Seventh Circuit denied a
motion to stay that permanent injunction. App. 155–75. The court also denied a
petition for initial en banc review. App. 176–79. In addition to extending electronic
delivery of mail-in absentee ballots, the judgment included a multitude of other
changes to Wisconsin election laws. One Wisconsin Inst., 198 F. Supp. 3d at 964–65;
App. 150–52.3 The November 2016 election proceeded under this injunction. A
significant number of voters requested electronic delivery of their ballots in the
2016 presidential election: 9,619 mail-in absentee ballots were delivered by email to
voters. See dkt. 423-3. That comprised more than 5 percent of the 178,996 mail-in
absentee ballots delivered to absentee voters statewide. Id. 7,231 of these 9,619
email-delivered ballots were ultimately returned by mail, id.—“without incident,” as
the district court found, App. 86, or dispute.

3

The declaratory judgment alone contained ten specific subparts.
8

III.

The Seventh Circuit’s decision this summer in Luft v. Evers
reinstated the statutory ban on electronic delivery of absentee
ballots to domestic civilian voters.

In February 2017, the Seventh Circuit heard oral argument in the appeal
from the One Wisconsin Institute injunction. The case remained undecided for
approximately three-and-a-half years, until June 29 of this year, when the Seventh
Circuit reversed the district court’s ruling, reinstating the statutory restriction on
electronic ballot delivery. Luft v. Evers, 963 F.3d 665, 676–77 (7th Cir. 2020).4 The
mandate issued on July 29, 2020, just seven weeks before clerks, by law, started
mailing out absentee ballots for the November 2020 election. Wis. Stat. § 7.15(cm).
Indeed, the 27-page decision was handed down in the middle of Wisconsin’s August
11 primary election—after the first wave of absentee ballots had been mailed out—
with no stay and no instruction as to how its reversals of the status quo should be
applied when the mandate issued just thirteen days before Election Day.
Consequently, the pre-One Wisconsin Institute reach of Section 6.87(3)(d),
permitting only overseas and military voters to use these alternative absentee
ballot delivery methods, snapped back into place.
The One Wisconsin Institute injunction reversed in Luft v. Evers long
predated the COVID-19 pandemic. The record on which that injunction was entered
contained no epidemiological or other evidence relating to the danger that this
pandemic poses for voters or how long that danger may persist. The record here, on
which Judge Conley acted, has ample evidence on these issues. Unlike this case,
Luft was consolidated with One Wisconsin Institute, so the decision was issued
under both captions but Luft was listed first.
4

9

One Wisconsin Institute was largely premised on the alleged discriminatory
treatment of regular domestic civilian voters, on the one hand, and overseas and
military voters, on the other. 198 F. Supp. 3d at 946.
IV.

The district court’s preliminary injunction in Gear enjoined
the ban on a limited basis from October 22 through 29 for
voters who have applied for but not received their mail-in
absentee ballots.

In light of the COVID-19 pandemic, the Gear Plaintiffs amended their
complaint in late June to plead an Anderson-Burdick claim and seek a fail-safe
alternative for voters who do not receive their timely-requested absentee ballot in
the mail. See dkt. 165 at 65–79. Pursuant to a scheduling order agreed to by all
parties, the Gear Plaintiffs moved for a preliminary injunction on July 8, twentyone days before the mandate in Luft issued, and the district conducted an all-day
evidentiary hearing on August 5. On September 21, the district court issued its
opinion and order preliminarily enjoining the ban instated by 2011 Wisconsin Act
75 and reinstated by Luft, 963 F.3d at 676–77. See dkt. 538 at 52–54, 68; dkt. 539 at
3. The injunction temporarily permits municipal clerks to issue replacement ballots
via email to regular civilian voters residing in Wisconsin who properly request
absentee ballots but do not receive their ballots by mail. This fail-safe option can be
exercised only during the eight-day period from October 22 through October 29.
App. 104. This decision was based on the high percentage of registered voters who
have requested absentee ballots for the November 3 election, taking into account
the impact of the COVID-19 pandemic, which has reasonably prompted an
unprecedented number of voters to avoid voting in person and prompted the WEC

10

itself to send absentee ballot applications to all registered Wisconsin voters. See dkt.
423-17; dkt. 423-18. The district court decision also creates a fail-safe in an instance
when USPS is unable to deliver ballots to registered voters in a timely manner,
such that they may be returned to the municipal clerk or postmarked by November
3.
STANDARD OF REVIEW
Federal courts consider four factors in deciding whether to enter a stay of a
district court’s injunction: “(1) whether the stay applicant has made a strong
showing that he is likely to succeed on the merits; (2) whether the applicant will be
irreparably injured absent a stay; (3) whether issuance of the stay will substantially
injure the other parties interested in the proceeding; and (4) where the public
interest lies.” Nken v. Holder, 556 U.S. 418, 426 (2009) (citation and quotation
marks omitted).
There is no controlling precedent on the standard of review for applications to
vacate stays entered by the U.S. Courts of Appeals. In one in-chambers opinion,
Justice Marshall reviewed a stay entered by the U.S. Court of Appeals for the
Second Circuit for abuse of discretion. Holtzman v. Schlesinger, 414 U.S. 1304, 1315
(1973) (Marshall, J., in chambers). Two subsequent in-chambers opinions instruct
that the Court may vacate an appellate court stay where (1) the case “could and
very likely would be reviewed here upon final disposition in the court of appeals,”
(2) “the rights of the parties . . . may be seriously and irreparably injured by the
stay,” and (3) “the court of appeals is demonstrably wrong in its application of

11

accepted standards in deciding to issue the stay.” Coleman v. Paccar, Inc., 424 U.S.
1301, 1304 (1976) (Rehnquist, J., in chambers); see also W. Airlines, Inc. v. Int’l Bhd.
of Teamsters, 480 U.S. 1301, 1305 (1987) (O’Connor, J., in chambers). Finally, most
recently, in a concurring opinion, Justice Scalia, joined by Justices Thomas and
Alito, focused on the last of those three factors and stated that this Court may
vacate a stay if the court below “demonstrably erred in its application of accepted
standards.” Planned Parenthood of Greater Tx. Surgical Health Servs. v. Abbot, 571
U.S. 1061 (2013) (Scalia, J., concurring) (quotations omitted).
Under any of these standards, the stay here should be vacated for
demonstrable error and abuse of discretion. “The question is simply whether there
has been an abuse of discretion and is to be determined in accordance with familiar
principles governing the exercise of judicial discretion. That exercise implies
conscientious judgment, not arbitrary action.” Burns v. United States, 287 U.S. 216,
222–23 (1932). Under Seventh Circuit precedent, a court “abuses its discretion
when (1) the record contains no evidence upon which the court could have rationally
based its decision; (2) the decision is based on an erroneous conclusion of law; (3) the
decision is based on clearly erroneous factual findings; or (4) the decision clearly
appears arbitrary.” Walker v. Price, 900 F.3d 933, 938 (7th Cir. 2018) (citation and
quotation marks omitted). This is that rare case where these deferential standards
have been breached. The Seventh Circuit has demonstrably erred and abused its
discretion because its opinion granting the stay: (1) fails to consider the distinct
legal claims and remedies raised in Gear that would have made moving for an

12

injunction in May completely futile; (2) departs arbitrarily from the court’s recent
prior rulings in related litigation; (3) stands upon clearly erroneous factual
representations that contradict the record and the district court’s findings; and (4)
erroneously applies Purcell v. Gonzalez, 549 U.S. 1 (2006).
ARGUMENT
I.

The Seventh Circuit has demonstrably erred in its application
of Purcell and applied the precedent arbitrarily, thereby
abusing its discretion.

As a threshold matter, the Seventh Circuit neither articulated how it was
applying the concerns or factors identified by this Court in Purcell nor applied the
four equitable Nken factors for issuance of a stay. 556 U.S. at 426. Instead, invoking
a reductive version of Purcell and not the inquiry this Court actually prescribed, the
panel majority simply stated that “[i]f the judge had issued an order in May based
on April’s experience, it could not be called untimely. By waiting until September,
however, the district court acted too close to the election.” App. 4.
First, the Seventh Circuit’s admonition that to be timely under Purcell the
district court’s injunction should have been issued in May implicitly criticizes the
district court and the Gear Plaintiffs for failing to do the illogical and unnecessary.
In May and at all other times until the Seventh Circuit’s June 29 decision in Luft,
electronic delivery of ballots was available to all Wisconsin voters, not just to
military and overseas voters. The Gear Plaintiffs moved for a preliminary injunction
a mere nine days after the Seventh Circuit issued its decision in Luft, withdrawing
email delivery as an option for domestic civilian voters, and, notably, twenty-one

13

days before the mandate in Luft issued on July 29. App. 180–82. They could not
have so moved prior to Luft but wasted no time in taking action once this gap in
protection for voters emerged. Yet the Seventh Circuit stayed the relief here as not
timely sought. On this ground alone, the stay should be vacated for demonstrable
error.
Second, the Court’s rationale is fundamentally inconsistent and irreconcilable
with the Seventh Circuit’s previous denial of a stay in One Wisconsin Institute in
August 2016 and its decision to issue its opinion and mandate in that case mere
weeks before the mailing of absentee ballots began this year. Setting a de facto
“May deadline for any changes to election rules,” App. 12 (Rovner, J., dissenting), is
irreconcilable with the Seventh Circuit’s actions in One Wisconsin Institute in 2016
and the decision in Luft that reversed the One Wisconsin Institute judgment in
relevant part. The Seventh Circuit has demonstrably erred and abused its
discretion in applying Purcell in such a manifestly arbitrary manner.
Following the decision in One Wisconsin Institute v. Thomsen, which enjoined
the statutory restriction on electronic transmission of ballots to military and
overseas voters and ordered a multitude of other changes to Wisconsin election
laws, 198 F. Supp. 3d at 946, 964–65, App. 150–52, WEC filed its notice of appeal on
August 2, 2016. App. 153–54. On August 22, 2016, the Seventh Circuit denied a
motion to stay that permanent injunction. App. 155–75. This occurred one month
before municipal clerks began to mail out absentee ballots for the 2016 presidential
election. For the ensuing nearly four years while the case remained on appeal,

14

Wisconsin voters requested mail-in absentee ballots by email delivery and returned
them by mail.
The Seventh Circuit panel could have left the state of Wisconsin’s election
law undisturbed, given the length of time the case had been pending and the
upcoming elections, but it decided to issue its opinion in late June—with the
mandate following in late July, just seven weeks before clerks, by law, started
mailing out ballots for the 2020 presidential election. Wis. Stat. § 7.15(cm). Indeed,
the 27-page decision was handed down in the very middle of the August 11, 2020
primary election in Wisconsin—after many ballots had been mailed out pursuant to
the deadlines under federal and state statutes—and the mandate issued in late
July, during the early in-person voting period. The Seventh Circuit did not stay its
ruling or provide any instruction as to how its various reversals of the status quo
should be applied in the midst of an ongoing election. That abrupt ruling disturbed
the status quo that had been in place over nearly four years and many elections in
which email delivery of mail-in absentee ballots was available to all Wisconsin
voters, making it reasonable for them to expect that this alternative ballot delivery
method would once again be available in the August primary and in the November
general election.
The Gear Plaintiffs sought to reinstate this alternative delivery option, but
only as a time-limited fail-safe for a narrow set of voters who diligently request
their ballots well in advance of an election but do not receive them in the mail in
time to timely return them under the default statutory deadline of 8:00 p.m. on

15

Election Day. Many such absentee voters cannot safely vote in person at a polling
place due to an underlying condition or disease that puts them at severe risk of
suffering complications or dying from COVID-19. For these voters, as the district
court found, the confluence of a deadly pandemic marked by aerosolized and
widespread transmission in Wisconsin, a sclerotic U.S. Postal Service (“USPS”), and
overwhelmed municipal clerks’ offices spells certain disenfranchisement absent a
fail-safe alternative. App. 85–86. The record is “replete” with declarations from
would-be voters in the April 7 election who did not receive their ballot in time or
even after Election Day, even though they all applied multiple weeks in advance.
App. 84–85. Absent the district court order granting this relief as a back-up option
to receive a replacement ballot by email within an eight-day period later this month,
as in April, Wisconsin voters will again lose their right to vote.
But this much more limited extension of electronic delivery has met a
different fate on appeal in 2020. Four years ago, the Seventh Circuit rejected
Purcell arguments to deny a stay of an injunction that expanded email delivery to
all voters in August 2016. That relief was of course not limited to a specific time
period or subset of voters; nor was it issued because of the exigent circumstances of
a pandemic. But now, during a pandemic that threatens election administration
and voter participation alike, the Court has invoked Purcell to grant a stay of an
exceedingly limited, targeted extension of the same relief for a narrow subset of
voters that was issued at approximately the same time relative to a federal general
election. And it has done so by suggesting that to be timely under Purcell, a district

16

court must act six months before an election. This rationale and requirement find
no support in this Court’s or any other court’s precedents. Such a requirement
would directly conflict with: (1) the Seventh Circuit’s 2016 ruling denying the stay
motion in One Wisconsin Institute; (2) the Seventh Circuit’s June 29, 2020 ruling in
Luft after nearly three and a half years under submission, with the mandate
issuing on July 29, mere weeks before the first wave of absentee ballot mailings or
the November election and well after the court’s May deadline; and (3) this Court’s
precedent.
Given the Seventh Circuit’s substantively irreconcilable prior rulings in One
Wisconsin Institute and Luft and the timing of those rulings, the court has
demonstrably erred and abused its discretion in applying Purcell to this litigation
over the email delivery of absentee ballots in Wisconsin.
II.

The Seventh Circuit demonstrably erred by misapplying
Purcell, clearly erred in applying the facts, and disregarded
the district court’s factual findings which were owed
deference.

In addition to the patently inconsistent and arbitrary manner in which the
Seventh Circuit has ruled on stay motions concerning this particular Wisconsin
election law, the court also misapplied the considerations outlined in Purcell in this
case. Given the stay order’s complete silence on these considerations, one can only
speculate that the court either did not weigh them at all or believed they favored
granting the Wisconsin Legislature’s stay motion. However, each Purcell factor
favors preserving this vital fail-safe remedy for the November election.

17

In Purcell, this Court directed the lower courts to weigh “considerations
specific to election cases”—namely the risks of confusing voters, unduly increasing
administrative burdens, and disincentivizing voter turnout—amongst the standard
equitable factors for issuance of an injunction. 549 U.S. at 4–5. Courts are “required
to weigh” these election-specific considerations “in addition to the harms attendant
upon issuance or nonissuance of an injunction,” not instead of them. Id. at 4
(emphasis added). Purcell and its progeny stand for the proposition that finality in
election law disputes is desirable, not for its own sake, but because it prevents voter
and administrator confusion, avoids deterring voter participation, and minimizes
the risk of imposing significant costs and burdens on administrators. However, a
federal court order that does not incur these risks should not be stayed only because
it constitutes a change to the status quo.
The Seventh Circuit’s treatment of Purcell, however, embraces finality for
finality’s sake, while disregarding this Court’s reasoning. In this case and others,
Purcell has become disconnected from its animating concerns; through repeated
summarization, the precedent has lost its original meaning. A blunt, reductive
version has emerged in its place, resulting in an analysis of election law litigation
and remedies that fails to actually assess whether a court has effectuated or
undermined the animating interests and objectives Purcell identified.

18

a. The risks of voter confusion and disincentivizing voter
turnout do not apply here and provide no support for the
Seventh Circuit’s stay.
It is plain that Purcell’s clear, overriding commitment is to minimizing voter
confusion and thereby maximizing voter participation. This Court wrote that:
“Court orders affecting elections, especially conflicting orders, can themselves result
in voter confusion and consequent incentive to remain away from the polls. As an
election draws closer, that risk will increase.” Purcell, 549 U.S. at 4–5. This means
Purcell should not act as a bar to injunctive relief when voters’ rights would be
vindicated and disenfranchisement and voter confusion prevented by the relief
ordered, as in this case. See Frank v. Walker, 574 U.S. 929 (2014) (vacating stay of
injunction against implementation of voter ID requirement to avoid voter confusion
and disenfranchisement); id. at 929 (Alito, J., dissenting) (acknowledging that
“absentee ballots ha[d] been sent out without any notation that proof of photo
identification must be submitted”).
In this case, the district court’s preliminary injunction creates a fail-safe
option for voters who do not receive a ballot in the mail. App. 104 (authorizing
replacement ballot delivery by email or online access “for domestic civilian voters . .
. for the period from October 22 to October 29, 2020, provided that those voters who
timely requested an absentee ballot, the request was approved, and the ballot was
mailed, but the voter did not receive the ballot”). This will enable, not deter, voter
participation and turnout.

19

The district court found that the record across all four cases was “replete”
with examples of voters not receiving their ballots on time or at all, even if they had
applied well in advance of the election. App. 84–85. The Seventh Circuit owed
deference to this factual finding. See Purcell, 549 U.S. at 5 (reversing in part
because U.S. Court of Appeals’ decision failed to “give deference” to the “factual
findings” of the district court). Instead, the panel majority ignored the district
court’s factual findings, relying upon a clearly erroneous interpretation of the
record. This caused the court to deviate from Purcell.
The district court’s limited remedy adhered to Purcell’s interests in
minimizing confusion and maximizing voter participation by granting an
exceedingly narrow remedy to ensure that diligent, but vulnerable, voters could still
cast their absentee ballots:
[T]he relief requested is narrowly tailored only to those voters who
timely fulfilled all of the necessary steps to vote by mail, but were
thwarted through no fault of their own. Indeed, this is exactly the “1%
problem” that the Seventh Circuit indicated requires a safety net in
both Luft and Frank II.
App. 85. But the Seventh Circuit mistakenly focused only on voters who apply for
absentee ballots at the “last minute,” App. 5, not voters like the Gear Plaintiffs who
apply weeks or more in advance. In Plaintiffs’ case, they apply timely precisely
because they are at higher risk from COVID-19 and cannot vote safely in person. In
applying Purcell to these consolidated but distinct cases, the Seventh Circuit
appears to have conflated the various claims and overlooked the specific category of

20

voters the Gear case and the corresponding part of the preliminary injunction
sought to protect. The panel majority writes:
The district court did not find that any person who wants to avoid
voting in person on Election Day would be unable to cast a ballot in
Wisconsin by planning ahead and taking advantage of the
opportunities allowed by state law. The problem that concerned the
district judge, rather, was the difficulty that could be encountered by
voters who do not plan ahead and wait until the last day that state law
allows for certain steps. Yet, as the Supreme Court observed last April
in this very case, voters who wait until the last minute face problems
with or without a pandemic.
App. 5. This passage shows that the Court demonstrably erred by either
disregarding or failing to consider the Gear Plaintiffs’ facts or the district court’s
analysis as to the email delivery fail-safe.
During the April 7 election, the Gear Plaintiffs applied for their mail-in
absentee ballots weeks in advance of Election Day, but their ballots did not arrive in
the mail. See dkt. 372, Declaration of Katherine Kohlbeck (“Kohlbeck Decl.”) ¶¶ 5, 9;
dkt. 375, Declaration of Bonibet Bahr Olsan (“Bahr Olsan Decl.”) ¶ 6; dkt. 376,
Declaration of Sheila Jozwik (“Sheila Jozwik Decl.”) ¶ 4 (requested ballot three
weeks in advance); dkt. 377, Declaration of Gregg Jozwik (“Gregg Jozwik Decl.”) ¶ 4
(same); dkt. 374, Declaration of Gary Fergot (“Gary Fergot Decl.”) ¶¶ 5, 7 (requested
ballot two weeks before Election Day); dkt. 373, Declaration of Diane Fergot (“Diane
Fergot Decl.”) ¶¶ 5, 7 (same). Five of them ultimately could not vote as a result of
these ballot processing and delivery failures and their vulnerability to COVID-19
due to underlying diseases, medical conditions, and/or age. See dkt. 372, Kohlbeck
Decl. ¶ 9; dkt. 375, Bahr Olsan Decl. ¶ 8; dkt. 376, Sheila Jozwik Decl. ¶ 8; dkt. 374,

21

Gary Fergot Decl. ¶ 7; dkt. 373, Diane Fergot Decl. ¶ 7. Currently, a civilian voter
can only request that a replacement ballot be sent by mail, but this is an exercise in
futility considering USPS failed to deliver the originally-requested ballot. During
the April 7 election, several Plaintiffs in fact tried to request that a replacement
mail-in absentee ballot be sent by mail, but those second requested ballots also
failed to arrive in time. See dkt. 372, Kohlbeck Decl. ¶¶ 7–9; dkt. 373, Diane Fergot
Decl. ¶¶ 5–7; dkt. 373, Gary Fergot Decl. ¶¶ 5–7. Numerous additional declarants
met the same fate; indeed, the district court found that the record was “replete”
with examples of voters not receiving their ballots on time or at all. App. 84–85.
Because the Seventh Circuit failed to acknowledge and consider this crucial record
evidence, it has entered a stay seemingly on the assumption that the court is only
denying relief to voters who wait until the “last minute” to apply for a mail-in ballot.
This was clearly and demonstrably erroneous.
The Seventh Circuit also failed to apply Purcell according to its express
terms. In misapplying this Court’s precedent, it again demonstrably erred and
abused its discretion. Per the district court’s order, this relief will take effect in less
than two weeks on October 22, about a month after the injunction was issued. App.
104. If this were a case in which a federal court had ordered a change in voting
rules and procedures that impose some obligation on voters and with which
Wisconsin voters had zero or little prior experience, those considerations might
weigh in favor of staying the injunction on Purcell grounds. There might be other
countervailing factors that outweigh those considerations, but that factor, at least,

22

would counsel in favor of delaying the injunction’s implementation. But this case is
different for two reasons.
First, because the extension of electronic ballot delivery to all voters is an
obligation imposed upon election officials, not voters, this is not a change in the law
that is susceptible to causing voter confusion. As Judge Rovner noted, “[o]nly two of
the five modifications that Judge Conley ordered alter what is expected of voters,”
and the email delivery fail-safe is not one of them. App. 10 (Rovner, J., dissenting).
Indeed, “[t]he other three changes are directed to election officials and what they
must do. By their nature, these changes will not impact voter decisions.” Id. at 11.
Second, the relief sought has been utilized in Wisconsin for two decades. And
for the last four years following One Wisconsin Institute (less about 77 days),
regular civilian voters, not just military and overseas voters, have been permitted to
request their ballots be delivered by email. Since email delivery has long been
available in Wisconsin, there is no such risk of voter confusion from the district
court’s ordering that this option be provided once again on a limited basis as a failsafe for voters who request but do not receive their ballot in the mail. This is a last
resort, not a first choice. In order to qualify for this relief, the voter must have
previously applied for an absentee ballot to be delivered by mail. App. 86.
Accordingly, most voters will never need to learn of this fail-safe. A voter will only
learn of their options for replacement ballot delivery if their ballot does not arrive in
the mail and they contact their clerk’s office to ask about their options. Because
most voters will never learn of this back-up option, it cannot confuse them or deter

23

them from voting. Regardless of whether voters know of this fail-safe before they
have a problem, it is crucial that this fail-safe be in place when overwhelmed
municipal clerks and USPS facilities cannot keep up with the demand, as in the
April 7 election, which saw half the total turnout anticipated for this election.
Moreover, since this alternative delivery option can only safeguard the rights of
voters who never received their ballot in the mail, this fail-safe does not undermine
Purcell’s express concerns with minimizing voter confusion or doing no harm to
voter turnout. Rather, it advances those objectives. Voters would be far more
confused and alienated from the electoral process if their timely-requested ballot did
not arrive in the mail, a replacement ballot also stalled, and no recourse was
available.
Voters’ preexisting familiarity with email delivery will of course vary. Some
will have used this method, but most will not. And only the last two and half
months have seen the availability of electronic transmission alternatives retracted
in part. That development, the result of the Seventh Circuit’s decision in Luft, will
never reach most lay voters’ attention, the overwhelming majority of whom, of
course, do not follow federal constitutional litigation or the technicalities of election
administration. If anything, voters who have previously requested email delivery
will be confused to learn that Luft has withdrawn this ballot delivery option,
especially since it was available for the last four years and earlier this year during
the April 7 Wisconsin Supreme Court and primary elections.

24

Recent Kenosha City Clerk Treasurer Debra Salas entered a declaration in
this matter, noting that voters in her city have come to rely on email delivery:
Despite the Seventh Circuit’s recent decision, once again restricting
email delivery of absentee ballots to military and overseas voters, it is
anticipated that many domestic civilian voters will request email
delivery of absentee ballots for the November general election. For
some domestic civilian voters, particularly those that are temporarily
away, or in counties with unreliable mail delivery, receiving a ballot
via email was the only way to guarantee the voter would have an
adequate amount of time to send their ballot back to the City Clerk’s
Office.
See dkt. 384, Declaration of Debra Salas (“Salas Decl.”) ¶ 10. To be clear, Plaintiffs
are not contesting the merits of Luft here. Instead, Plaintiffs take issue with the
Seventh Circuit’s decision to upset Wisconsin’s electoral status quo in late July, just
seven weeks before the first mailing of absentee ballots and, in light of that
decision’s timing, that court’s inconsistent imposition of a stay in this action.
Further, the Seventh Circuit could have stayed the One Wisconsin Institute
injunction during that appeal’s nearly four-year pendency after oral argument but
declined to do so. In that time, some portion of Wisconsin voters became wellaccustomed to email delivery as an option. Indeed, this option has been listed on
Form EL-121, the State’s absentee ballot application, for four years5 and was used
by nearly ten thousand voters in the last presidential election and thousands in the
April 7 election. See dkt. 423-20; dkt. 423-3; dkt. 382, Declaration of Maribeth
Witzel-Behl (“Witzel-Behl Decl.”) ¶¶ 7–8 (Madison City Clerk noting her office

The pre-Luft version included email delivery as an option without restriction. See
dkt. 423-20.
5

25

“delivered 2,225 mail-in absentee ballots by email upon voters’ requests” for April 7
election and at least “821 mail-in absentee ballots” for August 11 primary).
There is no factual or legal basis to conclude that Wisconsin voters will be
confused or deterred from participating in the election due to the limited fail-safe
for ballot delivery failures that the district court ordered.
b. The risk of increasing administrative burdens and costs is
similarly inapposite here.
Furthermore, there is no risk of election administrator confusion because
municipal clerks and their staff have used and been trained on email delivery of
mail-in absentee ballots for two decades. WEC’s staff has also become more adept at
implementing legal changes quickly and effectively. In April, the district court, the
Seventh Circuit, and this Court issued rulings mere days before the April 7 primary
election. See Democratic Nat’l Comm. v. Bostelmann, No. 20-cv-249, 2020 WL
1638374 (W.D. Wis. Apr. 2, 2020), stayed in part by Democratic Nat’l Comm. v.
Republican Nat’l Comm., No. 20-1538, 2020 WL 3619499 (7th Cir. Apr. 3, 2020),
stayed in part, 140 S. Ct. 1205 (2020). WEC has continually and successfully issued
new guidance, developed new policies, and updated its websites and materials
throughout the COVID-19 pandemic, trying to prepare for the November general
election. In the run-up to the April 7 election, WEC successfully issued over fifty
communications and guidance documents to clerks to keep pace with the
unprecedented and rapidly-evolving pandemic. See dkt. 446, Declaration of Meagan
Wolfe ¶ 23. Such extensive and ever-evolving administrative responses to the
pandemic ultimately proved manageable for WEC. The same will hold true here,

26

where the preliminary injunction offers voters a tested and proven alternative that
municipal clerks have used—without incident or dispute—for the last four years
(less 77 days) and with which many voters are already familiar. The district court’s
remedy ensures that a ballot can be timely delivered, and it ensures that the
success of the replacement ballot’s delivery need not turn on USPS’s efficacy.
This Court has rejected arguments that increased administrative burdens
and costs override First Amendment rights. See Tashjian v. Republican Party of
Connecticut, 479 U.S. 208, 218 (1986) (“[T]he possibility of future increases in the
cost of administering the election system is not a sufficient basis here for infringing
appellees’ First Amendment rights.”). This principle should apply with maximum
force in a case that concerns voters’ rights and where the requested relief will not
require any training of municipal clerks or retraining of poll workers. Poll workers
are, of course, not involved in absentee ballot delivery, and municipal clerks’ office
staff already have longstanding experience with email delivery.
The district court’s fail-safe remedy of electronic transmission as an
alternative ballot delivery method will only slightly increase the administrative
burdens on WEC and municipal clerks in just one respect. Remaking or duplicating
ballots is necessary when a ballot is electronically transmitted to the voter, so that
the voter’s choices can be scanned and tabulated. App. 85–86. That will mean some
additional back-end work during the processing and counting of ballots, but it is far
outweighed by the benefits of preventing the disenfranchisement of diligent voters
through ballot processing and delivery delays and failures and reducing demand for

27

and strain on polling places on Election Day. The district court observed that the
only declarations from municipal clerks in the record showed that “local election
officials themselves represent that this inconvenience is outweighed by the benefit
of having fewer, in-person voters on election day.” App. 86.
Furthermore, the record contains declarations from three municipal clerks
(two current and one former) for three of Wisconsin’s largest municipalities, all
noting that the duplication of electronically-delivered ballots is not an extreme
hardship and more than justified by its enfranchising effects. See dkt. 382, WitzelBehl Decl. ¶ 14 (representing that “value to voters who are trying to vote—and vote
safely—would far outweigh any inconvenience or burden to my staff and those
canvassing ballots at polling places”); dkt. 383, Declaration of Racine City Clerk
Tara Coolidge (“Coolidge Decl.”) ¶¶ 9–10 (same); dkt. 384, Salas Decl. ¶ 16 (same).
And because the cut-off for email delivery of replacement ballots under the
preliminary injunction is October 29, five days in advance of the election, that
leaves sufficient time according to Racine City Clerk Coolidge to ensure adequate
staffing at polling places to remake or duplicate ballots. Dkt. 383, Coolidge Decl. ¶¶
9–12. There is no evidence in the record to support the notion that the injunction
will prove unduly burdensome for state and local election officials. As the district
court concluded, a voter’s burden when a ballot does not arrive in the mail “is not
outweighed by the interests of the State.” App. 86.

28

Purcell, therefore, provides no basis to stay the district court’s order
permitting domestic civilian voters to request email delivery of replacement
absentee ballots when their initially-requested ballots do not arrive in the mail.
III.

The Legislature is unlikely to succeed on the merits of its
appeal.

The Legislature is unlikely to prevail on the merits because the burdens on
voters, particularly COVID-19-vulnerable voters, are extremely severe when a
timely-requested absentee ballot does not arrive in the mail. Yet no state interest
has been identified to justify this severe burden under the Anderson-Burdick
balancing test.
On March 11, 2020, the same day the World Health Organization declared
the novel coronavirus a pandemic, Plaintiff Katherine Kohlbeck received
devastating news: she had breast cancer, a potentially deadly condition in and of
itself, but also one that puts her at increased risk of severe illness or death from
COVID-19. Due to the pandemic, her life-saving surgery to remove the cancer would
be postponed to May—but, as a prerequisite for her surgery, she would need to test
negative for COVID-19. And so when her mail ballot for the April 7 election failed to
arrive by Election Day, she faced a stark choice: risk her life to vote in person, or
lose her right to vote. Unconstitutionally forced to make this impossible choice,
Plaintiff Kohlbeck lost her right to vote. See dkt. 372, Kohlbeck Decl. ¶¶ 3–9.
Stories like the this are all too common. At least one-third of Wisconsin
adults are at increased risk from COVID-19 due to their age and/or a preexisting
condition. See dkt. 370, Declaration of Dr. Megan Murray (“Murray Decl.”) ¶ 79. The

29

district court agreed that forcing voters to make these kinds of choices violates the
Constitution and enjoined a statutory restriction on electronic ballot delivery so
that voters who timely request mail-in ballots but fail to receive them can request
that a replacement ballot be electronically transmitted to them between October 22
and October 29. App. 52–54.
The minimal discussion of the merits in the Seventh Circuit’s stay order
shows that court demonstrably erred in staying the distinct relief afforded to the
Gear Plaintiffs by relying upon a clearly erroneous reading of the record and failing
to give the district court’s factual findings proper deference. See Purcell, 549 U.S. at
5. In conflating the distinct claims and remedies in these four consolidated cases,
the Seventh Circuit appears to have overlooked the unique harm established by the
Gear Plaintiffs’ evidence.
To the extent the Seventh Circuit considered the merits of the Gear action,
the court erred in concluding the Legislature was likely to succeed on the merits of
the appeal. For Anderson-Burdick claims alleging an undue burden on the right to
vote, this Court has developed the following test:
[T]he rigorousness of our inquiry into the propriety of a state election law
depends upon the extent to which a challenged regulation burdens First and
Fourteenth Amendment rights. Thus, as we have recognized when those
rights are subjected to “severe” restrictions, the regulation must be “narrowly
drawn to advance a state interest of compelling importance.” Norman v.
Reed, 502 U.S. 279, 289, 112 S.Ct. 698, 705, 116 L.Ed.2d 711 (1992). But
when a state election law provision imposes only “reasonable,
nondiscriminatory restrictions” upon the First and Fourteenth Amendment
rights of voters, “the State’s important regulatory interests are generally
sufficient to justify” the restrictions. Anderson, 460 U.S., at 788, 103 S.Ct., at
1569–1570; see also id., at 788–789, n. 9, 103 S.Ct., at 1569–1570, n. 9.

30

Burdick v. Takushi, 504 U.S. 428, 434 (1992). “A court considering a challenge to a
state election law must weigh the character and magnitude of the asserted injury to
the rights protected by the First and Fourteenth Amendments that the plaintiff
seeks to vindicate against the precise interests put forward by the State as
justifications for the burden imposed by its rule, taking into consideration the
extent to which those interests make it necessary to burden the plaintiff’s rights.”
Id. at 434 (citations and quotation marks omitted).
The district court granted an exceedingly narrow remedy to ensure diligent,
but vulnerable, voters could still cast their absentee ballots: “[T]he relief requested
is narrowly tailored only to those voters who timely fulfilled all of the necessary
steps to vote by mail, but were thwarted through no fault of their own.” App. 85.
But, again, the Seventh Circuit mistakenly focused only on voters who apply for
absentee ballots at the “last minute,” App. 4, not voters who apply weeks or more in
advance, as Plaintiffs did. The Seventh Circuit thus demonstrably erred in failing to
consider the circumstances of the Gear Plaintiffs and record evidence of similarlysituated voters who did not wait until the “last minute” but still failed to receive a
ballot in the mail. App. 84–85.
Moreover, it was the Gear Plaintiffs who suggested to the district court that
this narrow remedy could be further narrowed by limiting eligibility for this backup option to voters who had applied for an absentee ballot some number of days in
advance of the fail-safe period to obtain a replacement ballot by email. See dkt. 505
at 34. If the Seventh Circuit sought to incentivize diligent voter behavior while

31

safeguarding voters’ rights in keeping with this Court’s precedents, that would
counsel in favor of modifying the preliminary injunction in accordance with
Plaintiffs’ original suggestion, not staying the relief in full.
In this case, the district court applied the Anderson-Burdick framework and
correctly concluded that the confluence of the COVID-19 pandemic, USPS’s delivery
delays and failures, and WEC’s ongoing challenges in meeting the unprecedented
demand for mail-in absentee ballots necessitates limited relief to guarantee that
voters have a fail-safe option when their ballots do not arrive in the mail on time or
at all:
[T]he evidence is nearly overwhelming that the pandemic does present
a unique need for relief in light of: (1) the experience during the Spring
election, (2) much greater projected numbers of absentee ballot
requests and votes in November, and (3) ongoing concerns about the
USPS’s ability to process the delivery of absentee ballot applications
and ballots timely. None of this was remotely contemplated by the
Legislature in fashioning an election system based mainly in person
voting, nor addressed by the Seventh Circuit’s recent decision in Luft.
App. 85 (emphasis in original). The district court found that the record was “replete”
with examples of voters not receiving their ballots on time or at all. App. 84–85.
Under these exigent circumstances, the district court’s relief was necessary in order
to comply with the Seventh Circuit’s instruction that because “‘the right to vote is
personal’ . . . ‘the state must accommodate voters’ who cannot meet the state’s
voting requirements ‘with reasonable effort.’” App. 66 (quoting Luft, 963 F.3d at
669). A voter who does not receive a timely-requested ballot in the mail and cannot
safely vote in person at the polls is denied their right to vote without any
justification—the Anderson-Burdick burdens-versus-interests balancing scales tip

32

decisively in one direction. Accordingly, as the district court concluded, vulnerable
voters’ rights will depend on this fail-safe remedy and, therefore, this was indeed a
case for intervention to protect a narrow subset of voters from disenfranchisement,
in compliance with this Court’s precedents: “Finding that plaintiffs are likely to
succeed on their claim that limiting receipt of absentee ballots to mail delivery
burdens voters’ rights who fail to receive their absentee ballot timely, and that this
burden is not outweighed by the interests of the State, the court will grant that
relief.” App. 85–86.
Luft v. Evers—a case decided on a record developed long before the COVID-19
pandemic, the concomitant surge in demand for mail ballots, and USPS delivery
breakdowns—does not change the above calculus and does not foreclose this action.
Even a holistic analysis of Wisconsin’s entire election code provides no recourse for
voters who do not receive their ballot in the mail and cannot vote safely in person
due to their age or comorbidities and, therefore, no defense against this AndersonBurdick claim. Luft, 963 F.3d at 671–72. As the district court found, voters will
reasonably conclude that they cannot safely vote in person due to COVID-19. App.
51 (“[T]he aged, those with comorbidities or those lacking confidence in the ability of
local officials and the public to get all those [COVID-19 infection control] factors
right are understandably less confident in that assessment.”). Because no law
safeguards the right to vote safely during this pandemic when a mail-in absentee
ballot is not delivered, judicial intervention was necessary to safeguard vulnerable
voters’ rights in these exigent (and hopefully rare) circumstances.

33

The Legislature has argued that Plaintiffs can vote in person safely, R. 9-1 at
17,6 but this argument is completely undermined by the epidemiological evidence in
the record, which the district court credited, App. 23, and the evidence of unsafe
conditions at polling places. See, e.g., dkt. 386, Declaration of Barbara Keresty ¶¶
3–7. Relying on expert witness evidence, the district court found that the COVID-19
pandemic poses an extremely serious danger to in-person voters, particularly those
at higher risk. App. 23 (“[P]laintiffs have produced a credible expert report that
concludes in-person voting in November will continue to pose ‘a significant risk to
human health’ due to the COVID-19 pandemic.”) (citation omitted). The threat of
airborne transmission in indoor settings where people congregate is real,
substantial, and not meaningfully mitigated by any of the available protective
measures. See dkt. 370 Murray Decl. ¶¶ 6-20, 32–44, 48–56; see also dkt. 490, Reply
Declaration of Dr. Megan Murray (“Murray Reply. Decl.”) ¶¶ 1-3; dkt. 490-1. This is
especially so given pre-symptomatic and asymptomatic voters can unwittingly
transmit SARS-CoV-2. See dkt. 370, Murray Decl. ¶¶ 8-9, 32–42. The district court
found

that

“[c]ertain

individuals,

such

as

those

who

are

elderly,

immunocompromised or suffer comorbidities, are at a greater risk for complications
from COVID-19” and that in-person appearances pose too great a risk of COVID-19
exposure and therefore severely restrict their right to vote. App. 42; see also App. 72
(noting registration cut-off “will likely restrict many Wisconsin citizens’ freedom to
exercise their right to vote, at least without having to take unnecessary risks of
Citations to the docket of the action below in the consolidated Seventh Circuit
proceedings, 20-2835, take the form “R. __.”
6

34

COVID-19 exposure by registering in person, and for some significant minority of
citizens, will severely restrict that right because of age, comorbidities or other
health concerns”); see also App. 14 (Rovner, J., dissenting) (“[L]eaving one’s home
and joining other voters at the polls carries with it a genuine risk of becoming
seriously ill.”). These findings were entitled to deference, absent a showing of clear
error. Forcing voters to take this risk is per se a severe burden on the right to vote.
App. 28 (Rovner, J., dissenting) (noting “the unacceptable risks that in-person
voting presents to the citizens of Wisconsin”). Given the overwhelming record
evidence of the risks to COVID-19-vulnerable voters from voting in person at a
polling place, if these individuals cannot vote safely absentee by mail, they cannot
vote at all.
Furthermore, Wisconsin is experiencing alarming rates of infection,
hospitalization, and death from COVID-19. As the district court found, “with flu
season yet to arrive, Wisconsin has already broken numerous new case records this
month, with over 2,000 new cases reported on September 17, 2020, up from a daily
average of 1,004 just one week prior.” App. 52; see also App. 13 (Rovner, J.,
dissenting) (“[I]t is only now that Wisconsin is facing crisis-level conditions. . . .
Wisconsin infection rates in early May were less than one quarter of what they are
now.”) (emphasis in original).7

Judge Rovner added: “As of Tuesday, October 6, a seven-day average of 2,346 new
cases of Covid-19 was reported. The Governor has declared a public health
emergency. A draft report from the White House Coronavirus Task Force dated
Monday of last week described a ‘rapid worsening of the epidemic’ in Wisconsin and
placed the State in the ‘red zone’ for Covid-19 cases, with the third-highest number
7

35

Accordingly, the Legislature is unlikely to prevail on the merits.
IV.

The other equitable Nken factors also militate in favor of
vacating the stay.

The Seventh Circuit also demonstrably erred in granting the Legislature’s
stay motion because the Legislature failed to articulate an irreparable harm. “The
first two factors of the traditional standard are the most critical.” Nken, 556 U.S. at
434. The Legislature states merely, “‘[T]he inability [of the State] to enforce its duly
enacted plans clearly inflicts irreparable harm on the State’ by interfering with its
sovereignty.” R. 9-1 at 20. It appears to contend that an injunction against a
Wisconsin law per se causes irreparable harm to the Legislature, but there is no
majority opinion from this Court or the Seventh Circuit that stands for that
proposition. Maryland v. King, 567 U.S. 1301, 133 S. Ct. 1 (2012) (Roberts, C.J., in
chambers), and New Motor Vehicle Bd. of Calif. v. Orrin W. Fox Co., 434 U.S. 1345
(1977) (Rehnquist, J., in chambers), relied on concrete evidence of irreparable harm
to the states’ interests, not a mere abstraction. See, e.g., King, 133 S. Ct. at 3 (“Here
there is . . . an ongoing and concrete harm to Maryland’s law enforcement and
public safety interests. . . Collecting DNA from individuals arrested for violent
felonies provides a valuable tool for investigating unsolved crimes and thereby

of such cases per 100,000 population in the country and seventh-highest test
positivity rate. Nearly half of all Wisconsin counties now have high levels of
community transmission. Coronavirus Task Force, State Report—Wisconsin, at 1
(Sept. 27, 2020). Hospitalization rates are at record highs in the State, with
facilities in northeast Wisconsin approaching capacity due to the surge in Covid-19
cases . . .” App. 20-21 (Rovner, J., dissenting). The Legislature no longer argues that
it is speculative that COVID-19 transmission will be continuing through Election
Day. See dkt. 454 at 125.
36

helping to remove violent offenders from the general population. . . . That Maryland
may not employ a duly enacted statute to help prevent these injuries constitutes
irreparable harm.” (internal citation omitted) (emphasis added)); New Motor Vehicle
Bd. of Calif., 434 U.S. at 1351 (holding that state’s interest in “examining the
proposed relocations” of car dealerships is “infringed by the very fact that the State
is prevented from engaging in investigation and examination”).
Here, the Legislature has not identified any specific, irreparable harms to the
state’s interests that the district court’s injunction will cause. The little it did say in
its stay motion, pointing to hypothetical administrative burdens on municipal
clerks, see R. 9-1 at 16- 17, 21, is contradicted by municipal clerk declarations in the
record. Supra at 27–28. Instead of baldly asserting that third parties would face
substantial burdens, the Legislature could have substantiated its argument with
declarations from one of the state’s 1,850 municipal clerks. The district court could
not consider evidence that was not presented, and its factual finding that electronic
delivery of replacement ballots would benefit clerks and voters alike is owed
deference. The district court considered the burden the fail-safe option would
impose on clerks, but correctly concluded that administrative burden did not
outweigh the burden on the right to vote of individuals who need to cast an
absentee ballot to protect their health but fail to receive their ballots by mail. App.
85–86. The district court’s analysis thus conforms to this Court’s precedent holding
that increased administrative costs cannot override rights protected by the First
Amendment. Tashjian, 479 U.S. at 218. If such costs cannot override these rights, it

37

follows that they also cannot constitute irreparable harms. Because the Legislature
has failed to identify any irreparable harm, the Seventh Circuit’s stay should be
vacated.
Finally, the public interest strongly favors vacating the stay of this narrow
relief to protect voters’ rights. Democratic Exec. Comm. of Fla. v. Lee, 915 F.3d 1312,
1322 (11th Cir. 2019) (“Without a doubt, Florida has a legitimate and strong
interest in preventing voter fraud. But that interest is not mutually exclusive of
vote-by-mail and provisional voters’ interest in not being disenfranchised through
no fault of their own.” (internal citation omitted)); Obama for Am. v. Husted, 697
F.3d 423, 436–37 (6th Cir. 2012) (“While states have ‘a strong interest in their
ability to enforce state election law requirements,’ the public has a ‘strong interest
in exercising the ‘fundamental political right’ to vote.’ ‘That interest is best served
by favoring enfranchisement and ensuring that qualified voters’ exercise of their
right to vote is successful.’ (internal citations omitted)). The district court’s fail-safe
remedy authorizes the extension of electronic ballot delivery, as is already in use for
military and overseas voters, to ensure no voter is disenfranchised through no fault
of their own. This is manifestly in the public interest, because vindicating
constitutional rights always serves the public interest. See Elrod v. Burns, 427 U.S.
347, 373 (1976) (plurality opinion) (“The loss of First Amendment freedoms, for even
minimal periods of time, unquestionably constitutes irreparable injury.”).
Voters and election administrators alike have been forced to adapt to the
COVID-19 pandemic. As the district court found, this has meant overwhelmed

38

election office staff and USPS workers trying but failing to handle an
unprecedented shift to mail-in absentee balloting. App. 44–46, 51–54, 79–86. It has
also caused Wisconsin voters to seek to protect themselves by voting by mail in
unprecedented numbers. Voters who are at higher risk from COVID-19 cannot vote
safely in person when their requested ballot does not arrive in the mail, and it is
unreasonable for the state to require them to risk their health to cast a ballot they
timely requested but never received. The Gear Plaintiffs, including the two
organizational plaintiffs League of Women Voters and Wisconsin Alliance for
Retired Americans who assist and educate voters who have failed to receive their
ballots in the mail, were determined to prevent a recurrence of this mass
disenfranchisement. The district court’s narrow relief ensures that no voter will lose
their right to vote when a ballot is lost in the system. That relief should be allowed
to take effect.

39

CONCLUSION
Respectfully, Plaintiffs request that this Court vacate the stay as to the part
of the preliminary injunction authorizing the electronic delivery of replacement
ballots to domestic civilian voters when their timely-requested ballot does not arrive
in the mail.
DATED: October 13, 2020

Respectfully submitted,
/s/ Jon Sherman

DOUGLAS M. POLAND
JEFFREY A. MANDELL
STAFFORD ROSENBAUM LLP
222 West Washington Ave., Suite 900
P.O. Box 1784
Madison, Wisconsin 53701-1784
dpoland@staffordlaw.com
jmandell@staffordlaw.com
(608) 256-0226

JON SHERMAN
Counsel of Record
MICHELLE KANTER COHEN
FAIR ELECTIONS CENTER
1825 K St. NW, Suite 450
Washington, DC 20006
jsherman@fairelectionscenter.org
mkantercohen@fairelectionscenter.org
(202) 331-0114
Attorneys for Plaintiffs-Applicants

40

APPENDIX

APPENDIX TABLE OF CONTENTS
Opinion Granting Stay, United States Court of Appeals for the
Seventh Circuit, dated October 8, 2020…………………...……..…………...A1
Opinion and Order Granting Preliminary Injunction, United States
District Court for the Western District of Wisconsin, dated September
21, 2020…………………………………………………………………….………A33
Preliminary Injunction Order, United States District Court for the
Western District of Wisconsin, dated September 21, 2020………………...A102
Wisconsin Legislature’s Emergency Motion to Stay the Preliminary
Injunction, United States Court of Appeals for the Seventh Circuit,
dated September 23, 2020 [exhibits omitted].……………………...………..A105
Gear v. Bostelmann Plaintiffs-Appellees’ Opposition to Emergency
Motion to Stay the Preliminary Injunction, United States Court
of Appeals for the Seventh Circuit, dated September 25, 2020…………...A130
Judgment, One Wisconsin Institute v. Thomsen, United States District
Court for the Western District of Wisconsin, dated August 1, 2016……...A150
Notice of Cross-Appeal, One Wisconsin Institute v. Thomsen, United
States District Court for the Western District of Wisconsin, dated
August 3, 2016……………………………………………………………………..A153
Emergency Motion to Stay Injunction Pending Appeal, One Wisconsin
Institute v. Thomsen, United States Court of Appeals for the Seventh
Circuit, dated August 12, 2016………………...….…………………………….A155
Order Denying Emergency Motion to Stay, One Wisconsin Institute v.
Thomsen, United States Court of Appeals for the Seventh Circuit,
dated August 22, 2016……………………………………………………………A175
Opinion Denying Petition for Initial Hearing En Banc, United States
Court of Appeals for the Seventh Circuit, dated August 26, 2016………...A176
Notice of Issuance of Mandate, One Wisconsin Institute v. Thomsen,
United States Court of Appeals for the Seventh Circuit, dated
July 29, 2020……………………………………………………………………….A180

Case: 20-2835

Document: 76

Filed: 10/08/2020

Pages: 32

In the

United States Court of Appeals
For the Seventh Circuit
____________________
Nos. 20-2835 & 20-2844
DEMOCRATIC NATIONAL COMMITTEE, et al.,
Plaintiffs-Appellees,
v.
MARGE BOSTELMANN, SECRETARY
ELECTIONS COMMISSION, et al.,

OF

THE

WISCONSIN
Defendants,

and
WISCONSIN STATE LEGISLATURE, REPUBLICAN NATIONAL
COMMITTEE, and REPUBLICAN PARTY OF WISCONSIN,
Intervening Defendants-Appellants.
____________________
Appeals from the United States District Court
for the Western District of Wisconsin.
Nos. 20-cv-249-wmc, et al. — William M. Conley, Judge.

____________________
SUBMITTED OCTOBER 6, 2020 — DECIDED OCTOBER 8, 2020
____________________
Before EASTERBROOK, ROVNER, and ST. EVE, Circuit Judges.
PER CURIAM. On September 29, 2020, we issued an order
denying the motions for a stay in these appeals, because we

A1

Case: 20-2835

Document: 76

Filed: 10/08/2020

2

Pages: 32

Nos. 20-2835 & 20-2844

concluded that Wisconsin’s legislative branch has not been
authorized to represent the state’s interest in defending its
statutes. On October 2, in response to a request for reconsideration, we certified to the Supreme Court of Wisconsin the
question “whether, under Wis. Stat. §803.09(2m), the State
Legislature has the authority to represent the State of Wisconsin’s interest in the validity of state laws.” That court accepted the certification and replied that the State Legislature
indeed has that authority. Democratic National Committee v.
Bostelmann, 2020 WI 80 (Oct. 6, 2020). In light of that conclusion, we grant the petition for reconsideration and now address the Legislature’s motion on the merits. (The other intervenors have not sought reconsideration.)
As we explained last week, a district judge held that
many provisions in the state’s elections code may be used
during the SARS-CoV-2 pandemic but that some deadlines
must be extended, additional online options must be added,
and two smaller changes made. 2020 U.S. Dist. LEXIS 172330
(W.D. Wis. Sept. 21, 2020). In particular, the court extended
the deadline for online and mail-in registration from October
14 (see Wis. Stat. §6.28(1)) to October 21, 2020; enjoined for
one week (October 22 to October 29) enforcement of the requirement that the clerk mail all ballots, but only for those
voters who timely requested an absentee ballot but did not
receive one, and authorized online delivery during this time;
and extended the deadline for the receipt of mailed ballots
from November 3 (Election Day) to November 9, provided
that the ballots are postmarked on or before November 3.
Two other provisions of the injunction (2020 U.S. Dist. LEXIS
172330 at *98) need not be described.

A2

Case: 20-2835

Document: 76

Filed: 10/08/2020

Nos. 20-2835 & 20-2844

Pages: 32

3

The State Legislature oﬀers two principal arguments in
support of a stay: first, that a federal court should not change
the rules so close to an election; second, that political rather
than judicial oﬃcials are entitled to decide when a pandemic
justifies changes to rules that are otherwise valid. See Luft v.
Evers, 963 F.3d 665 (7th Cir. 2020) (sustaining Wisconsin’s
rules after reviewing the elections code as a whole). We
agree with both of those arguments, which means that a stay
is appropriate under the factors discussed in Nken v. Holder,
556 U.S. 418, 434 (2009).
For many years the Supreme Court has insisted that federal courts not change electoral rules close to an election
date. One recent instance came in an earlier phase of this
case. After the district judge directed Wisconsin to change
some of its rules close to the April 2020 election, the Supreme
Court granted a stay (to the extent one had been requested)
and observed that the change had come too late. Republican
National Committee v. Democratic National Committee, 140 S. Ct.
1205, 1207 (2020). One of the decisions cited in that opinion
is another from Wisconsin: Frank v. Walker, 574 U.S. 929
(2014). In Frank this court had permitted Wisconsin to put its
photo-ID law into eﬀect, staying a district court’s injunction.
But the Supreme Court deemed that change (two months
before the election) too late, even though it came at the
state’s behest. (Frank did not give reasons, but Republican National Committee treated Frank as an example of a change
made too late.) Here the district court entered its injunction
on September 21, only six weeks before the election and less
than four weeks before October 14, the first of the deadlines
that the district court altered. If the orders of last April, and
in Frank, were too late, so is the district court’s September

A3

Case: 20-2835

Document: 76

Filed: 10/08/2020

4

Pages: 32

Nos. 20-2835 & 20-2844

order in this case. See also Purcell v. Gonzalez, 549 U.S. 1
(2006).
The Justices have deprecated but not forbidden all
change close to an election. A last-minute event may require
a last-minute reaction. But it is not possible to describe
COVID-19 as a last-minute event. The World Health Organization declared a pandemic seven months ago, the State of
Wisconsin closed many businesses and required social distancing last March, and the state has conducted two elections (April and August) during the pandemic. If the judge
had issued an order in May based on April’s experience, it
could not be called untimely. By waiting until September,
however, the district court acted too close to the election.
The district judge also assumed that the design of adjustments during a pandemic is a judicial task. This is doubtful, as Justice Kavanaugh observed in connection with the
Supreme Court’s recent stay of another injunction issued
close to the upcoming election. Andino v. Middleton, No.
20A55 (U.S. Oct. 5, 2020) (Kavanaugh, J., concurring). The
Supreme Court has held that the design of electoral procedures is a legislative task. See, e.g., Rucho v. Common Cause,
139 S. Ct. 2484 (2019); Burdick v. Takushi, 504 U.S. 428 (1992).
Voters have had many months since March to register or
obtain absentee ballots; reading the Constitution to extend
deadlines near the election is diﬃcult to justify when the
voters have had a long time to cast ballots while preserving
social distancing. The pandemic has had consequences (and
appropriate governmental responses) that change with time,
but the fundamental proposition that social distancing is
necessary has not changed since March. The district court
did not find that any person who wants to avoid voting in

A4

Case: 20-2835

Document: 76

Filed: 10/08/2020

Nos. 20-2835 & 20-2844

Pages: 32

5

person on Election Day would be unable to cast a ballot in
Wisconsin by planning ahead and taking advantage of the
opportunities allowed by state law. The problem that concerned the district judge, rather, was the diﬃculty that could
be encountered by voters who do not plan ahead and wait
until the last day that state law allows for certain steps. Yet,
as the Supreme Court observed last April in this very case,
voters who wait until the last minute face problems with or
without a pandemic.
The Court has consistently stayed orders by which federal judges have used COVID-19 as a reason to displace the
decisions of the policymaking branches of government. It
has stayed judicial orders about elections, prison management, and the closure of businesses. We have already mentioned Andino and Republican National Committee. See also
Clarno v. People Not Politicians Oregon, No. 20A21 (U.S. Aug.
11, 2020) (staying an injunction that had altered a state’s signature and deadline requirements for placing initiatives on
the ballot during the pandemic); Merrill v. People First of Alabama, No. 19A1063 (U.S. July 2, 2020) (staying an injunction
that had suspended some state anti-fraud rules for absentee
voting during the pandemic); Barnes v. Ahlman, 140 S. Ct.
2620 (2020) (staying an order that overrode a prison warden’s decision about how to cope with the pandemic); Little
v. Reclaim Idaho, 140 S. Ct. 2616 (2020) (staying an injunction
that changed the rules for ballot initiatives during the pandemic); South Bay United Pentecostal Church v. Newsom, 140 S.
Ct. 1613 (2020) (declining to suspend state rules limiting
public gatherings during the pandemic).
Deciding how best to cope with diﬃculties caused by
disease is principally a task for the elected branches of gov-

A5

Case: 20-2835

Document: 76

Filed: 10/08/2020

6

Pages: 32

Nos. 20-2835 & 20-2844

ernment. This is one implication of Jacobson v. Massachusetts,
197 U.S. 11 (1905), and has been central to our own decisions
that have addressed requests for the Judicial Branch to supersede political oﬃcials’ choices about how to deal with the
pandemic. See, e.g., Tully v. Okeson, No. 20-2605 (7th Cir. Oct.
6, 2020) (rejecting a contention that the Constitution entitles
everyone to vote by mail during a pandemic); Illinois Republican Party v. Pritzker, No. 20-2175 (7th Cir. Sept. 3, 2020) (rejecting a constitutional challenge to limits on the size of political gatherings during the pandemic); Peterson v. Barr, 965
F.3d 549 (7th Cir. 2020) (reversing an injunction that had altered procedures for executions during the pandemic); Morgan v. White, 964 F.3d 649 (7th Cir. 2020) (social distancing
during a pandemic does not require, as a constitutional
matter, a change in the rules for qualifying referenda for the
ballot); Elim Romanian Pentecostal Church v. Pritzker, 962 F.3d
341 (7th Cir. 2020) (rejecting a constitutional challenge to
limits on the size of religious gatherings during the pandemic). Cf. Mays v. Dart, No. 20-1792 (7th Cir. Sept. 8, 2020) (reversing, for legal errors, an injunction that specified how
prisons must be managed during the pandemic).
The injunction issued by the district court is stayed pending final disposition of these appeals.

A6

Case: 20-2835

Document: 76

Filed: 10/08/2020

Nos. 20-2835 & 20-2844

Pages: 32

7

ROVNER, Circuit Judge, dissenting. In the United States of
America, a beacon of liberty founded on the right of the people to rule themselves, no citizen should have to choose between her health and her right to vote. An election system designed for in-person voting, coupled with an uncontrolled
pandemic that is unprecedented in our lifetimes, confronts
Wisconsin voters with that very choice. In the April 2020 election, Wisconsin voters sought overwhelmingly to protect
themselves by voting absentee. Yet at least 100,000 of them,
despite timely requests, did not receive their ballots in time to
return them by election day, as the Wisconsin election code
requires. Only as a result of judicial intervention in the April
2020 election were some 80,000 absentee ballots, their return
delayed by an overwhelmed election apparatus and Postal
Service, rescued from the trash bin. Thousands of additional
voters who never received their ballots were forced to stand
in line for hours on election day waiting to vote in person,
risking their well-being by doing so.
For purposes of the upcoming November election, the district court ordered a limited, reasonable set of modifications
to Wisconsin’s election rules designed to address the very
problems that manifested in the April election and to preserve
the precious right of each Wisconsin citizen to vote. Its two
most important provisions are comparable to those this very
court sustained six months ago. The Wisconsin Election Commission, whose members are appointed by the Legislature
and the Governor and are charged with administering the
State’s elections, has acceded to that injunction. It is not here
complaining of any undue burden imposed by the district
court’s decision or any risk of voter confusion. Only the Wisconsin Legislature, which has chosen to make no accommodations in the election rules to account for the burdens created

A7

Case: 20-2835

Document: 76

Filed: 10/08/2020

8

Pages: 32

Nos. 20-2835 & 20-2844

by the pandemic, seeks a stay of the injunction in furtherance
of its own power.
Today, by granting that stay, the court adopts a hands-off
approach to election governance that elevates legislative prerogative over a citizen’s fundamental right to vote. It does so
on two grounds: (1) the Supreme Court’s Purcell doctrine, as
exemplified by the Court’s recent shadow-docket rulings, in
the majority’s view all but forbids alterations to election rules
in the run-up to an election; and (2) in times of pandemic, revisions to election rules are the province of elected state officials rather than the judiciary. With respect, I am not convinced that either rationale justifies a stay of the district
court’s careful, thorough, and well-grounded injunction. At a
time when judicial intervention is most needed to protect the
fundamental right of Wisconsin citizens to choose their
elected representatives, the court declares itself powerless to
do anything. This is inconsistent both with the stated rationale
of Purcell and with the Anderson-Burdick framework, which
recognizes that courts can and must intervene to address unacceptable burdens on the fundamental right to vote. The inevitable result of the court’s decision today will be that many
thousands of Wisconsin citizens will lose their right to vote
despite doing everything they reasonably can to exercise it.
This is a travesty.
On the facts of the case, I see no deviation from Purcell. In
all of two sentences, Purcell articulated not a rule but a caution: take care with last-minute changes to a state’s election
rules, lest voters become confused and discouraged from voting. Purcell v. Gonzalez, 549 U.S. 1, 4–5, 127 S. Ct. 5, 7 (2006)

A8

Case: 20-2835

Document: 76

Filed: 10/08/2020

Nos. 20-2835 & 20-2844

Pages: 32

9

(per curiam).1 In a series of stay rulings on its shadow docket
since that decision, the Supreme Court has evinced a pronounced skepticism of judicial intervention in the weeks prior
to an election, e.g. Andino v. Middleton, — S. Ct. —, 2020 WL
5887393 (U.S. Oct. 5, 2020), but has put little meat on the bones
of what has become known as the Purcell doctrine. See Nicholas Stephanopoulos, Freeing Purcell from the Shadows, Election
Law Blog (Sept. 27, 2020) (hereinafter, “Freeing Purcell”)
(“[d]espite all of this activity, the Purcell principle remains remarkably opaque”)2. Perhaps we can say at this point that
Purcell and its progeny establish a presumption against judicial intervention close in time to an election. See id. (“This is
the reading most consistent with Purcell’s actual language.”).
But how near? As to what types of changes? Overcome by
what showing? These and other questions remain unanswered.
The Supreme Court’s stay decision in this case regarding
the April 2020 election did little to clear things up. This court
had denied a stay as to two changes the district court ordered
for purposes of that spring election: extending the deadline
for requesting an absentee ballot, and extending the deadline
for receipt of completed absentee ballots. Dem. Nat’l Com. v.
Bostelmann, 2020 WL 3619499, at *1 (7th Cir. April 3, 2020). The
Wisconsin Legislature appealed only the ballot-receipt deadline. Although the Court had critical things to say about the
“Court orders affecting elections, especially conflicting orders, can themselves result in voter confusion and consequent incentive to remain away
from the polls. As an election draws closer, that risk will increase.” Purcell,
549 U.S. at 4–5, 127 S. Ct. at 7.

1

2

Available at https://electionlawblog.org/?p=115834.

A9

Case: 20-2835

Document: 76

Filed: 10/08/2020

10

Pages: 32

Nos. 20-2835 & 20-2844

last-minute change in rules ordered by the district court’s injunction (in part because the district court had ordered relief
beyond what the plaintiffs themselves had requested), it then
proceeded to impose one of its own, ordering that absentee
ballots must either be delivered or postmarked on or before
election day in order to be counted. Repub. Nat’l Com. v. Dem.
Nat’l Com., 140 S. Ct. 1205, 1207, 1208 (2020). The Court was
also at pains to emphasize that it was reserving judgment as
to “whether other reforms or modifications in election procedures in light of COVID-19 are appropriate.” Id. at 1208. Apart
from that, the Supreme Court’s pattern of staying similar sorts
of injunctions in recent months is long on signaling but short
on concrete principles that lower courts can apply to the specific facts before them.
Until the Supreme Court gives us more guidance than Purcell and an occasional sentence or two in its stay rulings have
provided, all that lower courts can do—and, I submit, must
do—is carefully evaluate emergent circumstances that
threaten to interfere with the right to vote and conscientiously
evaluate all of the factors that bear on the propriety of judicial
intervention to address those circumstances, including in particular the possibility of voter confusion.
A variety of factors should inform a court’s decision
whether or not to modify election rules. See Freeing Purcell. On
balance, these factors support rather than undermine the district court’s decision here.
The first consideration is whether the proposed modifications might confuse voters. That risk is minimal here. Only
two of the five modifications that Judge Conley ordered alter
what is expected of voters: the extension of the deadline to
register online or by mail, and the extension of the deadline

A10

Case: 20-2835

Document: 76

Filed: 10/08/2020

Nos. 20-2835 & 20-2844

Pages: 32

11

for receipt of absentee ballots. Both of these modifications redound to the benefit of voters, and certainly do not lay a trap
for the unwary. We upheld (i.e., denied a stay as to) comparable changes for the April election, and the Supreme Court
modified the latter only to the extent of requiring that an
absentee ballot be delivered or postmarked on or before
election day.3 Neither we nor our superiors would have done
so had there been a substantial risk of confusing voters. The
other three changes are directed to election officials and what
they must do. By their nature, these changes will not impact
voter decisions.
A second consideration is whether the changes to election
rules will burden election officials and increase the odds that
they make mistakes. Judge Conley gave careful attention to
whether state election officials would have the time and ability to implement the changes he ordered. The Wisconsin Election Commission signaled a preparedness and ability to comply with these modifications (more on these points below),
and the State Executive is not here to contend otherwise.
We must consider, third, the likelihood that voter disenfranchisement will ensue from the changes Judge Conley ordered. The answer here is straightforward: it will not. On the
contrary, his directives are aimed at preventing disenfranchisement. And as detailed below, the results of the April
In its April decision, this court denied a stay as to an extension of the
deadline to request an absentee ballot and the deadline for receipt of a
completed absentee ballot. Bostelmann, 2020 WL 3619499, at *1. The district
court had also ordered an extension of the deadline to register online for
the April election, see Dem. Nat’l Com. v. Bostelmann, 447 F. Supp. 3d 757,
765–67 (W.D. Wis. Mar. 20, 2020), but a stay was not sought as to that extension.
3

A11

Case: 20-2835

Document: 76

Filed: 10/08/2020

12

Pages: 32

Nos. 20-2835 & 20-2844

election in Wisconsin demonstrate that only in the absence of
judicial intervention will voters be disenfranchised.
Fourth, there has been no lack of diligence on the part of
the plaintiffs in seeking relief. They sought relief in advance
of the April election, as the pandemic was heating up, succeeded in part as to that election, and promptly renewed their
pursuit of relief in the immediate aftermath of that election.
After they defeated the Legislature’s attempt to dismiss their
claims, see Dem. Nat’l Com. v. Bostelmann, 2020 WL 3077047
(W.D. Wis. June 10, 2020), they proceeded with discovery,
presented their case at an evidentiary hearing in August, and
obtained a favorable ruling in September. There has been no
dallying on the plaintiffs’ part. For its part, the district judge
responded with both alacrity and attention to detail. But according to this court, which has retroactively announced a
May deadline for any changes to election rules, it was all for
naught—their work was over before it began.
Fifth and finally, although the election is drawing close,
the district judge issued his injunction six weeks prior to the
election, leaving ample time for Wisconsin election officials to
alter election practices as ordered and communicate the
changes to the public, and for his judgment to be reviewed by
this court and, if necessary, by the Supreme Court.4 This is a
As the Gear plaintiffs point out, other circuit courts have upheld injunctions modifying state election procedures in the immediate run-up to elections when the courts deemed the modifications necessary to prevent
voter disenfranchisement. E.g., League of Women Voters of the U.S. v. Newby,
838 F.3d 1, 12–15 (D.C. Cir. 2016) (2-1 decision) (six weeks before election);
Obama for Am. v. Husted, 697 F.3d 423, 436–37 (6th Cir. 2012) (one month
before election); U.S. Student Ass’n Fdn. v. Land, 546 F.3d 373, 387–89 (6th
Cir. 2008) (2-1 decision) (six days before election).
4

A12

Case: 20-2835

Document: 76

Filed: 10/08/2020

Nos. 20-2835 & 20-2844

Pages: 32

13

far cry from April, when the court’s injunction was issued just
eighteen days prior to the election and was modified to grant
additional relief just five days prior to the election. The Covid19 pandemic is no longer new but neither is it a static phenomenon; infection rates have ebbed and surged in multiple
waves around the country and it is only now that Wisconsin
is facing crisis-level conditions. I suppose that the district
court could have issued a preliminary injunction in May
based on the experience with the April election, as my colleagues suggest, but the defendants no doubt would have argued that it was premature to deem modifications to the election code warranted so far in advance of the election,5 and
there is a fair chance that this court might have agreed with
them. Wisconsin infection rates in early May were less than
one quarter of what they are now. Nothing in Purcell or its
progeny forecloses modifications of the kind the district court
ordered in the worsening circumstances that confront Wisconsin as the election draws nigh. Otherwise, courts would
never be able to order relief addressing late-developing circumstances that threaten interference with the right to vote.6

In fact, the defendants did argue precisely that in moving to dismiss the
DNC’s complaint shortly after the April election took place. See Dem. Nat’l
Com. v. Bostelmann, 2020 WL 3077047 (W.D. Wis. June 9, 2020).

5

Professor Stephanopoulos cites the Bipartisan Campaign Reform Act’s
special restrictions on campaign ads imposed within 60 days of an election, and the Military and Overseas Voter Empowerment Act’s requirement that absentee ballots be sent to certain voters at least 45 days prior to
an election, as possible guideposts for determining when the eleventh
hour has arrived for judicial intervention into an election. Freeing Purcell.
Obviously, we are past both reference points here. But Stephanopoulos
himself argues that this sort of deadline (which, of course, the Supreme

6

A13

Case: 20-2835

Document: 76

Filed: 10/08/2020

14

Pages: 32

Nos. 20-2835 & 20-2844

The court’s second rationale for granting a stay—that “the
design of adjustments during a pandemic” is a task for elected
officials rather than the judiciary—announces an ad hoc
carve-out from the Anderson-Burdick framework for the review of state election rules. See Anderson v. Celebrezze, 460 U.S.
780, 103 S. Ct. 1564 (1983); Burdick v. Takushi, 504 U.S. 428, 112
S. Ct. 2059 (1992). That framework does call for deference to
state officials, depending upon the degree of restriction that
state election rules impose on the right to vote: severe restrictions demand strict judicial scrutiny, whereas modest,
unexceptional restrictions enjoy a presumption of validity. Id.
at 434, 112 S. Ct. at 2063–64. But what the majority proposes
is total deference to state officials in the context of pandemic,
with no degree of judicial scrutiny at all. That I cannot endorse. Communicable diseases can impose real and substantial obstacles to voting, and voting rules that are unobjectionable in normal conditions may become unreasonable during
a pandemic, when leaving one’s home and joining other voters at the polls carries with it a genuine risk of becoming seriously ill.
Notably, the Wisconsin Election Commission, whose
members are appointed by two sets of elected officials—the
Legislature and the Governor—was represented in the litigation below. As I noted at the outset, the Commission has acceded to the district court’s injunction and has not sought a
stay. As long as we are discussing deference to state officials,
the views of the Commission, which is charged with enforcing Wisconsin’s election rules, ought to count for something.

Court has yet to adopt) should not be conclusive in assessing the propriety
of judicial intervention.

A14

Case: 20-2835

Document: 76

Filed: 10/08/2020

Nos. 20-2835 & 20-2844

Pages: 32

15

Justice Kavanaugh’s concurrence in Andino posits that a
state legislature’s decision whether or not to alter voting rules
in response to the Covid-19 pandemic ordinarily should not
be second-guessed by the judiciary, which lacks the legislature’s presumed expertise in matters of public health and is
not accountable to the people. 2020 WL 5887393, at *1. But
state legislatures do not possess a monopoly on matters of
public health, see, e.g., Elim Romanian Pentecostal Church v.
Pritzker, 962 F.3d 341 (7th Cir. 2020) (reviewing Governor’s
executive order restricting size of public assemblies in light of
public health emergency), and when state government is divided as it is in Wisconsin, stalemates occur. When a state
proves unwilling or unable to confront and adapt to external
forces that pose a real impediment to voting, it places into
jeopardy the most cherished right that its citizens enjoy. (The
debacle that occurred with respect to in-person voting in Wisconsin on April 7, as I discuss below, makes that point all too
clear.) The right to vote is a right of national citizenship. Dunn
v. Blumstein, 405 U.S. 330, 336, 92 S. Ct. 995, 999–1000 (1972).
It is essential to the vitality of our democratic republic. E.g.,
Wesberry v. Sanders, 376 U.S. 1, 17, 84 S. Ct. 526, 535 (1964)
(“No right is more precious in a free country than that of having a voice in the election of those who make the laws under
which, as good citizens, we must live.”).7 And no citizen of
Wisconsin should be forced to risk his or her life or well-being
in order to exercise this invaluable right. Wholesale deference

Indeed, the irony of Justice Kavanaugh’s rationale is that unchecked deference to the state legislature as to voting procedures during a pandemic
may render legislators unaccountable to voters wishing to exercise their
franchise.
7

A15

Case: 20-2835

Document: 76

Filed: 10/08/2020

16

Pages: 32

Nos. 20-2835 & 20-2844

to a state legislature in this context essentially strips the right
to vote of its constitutional protection.
I submit that our foremost duty in this case is to protect
the voting rights of Wisconsin citizens, which are seriously
endangered, rather than discretionary action (or inaction) by
one branch of state government, in the face of a pandemic. My
evaluation of the district court’s injunction proceeds on that
understanding.
A central premise of the Legislature’s request for a stay of
the changes that Judge Conley ordered to Wisconsin’s election rules is that the ability to register and/or vote in person
remains a perfectly acceptable alternative to any Wisconsin
voter who is unable to register in advance of the election and
to return an absentee ballot prior to election day. Were these
ordinary times, I would have no difficulty agreeing with the
Legislature. But what the Legislature downplays—indeed,
barely acknowledges in its briefs—is the concrete risk that a
100-year pandemic, which at present is surging in Wisconsin,
poses to anyone who must brave long lines, possibly for
hours, in order to register and vote in person.
Historically, the vast majority of Wisconsin voters have
cast their ballots in person, and Wisconsin’s election system
has evolved against that backdrop, with provisions for absentee voting having served as a courtesy for the minority of voters whose work, travel, or other individual circumstances
presented an obstacle to voting in person on election day.
D. Ct. Op. 15, 39. Absentee ballots have often constituted less
than 10 percent of ballots cast in Wisconsin, and, until this
year, never more than 20 percent. D. Ct. Op. 15. Voters have
also relied heavily on the State’s liberal provision for sameday voting registration, with some 80 percent of all Wisconsin

A16

Case: 20-2835

Document: 76

Filed: 10/08/2020

Nos. 20-2835 & 20-2844

Pages: 32

17

voter records reflecting some use of this feature. D. Ct. Op. 39
(citing R. 532 at 58.) The Covid-19 pandemic has turned this
in-person voting paradigm on its head, as Judge Conley emphasized. Whereas, in the April 2019 election, voters requested (and were sent) a total of 167,832 absentee ballots
(D. Ct. Op. 12 n.9), one year later, that total increased nearly
eight-fold to 1,282,762 (D. Ct. Op. 12), with absentee ballots
comprising 73.8 percent of ballots counted in the April 2020
election (D. Ct. Op. 15).
The strain that the pandemic and the sudden, unprecedented preference for absentee voting placed on state and local officials had predictable results in the April 2020 election.
Election officials scrambled to keep up with the overwhelming demand for absentee ballots. Between April 3 and April 6
(the day before the election), local officials were still in the
process of mailing more than 92,000 absentee ballots, virtually
all of which were sent too late for them to be filled out and
mailed back by election day. D. Ct. Op. 13. Another 9,388 ballots were timely applied for but never sent. D. Ct. Op. 13. Approximately 80,000 absentee ballots were completed and postmarked on or before election day but were only received by
election officials in the six days after the statutory deadline for
such ballots. D. Ct. Op. 17. These ballots would not have been
counted but for the district court’s order, sustained by this
court and modified by the Supreme Court, extending the
deadline.
Notwithstanding the fact that nearly three-quarters of the
votes cast in the April 2020 election were via absentee ballots,
in-person voting in that election presented challenges of its
own. Poll workers were in short supply, as individuals who
would normally have staffed the polls (many of them

A17

Case: 20-2835

Document: 76

Filed: 10/08/2020

18

Pages: 32

Nos. 20-2835 & 20-2844

seniors8) stayed away in droves, particularly in urban locations. Milwaukee, with a population of 592,025, normally operates 180 polling sites. The city could manage to open only
five on April 7. D. Ct. Op. 16. Green Bay, population 104,879,
normally operates 31 polling sites. On April 7, just two were
open. D. Ct. Op. 16. Lines of voters (thousands of whom had
timely applied for absentee ballots but had not received them)
stretched for blocks and people waited hours to vote.9 Some
were masked, many were not. Some number of voters (we do
not know how many) showed up to vote in person after not
receiving an absentee ballot prior to election day and, discouraged by the long lines and wait times, walked away without
casting a vote. D. Ct. Op. 17 (citing voter declarations). Those
who stayed in line faced a discernible risk of becoming
See Michael Barthel and Galen Stocking, Older people account for large
shares of poll workers and voters in U.S. general elections, PEW RESEARCH
CENTER: FACT TANK, NEWS IN THE NUMBERS (April 6, 2020),
https://www.pewresearch.org/fact-tank
/2020/04/06/older-people-account-for-large-shares-of-poll-workers-and-voters-in-u-s-general-elections/; Laurel White, ‘It’s Madness.’ Wisconsin’s election amid coronavirus
sparks anger, NPR (April 6, 2020), https://www.npr.org/2020/04/06
/827122852/it-s-madness-wisconsin-s-election-amid-coronavirus-sparksanger.
8

See, e.g., Astead W. Herndon and Alexander Burns, Voting in Wisconsin
During a Pandemic: Lines, Masks and Plenty of Fear, NEW YORK TIMES (April
7, 2020, updated May 12, 2020) (“The scenes that unfolded in Wisconsin
showed an electoral system stretched to the breaking point by the same
public health catastrophe that has killed thousands and brought the country’s economic and social patterns to a virtual standstill in recent weeks.”);
Benjamin Swasey & Alana Wise, Wisconsin vote ends as Trump blames governor
for
long
lines,
NPR
(April
7,
2020),
https://www.npr.org/2020/04/07/828835153/long-lines-masks -and-plexiglass-barriers-greet-wisconsin-voters-at-polls.
9

A18

Case: 20-2835

Document: 76

Filed: 10/08/2020

Nos. 20-2835 & 20-2844

Pages: 32

19

infected. Although the evidence on this point is mixed, public
health officials determined that 71 individuals contracted
Covid-19 after voting in-person or working at the polls on
April 710; one analysis extrapolates from the available data to
estimate that a ten percent increase in in-person voters per
polling location is associated with an eighteen percent increase in Covid-19 cases two to three weeks later.11
The district court, presented with largely undisputed evidence that (1) the demand for absentee ballots in the forthcoming general election in November will be even greater
than it was in April (as many as 2 million absentee ballot requests are anticipated), (2) recent cutbacks at the U.S. Postal
Service and the resulting delays in mail delivery will present
an even greater obstacle to registering and voting by mail
than it did in the spring, and (3) persistent concerns about a
shortage of poll workers on election day again raise the specter of long lines to vote in person, ordered a set of five limited
modifications to Wisconsin election rules aimed at compensating for these conditions and ensuring, consistent with public health advice and voters’ obvious preference for absentee
voting, that voters who wish to vote by mail may do so. The
two most significant of these conditions are comparable to

See David Wahlberg, 71 people who went to the polls on April 7 got Covid19; tie to election uncertain, WIS. STATE J. (May 16, 2020), https://madison.com/wsj/news/local/health-med-fit/71
-people-who-went-to-thepolls-on-april-7-got-covid-19-tie-to
/article_ef5ab183-8e29-579a-a52b1de069c320c7.html.
10

Chad Cotti, Ph.D., et al., The Relationship between In-Person Voting and
COVID-19: Evidence from the Wisconsin Primary, Nat’l Bureau of Economic
Research, Working Paper No. 27187 (May 2020, revised October 2020),
available at https:// www.nber.org/papers/w27187.
11

A19

Case: 20-2835

Document: 76

Filed: 10/08/2020

20

Pages: 32

Nos. 20-2835 & 20-2844

those sustained by this court, as modified in one respect by
the Supreme Court, for the April election. None are opposed
here by the Wisconsin Executive, which is charged with administering the election. See Repub. Nat’l Com. v. Common
Cause Rhode Island, — S. Ct. —, 2020 WL 4680151, at *1 (U.S.
Aug. 13, 2020) (noting, inter alia, in denying stay of judicially
ordered modifications to state election law, that “here the
state election officials support the challenged decree …”). To
the extent these modifications intrude modestly upon the
State’s ability to establish its own rules for conducting elections, they are more than justified by the present pandemic
and the unacceptable risks that in-person voting presents to
the citizens of Wisconsin.
The Legislature challenges Judge Conley’s exercise of discretion in ordering these modifications as if the Covid-19 pandemic presented a quotidian problem in an otherwise routine
election, where the options for voting in-person might represent an entirely adequate alternative to voting by mail. The
State’s experience with the April election and the current state
of the pandemic in Wisconsin demonstrate the fallacy in this
premise.
As I write this dissent, new infections are surging in Wisconsin and threatening to overwhelm the State’s hospitals.
Judge Conley noted that in the weeks prior to his decision,
new infections had doubled from 1,000 to 2,000 per day.
D. Ct. Op. 20. As of Tuesday, October 6, a seven-day average
of 2,346 new cases of Covid-19 was reported.12 The Governor

Wis. Dep’t of Health Servs., COVID-19: Wisconsin Cases (as of October
6, 2020), https://www.dhs.wisconsin.gov/covid-19/cases.htm#confirmed.
12

A20

Case: 20-2835

Document: 76

Filed: 10/08/2020

Nos. 20-2835 & 20-2844

Pages: 32

21

has declared a public health emergency.13 A draft report from
the White House Coronavirus Task Force dated Monday of
last week described a “rapid worsening of the epidemic” in
Wisconsin and placed the State in the “red zone” for Covid19 cases, with the third-highest number of such cases per
100,000 population in the country and seventh-highest test
positivity rate. Nearly half of all Wisconsin counties now have
high levels of community transmission. Coronavirus Task
Force, State Report—Wisconsin, at 1 (Sept. 27, 2020).14 Hospitalization rates are at record highs in the State, with facilities
in northeast Wisconsin approaching capacity due to the surge
in Covid-19 cases15; the State is now proceeding with plans to
open a field hospital to address the shortage of hospital beds.16
Against this worsening backdrop, the district court credited
Executive Order No. 90, Office of Wisconsin Governor (Sept. 22, 2020),
available
at
https://evers.wi.gov/Pages/Newsroom/Executive-Orders.aspx.
13

Available at WASHINGTON POST website, https:// www.washingtonpost.com/context/white-house-coronavirus-task-force-report-warnsof-high-wisconsin-covid-19-spread-in-wisconsin/e5f16345-fcb4-4524975e-8011379ef0da/.

14

Mary Spicuzza, et al., Some hospitals forced to wait-list or transfer patients
as Wisconsin’s coronavirus surge continues, MILWAUKEE JOURNAL SENTINEL
(Sept. 30, 2020), https:// www.jsonline.com/story/news/2020/09/30/wisconsin-hospitals-wait-list-patients-covid-19-surge-coronavirus-greenbay-fox-valley-wausau/3578202001/.
15

Mary Spicuzza and Molly Beck, Wisconsin to open field hospital at State
Fair Park on October 14 as surge in coronavirus patients continues in Fox Valley,
Green Bay, MILWAUKEE JOURNAL SENTINEL (October 7, 2020),
https://www.jsonline.com/ story/news/local/wisconsin/2020/10/07/wisconsin-preparing-open-alternate-care-facility-state-fair-park-state-continues-face-surge-covid-1/5909769002/.
16

A21

Case: 20-2835

Document: 76

Filed: 10/08/2020

22

Pages: 32

Nos. 20-2835 & 20-2844

the opinion of a nationally recognized expert in public health
surveillance, who opined that “[t]here is a significant risk to
human health associated with in-person voting during the
COVID-19 pandemic[;] [t]here will almost certainly be a significant risk of contracting and transmitting COVID-19 in
Wisconsin on and around November 3, 2020[;] [t]he risk of
contracting or transmitting COVID-19 will deter a substantial
portion of Wisconsinites from voting in person on November
3, 2020[;] and [i]ncreasing the ease and availability of absentee-ballot voting options is critical to protecting public health
during the November 3, 2020 election.” D. Ct. Op. 23; Expert
Report of Patrick Remington, M.D. at 1 (R. 44 in Case No. 3:20cv-00459-wmc).
Presented with the evidence as to what occurred in April
and what is happening now with respect to the pandemic,
Judge Conley reasonably concluded that (1) a substantial
number of eligible Wisconsin voters will not meet the October
14 deadline to register online or by mail, leaving them with
only in-person options to register, (2) of the 1.8 to 2 million
registered voters who are expected to timely request absentee
ballots (D. Ct. Op. 20, 47), as many as 100,000 will not be able
to return those ballots by election day through no fault of their
own (D. Ct. Op. 51), and (3) when faced with the risks associated with registering or voting in-person, and potentially having to wait in line for hours in order to do so, some number of
voters will deem the risk too great. These conclusions explain
why he ordered modest adjustments to Wisconsin’s election
rules in order to minimize that possibility.
Of all of us, Judge Conley is the one judge who heard the
evidence first-hand and is closest to the ground in Wisconsin.
We owe deference to his judgment. He considered the

A22

Case: 20-2835

Document: 76

Filed: 10/08/2020

Nos. 20-2835 & 20-2844

Pages: 32

23

Anderson-Burdick factors for constitutional challenges to state
election rules. Consistent with Luft v. Evers, 963 F.3d 665, 671
(7th Cir. 2020), he considered the Wisconsin election rules in
their totality in assessing the burdens that those rules, under
the present circumstances, impose on the right to vote. He
considered Purcell’s admonition that judicial orders modifying election rules can result in voter confusion and an incentive not to vote, especially as an election draws closer. 549 U.S.
at 4–5, 127 S. Ct. at 7. He considered this court’s prior ruling
in April granting a stay as to all but two of the modifications
ordered for the April election. Bostelmann, 2020 WL 3619499.
And he considered the Supreme Court’s ruling, issued one
day prior to the April election, which both chastised the district court for altering Wisconsin’s election rules within days
of the election but also modified the extension of the ballotreceipt deadline to require that mailed absentee ballots be delivered or postmarked on or before election day and accepted
the deadline change as modified. Republican Nat’l Com., 140
S. Ct. at 1207, 1208.
In view of the fact that this court allowed extensions of the
ballot-request deadline and ballot-receipt deadline to be
implemented in the April election, it is not clear to me why
the majority has decided to stay comparable modifications
(effectively nullifying them) for the November election. Yes,
the Covid-19 virus is no longer a new menace and Wisconsin
election officials have now had the experience of conducting
two elections during the pandemic. But the Wisconsin
election code remains one designed primarily for in-person
voting, whereas the surge of Covid-19 cases in Wisconsin has
only increased the risks associated with in-person voting
since April. The logistical demands posed by absentee voting
will if anything be greater for the November general election,

A23

Case: 20-2835

Document: 76

Filed: 10/08/2020

24

Pages: 32

Nos. 20-2835 & 20-2844

with possibly a million additional absentee ballots to be sent
and returned by mail; and with the recently-discovered
cutbacks in Postal Service capacity,17 there is even greater
reason to be concerned about the ability of voters to both
register and vote by mail. Registering and voting in person
remain as alternatives, but no legislator, no election official,
and certainly no judge can assure Wisconsin voters that there
is no risk associated with registering and/or voting in person
as infection rates spike in their communities, especially in
high-population urban areas. Election officials may hope that
more polling places will be open in November than April, but
they cannot guarantee that enough poll workers will show up
on election day to avoid the sorts of long voter lines and waits
that made headlines then. Nor, by the way, can anyone assure
voters that they will not be waiting in line next to one or more
unmasked voters, or one who is contagious with the
coronavirus. Indeed, a lawsuit challenging the Governor’s
mask mandate is presently pending in the Wisconsin courts.18
See, e.g., Jacob Bogage, et al., DeJoy pushes back on criticism of changes to
Postal Service, says he won’t restore sorting machines, WASHINGTON POST
(Aug.
24,
2020),
https://www.washingtonpost.com/politics/2020/08/24/dejoy-testimony-usps-house /; Elise Viebeck and Jacob
Bogage, Federal judge temporarily blocks USPS operational changes amid concerns about mail slowdowns, election, WASHINGTON POST (Sept. 17, 2020),
https://www.washingtonpost.com/politics/federal-judge-iss-ues-temporary-injunction-against-usps-operational-changes-amid-concerns-aboutmail-slowdowns/2020/09/
17/34fb85a0-f91e-11ea-a2751a2c2d36e1f1_story.html.
17

See Scott Bauer, Conservative law firm seeks to end Wisconsin mask order, AP
NEWS (Sept. 28, 2020), https://apnews.com/article/virus-outbreak-healthwisconsin-public-health-270d663b9411b33a17fc45fdf8ad2720;
Molly
Beck, GOP leaders go to court in support of effort to strike down Tony Evers’
mask mandate, WISCONSIN JOURNAL SENTINEL (Oct. 2, 2020),
18

A24

Case: 20-2835

Document: 76

Filed: 10/08/2020

Nos. 20-2835 & 20-2844

Pages: 32

25

Having in mind the shortfalls with the April election and
the current public health crisis posed by the pandemic, it is
not unreasonable for Wisconsin voters to view the option of
in-person registration and voting as a form of Russian roulette. For eligible voters who are unable to register by mail by
the statutory deadline (and for the April election, there were
more than 57,000 people who registered after that deadline,
thanks to the district court’s extension of that deadline,
D. Ct. Op. 17) and for voters who timely request an absentee
ballot but who either do not receive it by election day or receive it too late to return it by election day (more than 120,000
absentee ballots were not returned by election, see D. Ct. Op.
15), the risks associated with in-person registration and voting amount to a concrete and unacceptable, and in my view,
severe, restriction on the right to vote. See Luft, 963 F.3d at 672
(citing Burdick, 504 U.S. at 434, 112 S. Ct. at 2063; Anderson, 460
U.S. at 788, 103 S. Ct. at 1569–70; Acevedo v. Cook Cnty. Officers
Electoral Bd., 925 F.3d 944 (7th Cir. 2019)). This is especially
true of individuals who are 65 years of age or older (more than
900,000 people in Wisconsin19), obese (some 40 percent of Wisconsin adults20), or suffer from chronic health conditions that
render them especially vulnerable to complications from a
https://www.jsonline.com/story/news/politics/2020/10/02/
gop-goescourt-support-effort-strike-down-mask-mandate/ 3592966001/.
See Wis. Dep’t of Health Servs., Demographics of Aging in Wisconsin, Am.
Community Survey Statewide & Cnty. Aging Profiles, 2014-18, State of
Wis. Profile of Persons Ages 65 & Older (Jan. 20, 2020),
https://www.dhs.wisconsin.gov/aging/demographics.htm.
19

See Tala Salem, Wisconsin obesity rate higher than previous estimates, U.S.
NEWS & WORLD REPORT (June 11, 2018), https://www.usnews.com/news/health-care-news/articles/ 2018-06-11/wisconsin-obesityrate-higher-than-previous-estimates.
20

A25

Case: 20-2835

Document: 76

Filed: 10/08/2020

26

Pages: 32

Nos. 20-2835 & 20-2844

Covid-19 infection (some 45 percent of all adults nationwide21).
Of course it is true that voters have the ability to plan
ahead, register early if need be, and request absentee ballots
early in order to ensure that they have adequate time to complete and return their ballots prior to election day.22 But voters
may also reasonably rely on the State’s own deadlines for advance registration and requesting an absentee ballot as a
guide to the amount of time necessary for their registrations
to be processed and their ballots to be issued, completed, and
returned. Voters do not run the State’s election apparatus or
the U.S. Postal Service; they have no special insight into how
quickly their timely requests to register and/or vote by mail
will be processed by election officials and how quickly the
Postal Service will deliver their ballots. It is not reasonable to
insist that voters act more quickly than state deadlines require
them to do in order to ensure that either the State or the Postal
Service does not inadvertently disenfranchise them because
they are overwhelmed with the volume of mail-in registrations and absentee ballots.

See Mary L. Adams, et al., Population-based estimates of chronic conditions
affecting risk for complications from coronavirus disease, United States, 26
EMERGING INFECTIOUS DISEASES J. No. 8 (August 2020),
https://wwwnc.cdc.gov/eid/article/26/8/20-0679 _article.
21

Completing an absentee ballot is not a matter of simply filling it out.
Wisconsin requires absentee voters to have their ballots signed by a witness. See Wis. Stat. § 6.87(4)(b). Some 600,000 Wisconsin voters live alone
(D. Ct. Op. 21), which means they must seek out someone outside of their
household to sign their ballots. During a time of surging Covid-19 infections, that is not necessarily a simple task.
22

A26

Case: 20-2835

Document: 76

Filed: 10/08/2020

Nos. 20-2835 & 20-2844

Pages: 32

27

It is also true that voters who receive their ballots just prior
to the election have the option of delivering their ballots to a
dropbox or to the polls on election day. But significant numbers of Wisconsin voters lack a driver’s license (including
roughly half of African American and Hispanic residents) and
therefore cannot drive themselves to a poll or dropbox.23 Relying on public transportation, a taxi, a ride-sharing service,
or a lift from a neighbor to make the trip presents difficulties
and risks of its own, which cannot be justified if the voter has
timely complied with existing deadlines and yet cannot meet
existing deadlines through no fault of her own.
I recognize that the district court’s decision to order modifications to Wisconsin’s election practices represents an intrusion into the domain of state government, but in my view
it is a necessary one. We are seven months-plus into this pandemic. The Legislature has had ample time to make modifications of its own to the election code and has declined to do so.
The Wisconsin Elections Commission, divided 3-3 along
party lines, concluded that it lacks the authority to order such
modifications. This leaves voters at the mercy of overworked
state and local election officials, a hamstrung Postal Service,
and a merciless virus. What we must ask, as Judge Conley
did, is whether Wisconsin’s election rules, which were not
drafted for pandemic conditions, effectively restrict a Wisconsin citizen’s right to vote under current conditions. The answer, I submit, is yes. Based on the State’s experience with the
April election, we know it is likely that tens of thousands of

See John Pawasarat, The Driver License Status of the Voting Age Population
in Wisconsin, Employment and Training Institute, Univ. of Wis.-Milwaukee (June 2005), available at https://dc.uwm.edu/eti_pubs/68/.

23

A27

Case: 20-2835

Document: 76

Filed: 10/08/2020

28

Pages: 32

Nos. 20-2835 & 20-2844

voters will not meet the October 14 deadline to register online
or by mail, especially if they are relying on the mail to complete that process. We know that tens of thousands of voters
likely will not be able to return their ballots by mail before
election day, through no fault of their own. We know that registering or voting in person, especially on election day, will
expose some number of voters to a concrete risk of Covid-19
infection. Collectively, these conditions pose a real and substantial impediment to the right to vote. Whether that obstacle
is viewed as modest or severe, and whether viewed through
the lens of rational basis review or strict scrutiny, it is unacceptable. The State itself purports to want people to vote absentee, and yet has done nothing to alter its election rules to
make the necessary accommodations to ensure that voters are
not needlessly disenfranchised by the overwhelming shift
from in-person to absentee voting.
I conclude with a just a few words about each of the individual modifications that the district court ordered. Individually and collectively, these modifications, in my view, represent a reasonable, proportional response to current conditions
aimed at preserving the right to vote.
Of these, the most important, and in my view, the most
essential of these modifications is the six-day extension of the
deadline for the return of absentee ballots by mail to November 9, 2020, so long as the ballots are postmarked on or before
election day. Of the five modifications ordered by the district
court, none is more directly aimed at protecting the right to
vote, in that it seeks to ensure that ballots that have been
timely cast by voters will be counted. The circumstances that
warranted a similar extension in April are even more serious
now: the Covid-19 pandemic makes it more imperative that

A28

Case: 20-2835

Document: 76

Filed: 10/08/2020

Nos. 20-2835 & 20-2844

Pages: 32

29

as many voters as possible vote by absentee ballot; the demand for absentee ballots is virtually certain to be even
greater (record-shattering) than it was in April, placing unprecedented demands on election officials and the U.S. Postal
Service alike; and cutbacks implemented by the U.S. Postal
Service this summer (not all of which have been suspended or
reversed) threaten recurrent if not worse delays in the delivery and return of absentee ballots. The fact that some 80,000
ballots were received by mail after election day in April is all
the proof necessary that an extension of the receipt deadline
is vital as a means of protecting the voting rights of tens of
thousands of Wisconsin voters—voters who, it cannot be said
too often, will timely request and complete absentee ballots
but are unable to return them by the election day deadline by
no mistake or omission of their own. Against this, all that the
Legislature offers is a wish to have the results of the election
conclusively determined on election night. But weighed
against the constitutional right to vote, this is thin gruel.
The one-week extension of the deadline to register online
or by mail is reasonable in terms of both the worsening pandemic and the slowdown in mail service. As Judge Conley
pointed out, Wisconsin voters are in the habit of using the
State’s same-day registration option to register or update their
registration on election day. Only as Covid-19 infections
surge in Wisconsin may voters now realize that in-person registration on election day poses unique risks, particularly if
lines at the polls turn out to be as long as they were in April.
At the same time, voters seeking to register by mail may run
into the same problems that absentee voters encountered in
April with delays in the U.S. Mail. A brief extension of the
advance registration deadline is an appropriate response, and
the Wisconsin Election Commission conceded that the

A29

Case: 20-2835

Document: 76

Filed: 10/08/2020

30

Pages: 32

Nos. 20-2835 & 20-2844

extension would still leave adequate time for election officials
to update pollbooks with registration information in time for
election day.
The directive to add language to the MyVote and WisVote
websites (along with any relevant printed materials) regarding the “indefinitely confined” exception to the photo i.d. requirement is an extremely limited order aimed at eliminating
voter confusion. Wisconsin law requires voters to present appropriate photographic identification in order to obtain a ballot, whether in-person or by mail. There is an exception to this
requirement for a voter who is “indefinitely confined” due to
age, infirmity, or disability; the signature of the voter’s witness will be deemed sufficient in lieu of proof of i.d. The Commission’s March 2020 guidance on this exception makes clear
that a voter need not be permanently or totally disabled and
wholly unable to leave one’s residence in order to qualify for
this exception, but this guidance is not easily available to voters and the district court found that there was a substantial
risk of voter confusion as to the scope of the exception without further guidance. This was a reasonable order.
The order to permit replacement absentee ballots to be
transmitted electronically to domestic civilian voters who
have not received their ballots by mail in the penultimate
week prior to the election (October 22–29) addresses a concrete problem that emerged in the April election: not all absentee ballots will reach voters in time for the election even if
they have been timely requested. Recall that tens of thousands
of ballots were still being mailed out within a few days of the
election, making it impossible for voters to return them by
mail (if they received them at all) by election day. Wisconsin
law prohibits election officials from sending ballots by

A30

Case: 20-2835

Document: 76

Filed: 10/08/2020

Nos. 20-2835 & 20-2844

Pages: 32

31

electronic means to anyone but military or overseas voters.
That restriction was modified by judicial order in 2016, see
One Wisconsin Inst., Inc. v. Thomsen, 198 F. Supp. 3d 896, 946–
48 (W.D. Wis. 2016), and until our June 2020 decision in Luft
reversing that modification, election officials were making absentee ballots available online or by fax as necessary to domestic civilian voters. Restoring that practice for a limited
window of time in advance of the November election makes
eminent sense as a means of protecting the right to vote by
voters who have timely requested an absentee ballot but have
not received it in the mail as the election approaches.
Finally, in view of the severe shortages of poll workers
that hobbled the April election with numerous poll closings
and massive voting delays, the order that local officials be allowed to employ poll workers who are not electors in the
county where they will serve is both necessary and reasonable. Adequate staffing of the polls is essential to minimizing
voter wait times and, in turn, public health risks. Allowing
poll workers (be they civilians or National Guard reservists)
to work outside of their own counties is a modest and entirely
reasonable means of achieving that end, one that poses no risk
to the integrity of the election. The Legislature has articulated
no reason why this accommodation is either unnecessary or
inappropriate.
Given the great care that the district court took in issuing
its preliminary injunction and the ample factual record supporting its decision, I am dismayed to be dissenting. It is a
virtual certainty that current conditions will result in many
voters, possibly tens of thousands, being disenfranchised absent changes to an election code designed for in-person voting
on election day. We cannot turn a blind eye to the present

A31

Case: 20-2835

Document: 76

Filed: 10/08/2020

32

Pages: 32

Nos. 20-2835 & 20-2844

circumstances and treat this as an ordinary election. Nor can
we blindly defer to a state legislature that sits on its hands
while a pandemic rages. The district court ordered five modest changes to Wisconsin’s election rules aimed at minimizing
the number of voters who may be denied the right to vote.
Today, in the midst of a pandemic and significantly slowed
mail delivery, this court leaves voters to their own devices.
Good luck and G-d bless, Wisconsin. You are going to
need it.

A32

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 1 of 69

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF WISCONSIN
DEMOCRATIC NATIONAL COMMITTEE,
et al.,

v.

Plaintiffs,

OPINION AND ORDER
20-cv-249-wmc

MARGE BOSTELMANN, et al.,
Defendants,
and
WISCONSIN LEGISLATURE,
REPUBLICAN NATIONAL COMMITTEE,
and REPUBLICAN PARTY OF WISCONSIN,
Intervening-Defendants.
SYLVIA GEAR, et al.,

v.

Plaintiffs,
20-cv-278-wmc

MARGE BOSTELMANN, et al.,
Defendants,
and
WISCONSIN LEGISLATURE,
REPUBLICAN NATIONAL COMMITTEE,
and REPUBLICAN PARTY OF WISCONSIN,
Intervening-Defendants.

A33

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 2 of 69

CHRYSTAL EDWARDS, et al.,

v.

Plaintiffs,
20-cv-340-wmc

ROBIN VOS, et al.,
Defendants,
and
REPUBLICAN NATIONAL COMMITTEE,
and REPUBLICAN PARTY OF WISCONSIN,
Intervening-Defendants.
JILL SWENSON, et al.,

v.

Plaintiffs,
20-cv-459-wmc

MARGE BOSTELMANN, et al.,
and

Defendants,

WISCONSIN LEGISLATURE,
REPUBLICAN NATIONAL COMMITTEE,
and REPUBLICAN PARTY OF WISCONSIN,
Intervening-Defendants.
In these four, consolidated lawsuits, various organizations and individuals have
moved for preliminary injunctive relief concerning the conduct of the Wisconsin general
election on November 3, 2020.

While the Commissioners and Administrator of the

Wisconsin Election Commission (“WEC”) oppose the motions only to the extent the
requested relief would exceed the WEC’s statutory authority, the Wisconsin Legislature,

2

A34

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 3 of 69

the Republican National Committee and the Republican Party of Wisconsin have
intervened to offer a more robust opposition to those motions. 1 In addition to these
pending motions for preliminary injunction, defendants and intervening defendants have
also moved to dismiss three of the four cases.
For the reasons that follow, the court will largely reject defendants’ grounds to
dismiss. As for the requests for preliminary relief, election workers’ and voters’ experiences
during Wisconsin’s primary election in April, which took place at the outset of the COVID19 crisis, have convinced the court that some, limited relief from statutory deadlines for
mail-in registration and absentee voting is again necessary to avoid an untenable
impingement on Wisconsin citizens’ right to vote, including the near certainty of
disenfranchising tens of thousands of voters relying on the state’s absentee ballot process.
Indeed, any objective view of the record before this court leads to the inevitable conclusion
that: (1) an unprecedented number of absentee ballots, which turned the predominance of
in-person voting on its head in April, will again overwhelm the WEC and local officials
despite their best efforts to prepare; (2) but for an extension of the deadlines for registering
to vote electronically and for receipt of absentee ballots, tens of thousands of Wisconsin
voters would have been disenfranchised in April; and (3) absent similar relief, will be again
in November. Consistent with the fully briefed motions, evidence presented, and the
hearing held on August 5, 2020, therefore, the court will grant in part and deny in part the

In the Edwards case, the Wisconsin State Assembly, Senate and members of the Wisconsin
Legislature were also named as direct defendants along with the WEC Commissioners.
1

3

A35

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 4 of 69

parties’ motions for reasons more fully explained below, including entering a preliminary
injunction providing the following relief:
•

extending the deadline under Wisconsin Statute § 6.28(1), for online and mailin registration from October 14, to October 21, 2020;

•

directing the WEC to include on the MyVote and WisVote websites (and on
any additional materials that may be printed explaining the “indefinitely
confined” option) the language provided in their March 2020 guidance, which
explains that the indefinitely confined exception “does not require permanent
or total inability to travel outside of the residence”;

•

extending the receipt deadline for absentee ballots under Wisconsin Statute §
6.87(6) until November 9, 2020, but requiring that the ballots be mailed and
postmarked on or before election day, November 3, 2020;

•

enjoining Wisconsin Statute § 6.87(3)(a), which limits delivery of absentee
ballots to mail only for domestic civilian voters, allowing online access to
replacement absentee ballots or emailing replacement ballots for the period from
October 22 to October 29, 2020, as to those voters who timely requested an
absentee ballot, the request was approved, and the ballot was mailed, but the
voter did not receive the ballot; and

•

enjoining Wisconsin Statute § 7.30(2), which requires that each election official
be an elector of the county in which the municipality is located, allowing election
officials to be residents of other counties within Wisconsin for the upcoming
November 2020 election.

In recognition of the likelihood of appellate review, however, this order is STAYED for one
week, and NO voter can depend on any extension of deadlines for electronic and mail-in
registration and for receipt of absentee ballots unless finally upheld on appeal. In the
meantime, lest they effectively lose their right to do so by the vagaries of COVID-19, mail
processing or other, unforeseen developments leading up to the November election, the
court joins the WEC in urging especially new Wisconsin voters to register by mail on or
before October 14, 2020, and all voters to do so by absentee ballot as soon as possible. 2

2

In a vain effort (in both senses of that word) at forestalling the inevitable judge-appointment and

4

A36

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 5 of 69

FACTS
A. Election Laws in Wisconsin
1. Registering to vote
A citizen wishing to vote in Wisconsin must first register in the ward or district in
which they reside. To do so, the voter must complete a registration form and provide “an
identifying document that establishes proof of residence.” 3 Wis. Stat. § 6.34(2). The
deadline for registering by mail or online is the third Wednesday preceding the election,
Wis. Stat. § 6.28, which for the upcoming November 2020 election is October 14, 2020.
A voter may also register in person at their local municipal clerk’s office up to the Friday
before the election, Wis. Stat. § 6.29(1)-(2), which for the November election is October
30. Finally, a voter may register in person on election day itself at their designated polling
place. Wis. Stat. § 6.55(2).
2. Voting by mail
Absentee voting in Wisconsin is available to any registered voter who “for any
reason is unable or unwilling to appear” at the polls. Wis. Stat. § 6.85. To obtain an

bias dialogue so prevalent in what remains of the independent press, among commentators and on
the internet, let me stress, as I did with the parties during the August hearing, the limited relief
awarded today is without regard to (or even knowledge of) who may be helped, except the average
Wisconsin voter, be they party-affiliated or independent. Having grown up in Northern Wisconsin
with friends across the political spectrum (and in some cases back again), my only interest, as it
should be for all citizens, is ensuring a fair election by giving the overtaxed, small WEC staff and
local election officials what flexibility the law allows to vindicate the right to vote during a
pandemic.
Military and overseas voters are exempt from this proof of residence requirement. Wis. Stat.
§ 6.34(2). Also, proof of residence is not required if the voter registers online and provides the
number of a current and valid Wisconsin operator’s license or state ID card, together with his or
her name and date of birth, provided this information is verified. Wis. Stat. § 6.34(2m).
3

5

A37

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 6 of 69

absentee ballot, a registered voter must submit an absentee ballot request form, along with
a copy of an acceptable photo ID. Wis. Stat. § 6.86. 4 Voters who are “indefinitely confined
because of age, physical illness or infirmity” are exempt from this photo ID requirement,
but such a voter must still provide a signed statement by the individual who witnesses and
certifies the voter’s ballot “in lieu of providing proof of identification.”

Wis. Stat.

§ 6.87(4)(b)2.
On March 29, 2020, the WEC issued guidance on the proper use of indefinitely
confined status, explaining that: “Designation of indefinitely confined status is for each
individual voter to make based upon their current circumstances. It does not require
permanent or total inability to travel outside of the residence.”

Wisconsin Election

Commission, Guidance for Indefinitely Confined Electors COVID-19 (Mar. 29, 2020),
https://elections.wi.gov/node/6788. Two days later, the Wisconsin Supreme Court issued
a decision that preliminarily endorsed the WEC guidance, finding that it “provides the
clarification on the purpose and proper use of the indefinitely confined status that is
required at this time.” Jefferson v. Dane Cty, No. 2020AP557-OA (Wis. Mar. 31, 2020). 5
Whether submitted online, by fax or by mail, an absentee ballot application must

For certain voters without an acceptable photo ID, there is also an “ID Petition Process” that has
been the subject of substantial litigation unrelated to the current pandemic. See Luft v. Evers, 963
F.3d 665, 678 (7th Cir. 2020).
4

However, litigation on that issue is ongoing, with oral argument before the Wisconsin Supreme
Court scheduled for September 29, 2020. See Wis. Supreme Court Pending Cases (last accessed
Sept.
3,
2020),
https://www.wicourts.gov/sc/sccase/DisplayDocument.pdf?content=pdf&seqNo=285226. Because
all of the issues certified for review by the Wisconsin Supreme Court in Jefferson relate exclusively
to Wisconsin law, none overlap or conflict with the federal constitutional and statutory claims at
issue in the instant case.

5

6

A38

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 7 of 69

be received no later than 5 p.m. on the fifth day immediately preceding the election, Wis.
Stat. § 6.86(1)(ac), (b), which means for the November election on or before 5 p.m. on
October 29, 2020. Clerks must begin to send out absentee ballots no later than the 47th
day before a general election, at which point the absentee ballot itself must be mailed to a
qualified voter within one business day of the receipt of an absentee ballot request. Wis.
Stat. § 7.15(1)(cm).
If a clerk is “reliably informed” that the absentee requester is a military or overseas
voter, the clerk may also fax or transmit an electronic copy of the ballot in lieu of mailing
it. Wis. Stat. § 6.87(3)(d). Indeed, up until very recently, due to a 2016 injunction by
this court, clerks had the discretion to email ballots to all voters. See One Wisconsin Inst.,
Inc. v. Thomsen, 198 F. Supp. 3d 896, 946-48 (W.D. Wis. 2016) (enjoining “the provision
prohibiting municipal clerks from sending absentee ballots by fax or email [because it]
violates the First and Fourteenth Amendments”). On June 29, 2020, however, the Seventh
Circuit vacated this injunction, meaning that non-military/overseas voters may now receive
an absentee ballot only by mail. See Luft v. Evers, 963 F.3d 665, 676-77 (7th Cir. 2020).
Once received, to cast an absentee ballot by mail, the voter must (1) complete the
ballot in the presence of a witness, (2) enclose the ballot in the envelope provided, (3) sign
the envelope and obtain a signature from the witness and (4) return the ballot for actual
receipt no later than 8 p.m. on election day. Wis. Stat. § 6.87(2), (4)(b), (6). In light of
the COVID-19 pandemic, the WEC further issued guidance on March 29, suggesting
several options for voters to meet the witness signature requirement safely. See WEC,
“Absentee

Witness

Signature

Requirement

7

A39

Guidance”

(Mar.

29,

2020),

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 8 of 69

https://elections.wi.gov/node/6790. This guide outlines a multi-step process to acquire a
signature while observing social distancing and other best health practices.

Id.

For

example, the guide suggests that a voter could recruit a friend or neighbor to watch the
voter mark their ballot through a window or over video chat, with the voter then placing
the ballot outside for the witness to sign as well. Id. To return an absentee ballot, a voter
may then mail it, hand deliver it to the clerk’s office or other designated site, or bring it to
their polling place on election day. Some, though not all, localities also offer absentee
ballot “drop boxes.” See WEC, “Absentee Ballot Return Options - COVID-19” (Mar. 31,
2020), https://elections.wi.gov/node/6798. In that instance, another person may deliver
the ballot on behalf of the voter. Id. Finally, “[i]f a municipal clerk receives an absentee
ballot with an improperly completed certificate or with no certificate, the clerk may return
the ballot to the elector . . . whenever time permits the elector to correct the defect and
return the ballot.” Wis. Stat. § 6.87(9). 6
3. Voting in person
A registered voter may also vote absentee in-person, by simultaneously requesting
and casting an absentee ballot at the clerk’s office or other designated location beginning
two weeks before election day through the Sunday preceding that election, in this election
meaning Sunday, November 1. Wis. Stat. §§ 6.85(1)(a)2, 6.855, 6.86(1)(b). Once an
absentee ballot is received by a clerk, the ballot is sealed in a carrier envelope until election

Wisconsin law also permits a voter to receive up to three replacement ballots if they spoil or
erroneously prepare their ballot, provided they return the defective ballot. Wis. Stat. §§ 6.80(2)(c),
6.86(5).
6

8

A40

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 9 of 69

day, at which point the ballots are canvassed like any other absentee ballot. Wis. Stat. §§
6.88, 7.51-52.
Of course, on election day, a voter may cast a regular ballot in person at their
designated, local polling station. See Wis. Stat. §§ 6.77, 6.79. These polls are staffed by
various election officials and poll workers, all of whom are required by Wisconsin law to
be “qualified elector[s] of a county in which the municipality where the official serves is
located.”

Wis. Stat. § 7.30(2)(a).

As noted above, Wisconsin also offers same-day

registration, so an unregistered voter or a voter who needs to change their registration may
arrive, register and cast a ballot at the polls in person, all on election day. Wis. Stat.
§ 6.55(2).
Historically, Wisconsin voters have relied heavily on this election day registration
process. For example, between 2008 and 2016, 10 to 15% of all registrations took place
on election day. As Administrator Wolfe testified, Wisconsin has a “cultural tradition” of
same-day registration, with approximately 80% of voter records having been impacted in
some way by same-day registration. (8/5/20 Hr’g Tr. (dkt. #532) 57-58.) 7

B. The COVID-19 Pandemic’s Impacts on Wisconsin’s April and August
Elections
1. Growing problem and related litigation
Since early 2020, Wisconsin and most of the rest of the world has been impacted

7

Unless otherwise noted, the docket entries are to the 20-cv-249 docket.

9

A41

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 10 of 69

to varying degrees by the novel coronavirus. 8 On February 6, the first case of COVID-19
was diagnosed in Wisconsin, and as of September 17, 94,746 confirmed cases have been
recorded in the state. Much is still unknown about the virus and the COVID-19 illness
that it causes, but experts appear to agree that COVID-19 is mainly spread via person-toperson, respiratory droplets, and it is more likely to spread between people who are in close
contact with one another for a sustained period. A person may also become infected by
“touching a surface or object that has the virus on it and then touching their own nose,
mouth, or possibly their eyes.” (Edwards Pls.’ PFOFs (dkt. #417) ¶ 27 (quoting Goode
Decl., Ex. I (CDC, Targeting COVID-19’s Spread) (dkt. #415-9).) Certain individuals,
such as those who are elderly, immunocompromised or suffer comorbidities, are at a greater
risk for complications from COVID-19.
As the virus first started to spread in Wisconsin in February and March, even greater
uncertainty surrounded the extent, seriousness and nature of COVID-19. By March 12,
Governor Evers had issued a statewide health emergency; and on March 24, the Secretary
of Wisconsin’s Department of Health Services had issued a “Safer at Home” order, which
banned all public and private gatherings, closed nonessential businesses, and required that
everyone maintain social distancing of at least six feet from any other person.
Obviously, all this occurred within just a few weeks of Wisconsin’s April 7, 2020,
primary election. In mid-March, certain WEC Commissioners began expressing concern
about the state’s ability to conduct a fair and safe election; local clerks reported that they

Technically, SARS-CoV-2 is the name of what has become known as the “coronavirus,” while
COVID-19 is the name of the illness caused by that virus.
8

10

A42

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 11 of 69

were running out of absentee ballot materials and felt overwhelmed by the volume of
absentee ballot requests; and various mayors urged that the election be delayed. Between
March 18 and March 26, three lawsuits were also filed with this court requesting various
relief relating to Wisconsin’s impending primary election.
Shortly after, this court granted the following narrow, preliminary relief:

(1)

extending the online registration deadline by 12 days to March 30; (2) extending by one
day the window to request an absentee ballot; (3) adjusting the witness certification
requirement under Wis. Stat. § 6.87(2); and (4) extending the absentee ballot receipt
deadline by six days to April 13 at 4 p.m. See Democratic Nat’l Comm. v. Bostelmann, No.
20-cv-249 (W.D. Wis. Mar. 20, 2020); Democratic Nat’l Comm. v. Bostelmann, No. 20-cv249 (W.D. Wis. April 2, 2020). Most of this relief was challenged by emergency appeal
to the Seventh Circuit (extension of the registration deadline being the exception). That
court declined to stay relief granted as to the extension of absentee-ballot-requests and
receipt deadlines by mail, but granted a stay as to the adjustment to the witness signature
requirement. Democratic Nat’l Comm. v. Bostelmann, Nos. 20-1538, -1546, -1545, at * 3-4
(7th Cir. April 3, 2020). A further, emergency appeal was accepted by the U.S. Supreme
Court, which sought a stay of this court’s injunction only to the extent that it permitted
ballots postmarked after election day (April 7) to be counted if actually received by April
13. Brief of Petitioner, Republican Nat’l Comm. v. Democratic Nat’l Comm., 589 U. S. ____
(2020) (No. ___ ). The Supreme Court granted the stay, ordering that a voter’s absentee
ballot must be either postmarked by election day and received by April 13 or handdelivered by election day. Republican Nat’l Comm. v. Democratic Nat’l Comm., 589 U.S. ____

11

A43

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 12 of 69

(2020) (per curiam).
2. Effort to fulfill absentee ballot applications
Meanwhile, the WEC and local clerks were undertaking admirable (and in some
cases, heroic) efforts to administer absentee voting and prepare the polls for in-person
voting on April 7 in the midst of the pandemic. Despite these efforts, unprecedented
challenges confronted clerks and poll workers before and on election day. To begin, clerks
received a flood of absentee ballot requests, ultimately receiving a total of 1,282,762
absentee ballot applications. 9 A post-election report by the WEC explained that some
inadequately staffed offices were “nearly overwhelmed” by this number of applications.
(Swenson Pls.’ PFOFs (’459, dkt. #42) ¶ 56 (citing Goodman Decl., Ex. 18 (WEC May 20
Meeting Materials) (’459 dkt. #43-18) 6).) At one point, clerks even ran out of absentee
certificate envelopes, although this shortage was ultimately rectified.

Plaintiffs have

produced numerous declarations from voters who testified that they timely -- often two or
three weeks before the election -- requested an absentee ballot but never received it or
received it after election day; some of these voters chose to vote in person, but others were
unwilling or unable to go to the polls due to safety concerns with COVID-19, long lines or
other problems.

(See Swenson Pls.’ PFOFs (’459, dkt. #42) ¶¶ 51, 164, 176 (citing

declarations); DNC Pls.’ PFOFs (dkt. #419) ¶ 73 (citing declarations); Edwards Pls.’
PFOFs (dkt. #417) ¶¶ 67-162, 177-81) (citing declarations); Gear Pls.’ PFOFs (dkt. #422)
¶¶ 37, 43, 81, 157-677 (citing declarations).)

9

In comparison, only 167,832 absentee ballots were sent in the April 2019 election.

12

A44

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 13 of 69

Moreover, between April 3 and April 6 (the day before the election), local officials
were still in the process of mailing more than 92,000 absentee ballots to voters, virtually
all of which the WEC acknowledges were sent too late to be filled out and mailed back by
election day. 10 On top of this group, data from the WEC as of April 7 indicates that at
least an additional 9,388 ballots were applied for timely but were never even sent out. The
WEC advises that due to a reporting lag this number was lower, but does not indicate by
how much.
At least some of these problems were rooted in mail delivery issues, which led to
some absentee ballots reaching voters or clerks late or not at all. For example, a WEC staff
member received a call from a United States Postal Service (“USPS”) official in Chicago
on April 8, who reported that “three tubs” of absentee ballots from the Appleton/Oshkosh
area had been found undelivered in a post office in Chicago, although the Legislative
defendants and the RNC/RPC point out that these tubs were dropped off at USPS at the
end of the day on April 7 (see Leg. Defs.’ & RNC/RPW Resp. to DNC Pls.’ PFOFs (dkt.
#450) ¶ 84).

Similarly, in Fox Point, a bin containing about 175 unopened and

undelivered ballots was inexplicably returned to the clerk’s office on the morning of
election day.
Voters also reported problems with satisfying the requirements for requesting and

Administrator Wolfe testified that it may take 14 days for an absentee ballot to make its way
through the mail from a clerk’s office to a voter and back again, and even under ideal conditions
with a two-day first class mail delivery time, a mailed ballot would take at least four to six days to
turn around. (Swenson Pls.’ Supp. PFOFs (dkt. #494) ¶ 62 (citing Wolfe Dep. (dkt. #247) 51:121).)
10

13

A45

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 14 of 69

casting their absentee ballots. For example, some voters testified that they had difficulties
uploading their photo ID to the online system or otherwise providing the required ID
needed to request an absentee ballot. 11

(DNC Pls.’ PFOFs (dkt. #419) ¶ 68 (citing

declarations).)
3. Efforts to count absentee ballots
Further, while the WEC issued guidance regarding the safe execution of the witness
signature requirement before voting and returning an absentee ballot itself, plaintiffs’
expert opined that this complicated advice was not easy to follow. (Swenson Pls.’ PFOFs
(‘459, dkt. #42) ¶ 81 (citing Remington Expert Report (’459 dkt. #44)).) For example,
plaintiff Jill Swenson testified that she spent two weeks trying to find someone to witness
her ballot in a safe manner, ultimately to no avail. (See Swenson Decl. (’459 dkt. #47) ¶¶
11-13.) Relying on this court’s preliminary injunction modifying the witness signature
requirement in light of such issues, Swenson eventually mailed her ballot without a witness
signature, only to find out later that this court’s order was stayed on appeal. (Id.) Other
voters also testified that they did not cast their absentee ballot, or they cast their ballot
without the proper certification, due to COVID-19-related safety concerns regarding the
witness requirement. (See DNC Pls.’ PFOFs (dkt. #419) ¶¶ 157-60 (citing declarations).) 12
In addition, although many ballots arrived with no postmarks, two postmarks or unclear

Defendants do not dispute that some voters testified to difficulties with uploading their photo ID
to the online system (or could otherwise not provide the required ID needed to request an absentee
ballot), but as discussed further in the opinion below, none of the declarations persuasively establish
that the ID requirement was or will be difficult to satisfy for most desiring to vote absentee.

11

As was conceded in the hearing, none of the plaintiffs produced any evidence of a voter who was
ultimately unable to meet the proof of residence requirement.

12

14

A46

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 15 of 69

postmarks, on this issue, the guidance issued by the WEC simply left it up to each
municipality to determine whether a ballot was timely.
In the end, 120,989 voters who requested absentee ballots did not return them as
of election day, although what portion of these voters ended up voting in-person on
election day or why they did not is unknown. Even for those absentee ballots that did
reach clerks’ offices, more than 14,000 ballots were rejected due to an “insufficient” witness
certification and “thousands” were rejected for other reasons. (Swenson Pls.’ PFOFs (’459,
dkt. #42) ¶ 90.) However, the WEC maintains that “the final election data conclusively
indicate[d] that the election did not produce an unusual number [of] unreturned or
rejected [absentee] ballots,” adjusting for the larger number of absentee votes submitted.
(WEC Resp. to Swenson Pls.’ PFOFs (dkt. #439) ¶ 74.)
All told, absentee ballots represented 73.8% of all ballots counted. Approximately
61.8% of absentee ballots were mailed in, while the remaining 12% were cast in-person
absentee or hand-delivered, meaning only roughly 26.2% were cast on election day.
Absentee votes never comprised more 20% of all ballots in recent past elections, and often,
they represented less than 10% of ballots cast. The WEC itself stated in a report that the
increase in absentee voting “created resource issues for a system primarily designed to
support polling place voting.” (Swenson Pls.’ PFOFs (’459, dkt. #42) ¶ 50 (quoting
Goodman Decl., Ex. 18 (WEC May 20 Meeting Materials) (’459, dkt. #43-18) 19-21).)
4. Election day voting
As for voting on the actual election day itself, April 7, 2020, severe shortages of poll
workers caused significant problems in some jurisdictions. In particular, because of the age

15

A47

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 16 of 69

and health concerns of poll workers who declined to volunteer, Milwaukee was only able
to open five of its usual 180 polling sites, and Green Bay reduced its usual 31 polling sites
to just two. In part due to this consolidation, some individuals had to wait in long lines,
sometimes for hours before being allowed to vote. While Governor Evers authorized the
Wisconsin National Guard to serve as poll workers, he only did so on April 2, less than
one week before the election. In addition, while the WEC was able to send sanitation and
personal protective equipment (“PPE”) to all polling sites, some supplies were limited or
inadequate. Some poll workers even reported that they had to rely on vodka as a sanitizer.
Moreover, the WEC did not issue any particular mandate requiring specific public health
measures to be taken by clerks or poll workers. Finally, voters and poll workers reported
various perceived safety problems, including: (1) cramped polling locations that made it
difficult to maintain social distancing; (2) no enforcement of social distancing by poll
workers; (3) a lack of or improper mask-wearing by voters and poll workers; (4) poll
workers’ reuse of paper towels to clean voter booths between voters; (5) a lack of sanitized
pens; and (6) poll set-ups requiring poll workers to sit approximately two feet from each
other.
Plaintiffs also cite to various declarations to highlight the difficulties faced by some
citizens who sought to vote in-person in the April election. (See DNC Pls.’ PFOFs (dkt.
#419) ¶¶ 62-66 (citing declarations).)

For example, although Jeannie Berry-Matos

requested and received an absentee ballot, it was for the wrong ward; unable to correct the
error in time, she then was forced to vote in person on April 7 at Washington High School
in Milwaukee.

(DNC Pls.’ PFOFs (dkt. #419) ¶ 62 (citing Berry-Matos Decl. (dkt.

16

A48

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 17 of 69

#263)).)

When Berry-Matos arrived, she found a line stretching several blocks, no

available close parking, no poll workers enforcing social distancing, and no way to sanitize
her pen or her photo ID. (Id.) All in all, it took her an hour and thirty-five minutes to
vote in person. (Id.) Other voters who requested but did not receive absentee ballots
similarly showed up at the polls to vote, but concerned about safety and confronted with
long lines, they ultimately did not cast their vote. (DNC Pls.’ PFOFs (dkt. #419) ¶¶ 6366 (citing Wortham Decl. (dkt. #367); Moore Decl. (dkt. #330); Washington Decl. (dkt.
#363)); see also Gear Pls.’ PFOFs (dkt. #422) ¶¶ 236-38, 468-70, 599-602, 627 (citing
declarations).)
Overall, 1,555,263 votes were cast in the April election. This court’s injunction
extending the absentee ballot physical receipt deadline from April 7 to April 13 appears to
have resulted in approximately 80,000 ballots being counted that would have otherwise
been rejected as untimely. (DNC Pls.’ PFOFs (dkt. #419) ¶ 10.) In addition, the court’s
injunction extending the registration deadline arguably resulted in an estimated 57,187
voters successfully registering in advance. (Id. ¶ 197.) Of course, absent the court’s
injunction some portion of those voters may have opted to register to vote in person on
election day just before voting, rather than sending their absentee ballot by mail.
Plaintiffs point to expert reports concluding that COVID-19 and its effects reduced
voter turnout in the election. (See Swenson Pls.’ PFOFs (’459 dkt. #41) ¶ 131 (citing
Fowler Expert Report (’459 dkt. #46)); DNC Pls.’ PFOFs (dkt. #419) ¶ 111 (citing Burden
Decl. (dkt. #418)).) Still, 34.3% of eligible voters cast a ballot in the April election; in
comparison, the turnout for previous spring primary elections was 27.2% (2019), 22.3%

17

A49

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 18 of 69

(2018), 15.9% (2017), 47.4% (2016), 26.1% (2012), and 34.9% (2008).
5. COVID-19 impacts on in-person voting
As for the relationship between Wisconsin’s April election and COVID-19
transmission in the state, the parties point to arguably conflicting reports on this subject.
Plaintiffs note that a Wisconsin Department of Health Services analysis traced 71 cases of
COVID-19 to in-person voting in April. (Edwards Pls.’ PFOFs (dkt. #417) ¶ 4; DNC Pls.’
PFOFs (dkt. #419) ¶ 6.) Similarly, expert witness Meagan Murry, M.D., an epidemiologist
at Harvard School of Public Health, reported “71 confirmed cases of Covid-19 among
people who may have been infected during the election.” (Swenson Pls.’ Supp. PFOFs
(dkt. #494) ¶ 5 (quoting Murry Decl. (dkt. #370) ¶ 60).) They also reference a working
paper, which concludes that in-person voting led to approximately 700 additional COVID19 cases in Wisconsin. (Edwards Pls.’ PFOFs (dkt. #417) ¶ 4.)
The Legislative defendants and the RNC/RPW, for their part, point to two reports
concluding that the April election was not associated with an increase in COVID-19
infection rates. (Leg. Defs.’ & RNC/RPC’s Resp. to Swenson Pls.’ PFOFs (dkt. #451) ¶¶
7, 36 (citing Tseytlin Decl., Exs. 18, 19 (dkt. ##458-18, -19).) 13

The Legislative

In particular, defendants cite to a report authored in part by two individuals affiliated with the
World Health Organization Collaborating Centre for Infectious Disease Epidemiology and Control,
which purported to analyze confirmed COVID-19 cases in the weeks surrounding the April 7
election, and found that the election was not associated with an increase in COVID-19 infection
rates. (Tseytlin Decl., Ex. 18 (dkt. #458-18).) They also cite to a second report authored by
individuals affiliated with the Larkin Community Hospitals in Miami, the Department of Math
and Statistics at the University of South Alabama, and the Froedtert & The Medical College of
Wisconsin in Milwaukee. (Tseytlin Decl., Ex. 19 (dkt. #458-19).) This report concluded that:
“There was no increase in COVID-19 new case daily rates observed for Wisconsin or its 3 largest
counties following the election on April 7, 2020, as compared to the US, during the post-incubation
interval period.” (Id.)
13

18

A50

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 19 of 69

defendants and the RNC/RPW also point out that the Wisconsin DHS explained that it is
“not clear how many of the infections may have been caused by the spring election because
many of the people had other exposures.” (Leg. Defs.’ & RNC/RPW’s Resp. to Edwards
Pls.’ PFOFs (dkt. #485) ¶ 3.)
After the court’s evidentiary hearing in this case, Wisconsin also held another
primary election on August 11. Evidence presented by the parties prior to the election
suggested that certain localities again had to consolidate polling locations due to poll
worker shortages. For example, Sun Prairie expected to consolidate eight polling places
down to one. The WEC told municipalities “not to plan on” assistance from the National
Guard (Swenson Supp. Pls.’ PFOFs (dkt. #494) ¶ 94), but the parties represented that
Governor Evers ultimately did deploy the Guard to assist with the election on August 5,
less than one week before the election. In the end, both the April and August elections
suggest that in-person voting can be conducted safely if the majority of votes are cast in
advance, sufficient poll workers, polling places, and PPE are available, and social distancing
and masking protocols are followed. Of course, the aged, those with comorbidities or those
lacking confidence in the ability of local officials and the public to get all those factors right
are understandably less confident in that assessment.

C. Plans for the November Election in Light of the Ongoing COVID-19
Pandemic
While the exact trajectory of COVID-19 in Wisconsin is unknown, the unrebutted
public health evidence in the record demonstrates that COVID-19 will continue to persist,
and may worsen, through November. Recent outbreaks, particularly among Wisconsin

19

A51

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 20 of 69

college students, and the onset of flu season continue to complicate assessments. For
example, concern remains that the significant new infections reported on reopened college
campuses may spread into the community. David Wahlberg, UW-Madison threatens ‘more
drastic action’ as experts say COVID-19 outbreak impacting broader community, Wis. State
Journal (Sept. 16, 2020), https://madison.com/wsj/news/local/education/university/uwmadison-threatens-more-drastic-action-as-experts-say-covid-19-outbreak-impactingbroader-community/article_dd00c9cc-5dc9-5924-99ca-40c94a0f6738.html. Indeed, with
flu season yet to arrive, Wisconsin has already broken numerous new case records this
month, with over 2,000 new cases reported on September 17, 2020, up from a daily average
of 1,004 just one week prior. See WPR Staff, Wisconsin Sets New Daily Record with 2,034
Coronavirus

Cases

Reported

Thursday,

Wis.

Public

Radio

(Sept.

17,

2020),

https://www.wpr.org/wisconsin-sets-new-daily-record-2-034-coronavirus-cases-reportedthursday.

Regardless, given the significantly higher voter turnout expected for the

November election in comparison with April, there is little doubt that the WEC, clerks and
voters will again face unique challenges in the upcoming election. As a result, the WEC is
already urging as many people as possible to vote absentee in the hopes of avoiding large
lines, shortages and attendant health risks on election day.
Moreover, the evidence suggests that Wisconsin voters will again rely heavily on the
absentee voting system for the November election, with the WEC expecting some 1.8 to 2
million voters to request an absentee ballot, again smashing all records and turning historic
voter patterns on their head. Unfortunately, Madison City Clerk Maribeth Witzel-Behl
testified that at least her office “has not been given the resources and money necessary to

20

A52

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 21 of 69

meet the anticipated demand for mail-in absentee ballots in November,” and “with other
departments going back to work, [her] staff now only has a few dozen League of Women
Voters volunteers available to help.” (Gear Pls.’ Supp. PFOFs (dkt. #506) ¶ 20 (quoting
Witzel-Behl Decl. (dkt. #382) ¶ 6).)
As previously discussed, the absentee ballot system in Wisconsin is also heavily
reliant on the USPS, which has and continues to face its own challenges.

WEC

Administrator Wolfe in particular acknowledged “significant concerns about the
performance of the postal service in connection with the April 7 election.” (DNC Pls.’
PFOFs (dkt. #419) ¶¶ 140, 142 (quoting Wolfe Dep. (dkt. #247) 89:10-15).) In addition,
a report by the USPS Inspector General’s Office found that voters requesting ballots five
days before the election -- the deadline set by Wisconsin statutes -- face a “high risk” that
their ballot will not be delivered, completed and returned in time to be counted. (Swenson
Pls.’ Supp. PFOFs (dkt. #494) ¶ 61 (quoting Second Goodman Decl., Ex. 17 (Timeliness
of Ballot Mail) (dkt. #495-17) 6-7).)

USPS also faces budget shortfalls, as well as

challenges caused by increasing COVID-19 rates among postal workers themselves.
Moreover, just a few weeks ago, the new Postmaster General established “major operational
changes . . . that could slow down mail delivery,” including restricting the ability for USPS
employees to work overtime. (DNC Pls.’ Supp. PFOFs (dkt. #501) ¶¶ 7-8.)
As to fulfilling the witness signature requirement, over 600,000 Wisconsinites live
alone and even more live with an individual who is unqualified to be a witness. Prospective
absentee voters in that situation will need to find someone outside of their household to
witness their ballot before returning it. According to plaintiffs’ expert, a “significant”

21

A53

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 22 of 69

portion of voters who do not live with a qualified witness are senior citizens, who also face
special risks of complications from COVID-19. (DNC Pls.’ PFOFs (dkt. #419) ¶ 153
(citing Fowler Rep. (’459 dkt. #46) 12-13).)

Relatedly, another expert produced by

plaintiffs opined that the WEC’s guidance on the witness signature requirement “may be
difficult to understand by the homebound individual and witness” and “may be impractical
in certain situations, such as for persons living in multi-level or multi-unit apartment
complexes.” (Swenson Pls.’ PFOFs (’459 dkt. #42) ¶ 81 (citing Remington Rep. (’459 dkt.
#44)).) That being said, notwithstanding a few, individual affiants who had experienced
difficulties securing a witness signature requirement or submitting proof of ID for the April
election, the Legislature points out that plaintiffs produced no evidence of voters who are
still unable to meet the challenged requirements for November. 14
In-person voting in November is also likely to be strained by a shortage of poll
workers, despite more time to plan for that shortage than was available for the spring
election. On the one hand, Milwaukee officials testified that they hope to be able to open
all 180 polling sites (up from five in April), and Green Bay expects to have at least 13
polling locations (up from two in April). On the other hand, clerks are still reporting poll
worker shortages for November.

Similarly, WEC Administrator Wolfe testified that

The DNC plaintiffs also contend that: “many workplaces, public libraries, and copy shops may
remain or become closed given the pandemic’s acceleration in the U.S., many voters will continue
to face substantial burdens in obtaining the copies or scans they need to complete their absentee
ballot applications and will continue to be prevented from voting. In addition, even if those
establishments were open, many voters are fearful of leaving their homes because of the health risks
of the coronavirus pandemic and the restrictions imposed under their respective County’s health
orders.” (DNC Pls.’ PFOFs (dkt. #419) ¶ 164.) Again, however, the only evidence they cite in
support is voter declarations expressing fear of in-person voting due to COVID-19, rather than a
personal inability to arrange an effective witnessing of their ballot.

14

22

A54

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 23 of 69

“despite the advance warning [and] the greater time to plan for people who will opt-out
because of COVID-19 risks, local municipalities are still having problems filling all their
polling stations.” (8/5/20 Hr’g Tr. (dkt. #532) 82.) Because of this, Wolfe explained a
lack of poll workers was the thing she “worr[ies] about the most” for the upcoming
November election. (Id. at 83.)
More fundamentally, plaintiffs have produced a credible expert report that
concludes in-person voting in November will continue to pose “a significant risk to human
health” due to the COVID-19 pandemic. (Swenson Pls.’ PFOFs (’459 dkt. #42) ¶ 7 (citing
Remington Expert Report (’459 dkt. #44)).) While not disputing this risk, the WEC
counters with the general observation that the risk of transmission is “greatly reduced” if
people are wearing masks and practicing social distancing. (WEC Resp. to Swenson Pls.’
PFOFs (dkt. #439) ¶ 7.) The Legislative defendants and the RNC/RPC further dispute
any suggestion that in-person voting in November will be unsafe, again pointing to the two
studies concluding that the April election was not associated with an increase in COVID19 infection rates. (See (Leg. & RNC/RPW’s Resp. to Swenson Pls.’ PFOFs (dkt. #451)
¶¶ 7, 36 (citing Tseytlin Decl., Ex. 18, 19 (dkt. ##458-18, -19)).) At minimum, the
evidence continues to suggest that a large election day turnout will stretch safety protocols
and increase risk of transmission particularly to poll workers, which is why the WEC has
continued to promote voting by mail.
Regardless of the objective risks, plaintiffs have also produced declarations from
various voters who aver that if unable to vote by mail, they will not vote in-person in
November. (See Gear Pls.’ PFOFs (dkt. #422) ¶¶ 186, 215, 279, 323, 355, 387, 407 (citing

23

A55

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 24 of 69

various voter declarations).) Others declare that they intend to vote by mail in November,
but would like a “back-up” option, because of their previous personal experiences in not
receiving an absentee ballot for the April election despite requesting it timely. (See id. ¶¶
445, 474, 501, 576, 633, 669 (citing various voter declarations).)
In preparation for these anticipated challenges in administering the November
election, the WEC has taken a number of steps. Of particular note, the WEC mailed
absentee ballot applications to nearly all registered voters. The application itself contains
an information sheet, which among other things generally describes the “indefinitely
confined” exception to the photo ID requirement, but does not indicate what constitutes
“indefinitely confined” under Wisconsin law. Instead, the instructions warn a prospective
voter may be fined $1,000 or imprisoned up to 6 months for falsely asserting that they are
indefinitely confined. This mailer went out on September 1st.
In addition to encouraging Wisconsinites to vote absentee, the WEC has also: (1)
directed staff to spend federal CARES Act grant money to distribute sanitation supplies to
all 72 counties in Wisconsin; (2) planned to implement intelligent mail barcodes (“IMB”)
to facilitate more detailed absentee-ballot tracking; (3) planned to spend up to $4.1 million
on a CARES Act sub-grant to local election officials to help pay for increased elections costs
caused by the pandemic; (4) made upgrades to the MyVote website; (5) issued guidance
to local officials about providing drop boxes for the safe and easy return of absentee ballots;
(6) made CARES Act subgrant money available for the purchase of additional, absentee
ballot drop boxes; (7) urged localities to solicit election inspectors, create recruitment tools
for local officials, and promote the need for poll workers; (8) produced content to educate

24

A56

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 25 of 69

voters on “unfamiliar aspects of voting” for use by local election officials, voter groups, and
the public; (9) worked with public health officials to produce public health guidance
documents for clerks, poll workers, and the public; and (10) developed a webinar series for
local officials to provide training on election procedures, including COVID-19-specific
training. Just as in April, what the WEC has not done is ease any of the statutory deadlines,
having again concluded on a 3-3 vote that it lacks the authority to do so even in the face
of the anticipated effects of the COVID-19 pandemic.

OPINION
I. Motions to Dismiss
As an initial matter, the court will address certain issues raised in defendants’
pending motions to dismiss, considering first various jurisdictional challenges and then
arguments that some of plaintiffs’ claims must be dismissed for failure to state a claim on
which relief may be granted. 15

Specifically, the WEC moved to dismiss the Swenson plaintiffs’ complaint (see WEC’s Mot. to
Dismiss (’340, dkt. #14)), and the Legislative defendants moved to dismiss the Gear, Edwards and
Swenson plaintiffs’ operative complaints (see Leg. Defs.’ Mot. to Dismiss Gear Compl. (’278 dkt.
#382); Leg. Defs.’ Mot to Dismiss Edwards Compl. (’340 dkt. #12); Leg. Defs.’ Mot to Dismiss
Swenson Compl. (’459 dkt. ##27, 272)). Although the WEC also initially moved to dismiss the
Gear plaintiffs’ original complaint, after the Gear plaintiffs’ filed a proposed, first amended
complaint, plaintiffs filed a joint stipulation with the WEC, which withdrew the WEC’s pending
motion to dismiss the first amended complaint, while reserving its right to answer, move or
otherwise plead in response to the second amended complaint. (Joint Stipulation (dkt. #230).)
Finally, although the Legislative defendants did not formally move to dismiss the DNC plaintiffs’
second amended complaint (the court having previously denied their motion to dismiss the DNC
plaintiffs’ first amended complaint (6/10/20 Op. & Order (dkt. #217)), they argued in their briefing
that “especially after Luft, the DNC Second Amended Complaint must be dismissed for many of
the same reasons supporting dismissal of the operative complaints in Gear and Swenson.” (Leg.
Defs.’ Omnibus Br. (dkt. #454) 5 n.3.)
15

25

A57

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 26 of 69

A. Jurisdictional Challenges
In evaluating challenges to its subject matter jurisdiction, this court “must accept as
true all well-pleaded factual allegations and draw reasonable inferences in favor of the
plaintiff.” Rueth v. EPA, 13 F.3d 227, 229 (7th Cir. 1993) (quoting Capitol Leasing Co. v.
F.D.I.C., 999 F.2d 188, 191 (7th Cir. 1993)). Still, the court may “properly look beyond
the jurisdictional allegations of the complaint and view whatever evidence has been
submitted on the issue to determine whether in fact subject matter jurisdiction exists.”
Capitol Leasing Co., 999 F.2d at 191.
The WEC argues that no actual controversy exists between that entity and plaintiffs’
since the WEC neither opposes nor supports plaintiffs’ requests for injunctive relief (WEC
Br. (‘340, dkt. #15) 4-5), and for a case to be justiciable, there must be an actual dispute
between adverse litigants. (See id. (citing Oneida Tribe of Indians v. Wisconsin, 951 F.2d 757,
760 (7th Cir. 1991).) However, as the U.S. Supreme Court held in United States v. Windsor,
570 U.S. 744 (2013), “even where ‘the Government largely agree[s] with the opposing
party on the merits of the controversy,’ there is sufficient adverseness and an ‘adequate
basis for jurisdiction in the fact that the Government intended to enforce the challenged
law against that party.’” Id. at 759 (quoting INS v. Chadha, 462 U.S. 919, 940 n.12
(1983)). Similarly, in this litigation, the WEC has indicated its intention to enforce
Wisconsin’s current elections laws unless otherwise directed by a state or federal court.
Thus, regardless of its failure to dispute plaintiffs’ requested relief affirmatively, sufficient
adverseness exists between the parties to create a justiciable dispute. Of course, by virtue
of the intervention by multiple other defendants who are actively disputing plaintiffs’ right

26

A58

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 27 of 69

to any of the relief requested, there is little question that there is an actual dispute between
the parties needing resolution by this court.
Next, both the WEC and the Legislative defendants attack plaintiffs’ claims on
standing grounds.

To establish standing, “[t]he plaintiff must have suffered or be

imminently threatened with a concrete and particularized ‘injury in fact’ that is fairly
traceable to the challenged action of the defendant and likely to be redressed by a favorable
judicial decision.” Lexmark Int’l, Inc. v. Static Control Components, Inc., 572 U.S. 118, 125
(2014) (citing Lujan v. Defenders of Wildlife, 504 U.S. 555, 560 (1992)). Again, the WEC
maintains that it has “no power to enact any changes to the election laws in regard to the
Spring Election, and it has no authority to change the law relative to the conduct of future
elections.” (WEC Br. (‘340, dkt. #15) 6.) After Windsor, however, this is just the same
“case or controversy” argument in different clothing, since the WEC’s administration of
Wisconsin’s elections, including the enforcement of its current election laws, is the cause
of plaintiffs’ alleged injuries. Moreover, the WEC has the authority to implement a federal
court order relating to election law to redress these alleged injuries.

That the WEC

maintains it lacks any independent authority under state law to make the changes requested
by plaintiffs poses no jurisdictional barrier. If anything, it demonstrates the WEC is an
indispensable party for plaintiffs to achieve the remedies they seek.
Relatedly, the Legislative defendants argue that many of plaintiffs’ claims challenge
independent actions of third-parties who were not named as defendants -- specifically, the
USPS and local election officials -- and thus plaintiffs’ lack standing to bring those claims.
(Leg. Defs.’ Omnibus Br. (dkt. #454) 100.) Certainly, actions of both the USPS and local

27

A59

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 28 of 69

election officials appear to have contributed and may contribute to plaintiffs’ alleged
injuries, and those third-parties may also have some power to redress those injuries, but
this does not mean the WEC’s actions or inactions were not also causes of plaintiffs’
injuries. What matters for standing is that: (1) defendant’s conduct was one of the multiple
causes; and (2) defendant can at least partially redress the wrong. See WildEarth Guardians
v. U.S. Dep’t of Agric., 795 F.3d 1148, 1157 (9th Cir. 2015) (“So long as a defendant is at
least partially causing the alleged injury, a plaintiff may sue that defendant, even if the
defendant is just one of multiple causes of the plaintiff's injury.”); Orangeburg v. Fed. Energy
Reg. Comm’n, 862 F.3d 1071, 1077-84 (D.C. Cir. 2017) (“FERC contends that the
causation element is not satisfied because Orangeburg’s injury is actually caused by NCUC,
an absent third party, not the Commission. To be sure, NCUC -- a non-party -- is a key
player in the causal story. But the existence of, perhaps, an equally important player in the
story does not erase FERC’s role.”).
Similarly, here, the actions of the USPS and local election officials may be equally
important players in the conduct of the November election but that does not erase the
WEC’s overall statutory responsibility for the administration of Wisconsin’s elections.
Wis. Stat. § 5.05(1). Regardless, it is the WEC’s role and specific authority to promulgate
rules and guidance to localities in order to implement Wisconsin law (including any court
order) related to elections and their proper administration under § 5.05(1)(f) that is in
dispute. Moreover, should this court enter a binding order, the WEC will be required to
issue updated rules, procedures, or formal advisory opinions under § 5.05(5t) to ensure its
implementation. This is more than enough to establish standing.

28

A60

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 29 of 69

The Legislative defendants further lodge a narrower standing challenge against just
one of the Swenson plaintiffs’ ADA claims. (See Leg. Defs.’ Omnibus Br. (dkt. #454) 10508.) Specifically, they contend the Swenson plaintiffs lack standing to pursue a claim that
the WEC’s failure to provide accessible online ballots impermissibly discriminates against
voters with vision or other print disabilities because none of the Swenson plaintiffs have
such a disability.

(See id.)

As the Swenson plaintiffs point out, however, they have

produced evidence that Disability Rights Wisconsin (one of the named plaintiffs in the
Swenson complaint) has itself been injured by the alleged violation of the ADA, as it has
had to divert its own resources to assist voters with those disabilities to both get access to
and cast absentee ballots. (See Swenson Pls.’ Reply (dkt. #493) 21.) Because Disabilities
Rights Wisconsin has alleged a concrete and particularized injury to its own interests, and
advocate for the interests of others with relevant disabilities, the Swenson plaintiffs have
established standing to pursue their claim regarding accessible online ballots. See Havens
Realty Corp. v. Coleman, 455 U.S. 363, 378-80 (1982) (holding that organization that had
to divert resources to mitigate effects of allegedly discriminatory practices had standing
bring suit).
Finally, the Legislative defendants contend that plaintiffs’ claims are unripe and
should be dismissed under the Burford abstention doctrine. Little time need be spent on
these contentions because the court previously addressed nearly identical arguments in an
earlier opinion and order. (See 6/10/20 Op. & Order (dkt. #217).) The court finds no
reason to depart from its earlier conclusion that plaintiffs’ claims are ripe and fit for judicial
review, presenting an “actual and concrete conflict premised on the near-certain

29

A61

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 30 of 69

enforcement of the challenged provisions in the context of the present and ongoing
COVID-19 health care crisis” and because plaintiffs are “likely to suffer adverse
consequences if the court were to require a later challenge.” (Id. at 7-8.) Further, as
previously explained, the Burford abstention doctrine is not applicable to any of the cases
or controversies before this court because Wisconsin state courts “are not specialized
tribunals with a special relationship with voting rights issues” and because Burford
abstention is often “inappropriate in federal constitutional challenges to state elections
laws.” (Id. at 17-18.)

B. Failure to State a Claim
Dismissal under Rule 12(b)(6) is proper “when the allegations in a complaint,
however true, could not raise a claim of entitlement to relief.” Bell Atl. Corp. v. Twombly,
550 U.S. 544, 558 (2007). To survive a motion to dismiss, a complaint must “plead[]
factual content that allows the court to draw the reasonable inference that the defendant
is liable for the misconduct alleged.” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009).
Certain of plaintiffs’ claims are plainly barred by immunity doctrines, and thus, fail
to state a claim. First, to the extent that any plaintiffs seek money damages pursuant to
§ 1983, such relief is barred by state sovereign immunity. See Will v. Mich. Dep’t of State
Police, 491 U.S. 58, 64, 66 (1989).

Second, the Edwards plaintiffs’ claims against

Wisconsin State Assembly Speaker Robin Vos and Wisconsin State Senate Majority
Leader Scott Fitzgerald are foreclosed by the doctrine of legislative immunity, which
provides absolute immunity from liability for an official’s legitimate legislative activity. See
Bogan v. Scott-Harris, 523 U.S. 44, 49 (1998); Tenney v. Brandhove, 341 U.S. 367, 376

30

A62

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 31 of 69

(1951). The Edwards plaintiffs’ complaint faults Speaker Vos and Majority Leader
Fitzgerald for failing to take action to postpone the April election or otherwise enact
measures regarding Wisconsin’s elections in the face of the pandemic, but any decision not
to act qualifies as legislative activity protected by absolute immunity. See NRP Holdings
LLC v. City of Buffalo, 916 F.3d 177, 192 (2nd Cir. 2019) (decision not to introduce
resolutions before city council was protected legislative activity).
The Edwards plaintiffs’ only response to defendants’ invocation of legislative
immunity is to assert without legal authority that it applies only to state law claims. (See
Edwards Pls.’ Br. (‘340, dkt. #25) 16.) To the contrary, the immunity doctrine is a
creature of federal common law and applies to federal civil claims. See Bogan, 523 U.S. at
48 (explaining that the U.S. Constitution and federal common law “protect[s] legislators
from liability for their legislative activities”); NRP Holdings LLC, 916 F.3d at 190
(describing the doctrine of absolute legislative immunity as a matter of common law
created by the U.S. Supreme Court and applicable to federal civil claims).
Oddly, having asserted immunity on their behalf, the Legislative defendants
nevertheless urge the court to permit Speaker Vos and Majority Leader Fitzgerald to
remain as parties to defend state law. (Leg. Defs.’ Br. (‘340, dkt. #13) 30-31.) In doing
so, they, too, cite to no legal basis for a defendant to be found immune from suit yet remain
as a party. (See id.) Even if there were some legal basis to allow the defendants to remain,
this court has previously held that an individual “legislator’s personal support [of a law he
or she enacted] does not give him or her an interest sufficient to support intervention.” See
One Wis. Inst., Inc. v. Nichol, 310 F.R.D. 394, 397 (W.D. Wis. 2015) (citing Buquer v. City

31

A63

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 32 of 69

of Indianapolis, No. 11–cv–00708, 2013 WL 1332137, at *3 (S.D. Ind. Mar. 28, 2013),
Am. Ass’n of People With Disabilities v. Herrera, 257 F.R.D. 236, 251 (D.N.M. 2008)).
Indeed, to their credit, defendants themselves readily admit that the Edwards plaintiffs
have “name[d] the Wisconsin Assembly and the Wisconsin Senate as parties, meaning
there is no practical need to retain Speaker Vos and Majority Leader Fitzgerald as
additional named Defendants here.” (Leg. Defs.’ Br. (‘340, dkt. #13) 31.) Having been
presented no legal or practical reason to grant immunity but retain Speaker Vos and
Majority Leader Fitzgerald as defendants, the court will dismiss them from this case. 16

II.

Motions for Preliminary Injunction 17
To make out a prima facie case for a preliminary injunction, a party must show (1)

Defendants also move to dismiss the Edwards plaintiffs’ claim for monetary damages under the
ADA. A required element of a compensatory damages claim for intentional discrimination under
Title II of the ADA is deliberate indifference. See Lacy v. Cook Cty., Ill., 897 F.3d 847, 862-63 (7th
Cir. 2018). This requires both “knowledge that a harm to a federally protected right is substantially
likely” and “a failure to act upon that likelihood.” Id. at 863 (quoting S.H. ex rel. Durrell v. Lower
Merion Sch. Dist., 729 F.3d 248, 263 (3d Cir. 2013)). The WEC and Legislative defendants both
argue that the Edwards plaintiffs do not assert a cognizable claim for ADA damages because they
failed to allege deliberate indifference explicitly. (WEC Defs.’ Mot. to Dismiss Br. (’340, dkt. #15)
8; Leg. Defs.’ Mot. to Dismiss Br. (’340, dkt. #14) 24.) Reading the Edwards plaintiffs’ complaint
in the light most favorable to them, as this court must at the pleading stage, it is reasonable to infer
this claim based on their allegations that defendants have (1) knowledge of the past and planned
enforcement of Wisconsin’s election laws, as well as the dangers posed by the COVID-19 pandemic,
and (2) have and are continuing to fail to act on that likelihood. Thus, plaintiffs have alleged
sufficient facts to support their implicit claim for deliberate indifference and survive the defendants’
motions to dismiss. Of course, whether or not there was or is likely to be a violation of the ADA,
much less a deliberate one, remains to be proven. Finally, as to defendants’ remaining grounds for
dismissal based on plaintiffs’ failure to plead sufficient allegations to support their claims as a matter
of law, the court will address these arguments in its substantive consideration of each of plaintiffs’
claims in the discussion that follows.

16

In addition to the parties’ briefs, the court received two amicus briefs from Common Cause (dkt.
#251) and the American Diabetes Association (’340 dkt. #23). The policy of the Seventh Circuit
is to “grant permission to file an amicus brief only when: (1) a party is not adequately represented
(usually, is not represented at all); or (2) when the would-be amicus has a direct interest in another
17

32

A64

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 33 of 69

irreparable harm, (2) inadequate traditional legal remedies, and (3) some likelihood of
success on the merits. Girl Scouts of Manitou Council, Inc. v. Girl Scouts of U.S. of Am., Inc.,
549 F.3d 1079, 1086 (7th Cir. 2008). If all three threshold requirements are met, the
court must then engage in a balancing analysis, weighing “the harm the plaintiff will suffer
without an injunction against the harm the defendant will suffer with one.” Harlan v.
Scholz, 866 F.3d 754, 758 (7th Cir. 2017).

The court must also “ask whether the

preliminary injunction is in the public interest.” Id. “The more likely the plaintiff is to
win, the less heavily need the balance of harms weigh in his favor; the less likely he is to
win, the more need it weigh in his favor.” Roland Mach. Co. v. Dresser Indus., Inc., 749 F.2d
380, 387 (7th Cir. 1984).

A. Anderson-Burdick Analysis
In Anderson v. Celebrezze, 460 U.S. 780 (1983), and Burdick v. Takushi, 504 U.S. 428
(1992), the Supreme Court set forth a balancing test to determine whether an election law
unconstitutionally burdens a citizen’s right to vote. Under the Anderson-Burdick test, a
court must weigh “the character and magnitude of the asserted injury to the rights” against
“the precise interests put forward by the State as justifications for the burden imposed by
its rule.” Burdick, 504 U.S. at 434 (quoting Anderson, 460 U.S. at 789). 18

case, and the case in which he seeks permission to file an amicus curiae brief, may by operation of
stare decisis or res judicata materially affect that interest; or (3) when the amicus has a unique
perspective, or information, that can assist the court of appeals beyond what the parties are able to
do.” Nat’l Org. for Women, Inc. v. Scheidler, 223 F.3d 615, 617 (7th Cir. 2000). Following that same
policy, the court concludes that these parties fall into the latter category, will grant their respective
motions, and has considered their proposed briefs.
18

As a group, plaintiffs also invoke four additional, legal claims: (1) Title II of the Americans with

33

A65

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 34 of 69

The Seventh Circuit recently applied and elaborated on this merits test in its longawaited decision in Luft v. Evers, 963 F.3d 655, considering a series of challenges to
Wisconsin’s election laws, including some of the provisions at issue in this litigation.
Fundamentally, the Luft court cautioned that the burden of a specifically challenged
election provision must be considered against “the state’s election code as a whole” -- that
is, by “looking at the whole electoral system,” rather than “evaluat[ing] each clause in
isolation.” Id. at 671. Luft further “stressed” that “Wisconsin’s system as a whole is
accommodating.” Id. at 674. At the same time, the court reaffirmed its earlier holding
that “the right to vote is personal” and, therefore, “the state must accommodate voters”
who cannot meet the state’s voting requirements “with reasonable effort.” Id. at 669.
Having already addressed at length the scope of the state’s constitutional obligation
to accommodate voting rights during the COVID-19 pandemic in its April 2, 2020,
decision (4/2/20 Op. & Order (dkt. #170) 26-28), which was largely left unchallenged on
appeal to the Seventh Circuit, Democratic Nat’l Comm. v. Bostelmann, Nos. 20-1538, -1546,
-1545, (7th Cir. April 3, 2020), and U.S. Supreme Court, Republican Nat’l Comm. v.
Democratic Nat’l Comm., 589 U.S. ____ (2020) (per curiam), the court simply adopts it

Disabilities Act, 42 U.S.C. § 12132; (2) the Mathews v. Eldridge, 424 U.S. 319 (1976), procedural
due process balancing test; (3) the Equal Protection Clause’s guarantee against arbitrary election
administration; and (4) section 11(b) of the Voting Rights Act (“VRA”). The latter three legal
claims either prove a poor fit for the relief plaintiffs are seeking, or plaintiffs fail to describe how
these standards would advance their claims beyond the Anderson-Burdick test. Thus, for reasons
addressed at the close of this opinion, the court concludes that plaintiffs have failed to demonstrate
any likelihood of success on the merits as to those claims for relief beyond that available under the
Anderson-Burdick test. Finally, three of the cases before the court also pursue claims for injunctive
relief under Title II of the Americans with Disabilities Act (“ADA”), 42 U.S.C. § 12132. At the
hearing, plaintiffs specifically relied on the ADA to advance two of the requests for relief, to enjoin
or modify the witness signature requirement and to provide an accessible, online absentee ballot.
The court addresses those challenges where relevant below.

34

A66

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 35 of 69

again by reference. Instead, in considering plaintiffs’ requests for injunctive relief with
respect to the November election, the court will stress the three, core concerns that drives
its analysis here.
First, the court is mindful, as it must be, that “[c]ourt orders affecting elections,
especially conflicting orders, can themselves result in voter confusion,” and “[a]s an
election draws closer, that risk will increase.” Purcell v. Gonzalez, 549 U.S. 1, 4-5 (2006).
In weighing the individual requests for relief, the court must consider the risk that any of
its actions may create confusion on the part of voters, either directly or indirectly, by
creating additional burdens on the WEC and local election officials. To ameliorate that
risk, the court has generally attempted to issue a decision far enough in advance to allow
an appeal of the court’s decision, provide sufficient time for the WEC and local election
officials to implement any modifications to existing election laws, and to communicate
those changes to voters. Issuing the decision now, six weeks out, rather than two weeks as
in the April election, does not come without its tradeoffs: the court must make certain,
reasonable projections about what the pandemic and other events relevant to voting will
be like by late October and early November. Of course, the court would prefer to be
making these decisions with a more complete understanding of the record of voter behavior
during that time, but that luxury does not exist. On the other hand, the court has a much
better understanding of the likely impacts of the pandemic on voting behavior, as well as
the State of Wisconsin’s capacity to address them, than it did in March.
Second, the court will focus solely on how the COVID-19 pandemic presents unique
challenges to Wisconsin’s election system and burdens Wisconsin voters. The court is not

35

A67

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 36 of 69

interested in plaintiffs’ general challenges to Wisconsin elections, because those challenges
have now been largely addressed in Luft or, to the extent left open, remain subject to further
proceedings before Judge Peterson. On the other hand, the court rejects the Legislature’s
attempts to paint plaintiffs’ claims as purely facial challenges, arguing that specific
individuals who face insurmountable burdens due to the COVID-19 pandemic could bring
as-applied challenges for relief at a later date. Still, recognizing that the line between a
facial and an as-applied challenge can be hazy, see Ctr. for Individual Freedom v. Madigan,
697 F.3d 464, 475 (7th Cir. 2012), plaintiffs’ claims here are only viable to the extent they
constitute as-applied challenges and, in particular, are compelling after fairly extrapolating
from relevant voters’ and local election officials’ experiences during the pandemic in April
to prove near certain burdens in November, particularly with respect to the availability of
mail-in absentee, early absentee and in-person voting options.
To the extent that some of the relief requested -- for example, the extension of
certain deadlines -- is substantial likely to provide needed relief to Wisconsin voters and
poll workers burdened by the pandemic’s impact, and even likely to “severely restrict” an
individual’s right to vote, the state may still articulate “compelling interests” for the
challenged election laws and prove those laws have been “narrowly tailored.” Luft, 963
F.3d at 672. As to other requested relief, plaintiffs seek “safety nets” to ensure that the
state is protecting the “personal” nature of the right to vote. Frank v. Walker, 819 F.3d
384, 386 (7th Cir. 2016) (“Frank II”); Luft, 963 F.3d at 677-78 (reaffirming Frank II
holding that “voting rights are personal,” requiring “that each eligible person must have a
path to cast a vote”). Regardless of how it is characterized, the relief requested by plaintiffs

36

A68

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 37 of 69

must be consistent with the Seventh Circuit’s decisions in Luft and Frank II. The rub, as
described in detail below, is whether plaintiffs have submitted sufficient evidence from
which this court must conclude that certain individuals are unlikely to be able to exercise
their right to vote despite reasonable effort.
Third, while the court will take up each of plaintiffs’ requested items of relief, after
Luft, the court must consider each request in light of the election system as a whole. Here,
the court principally considers the interplay between the WEC’s, local officials’ and voters’
expressed preference for absentee voting by mail in this election compared to the historic,
overwhelming preference for in-person voting. Obviously, ensuring that mail-in, absentee
voting is a tenable option for the majority of the electorate who are expected to vote this
way in November, whether based on the WEC’s strongly-stated preference or on personal
risk assessments, will decrease the number of individuals who will need to vote in-person.
In turn, this will help ensure that there are adequate and safe, in-person voting sites for
individuals unable or uninterested in voting by mail, whether because of a personal
preference to exercise their right to vote in person or because of difficulties in providing
the necessary photo ID, obtaining a required witness signature, or negotiating the U.S.
mail system., Even so,, to the extent the State has had more time to address those issues
before this election and chosen not to address them by virtue of a lack of political will or
simple inertia, the court will only grant relief where this failure to act in the face of the
pandemic is substantially likely to severely restrict the right to vote.
With those considerations in mind, the court addresses plaintiffs’ requests for
preliminary injunctive relief in the following, four categories: registration, absentee voting,

37

A69

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 38 of 69

in-person voting, and miscellaneous relief.
1. Registration
a. Extending Registration Deadlines
The DNC plaintiffs seek an order enjoining Wisconsin Statute § 6.28(1), which
requires a mail-in registration to be received by the clerk or postmarked no later than the
third Wednesday preceding the election (here, October 14), and requires electronic
registrations to be received by 11:59 p.m. on the third Wednesday preceding the election.
DNC argues that the court should extend both deadlines to the Friday before the election,
October 30, to align with the deadline for registering in person before election day. As the
DNC points out, the court granted similar, preliminary relief to that requested by plaintiffs
here before the April election, extending the mail-in postmark date and electronic
registration receipt deadline by 12 days to the Friday before the election. (3/20/20 Op. &
Order (dkt. #37) 10-15.)
However, the six weeks leading up to this election are different than the week or
two before the April 7 election, when the pandemic was a new phenomenon and demanded
swift adjustments to the timetable to accommodate voting from the safety of one’s home,
rather than venturing out into the public. As defendants persuasively argue, individuals
are now sufficiently on notice of the pandemic’s risks, its impacts on their daily lives, and
measures that can be taken to reduce those risks. So, to the extent individuals wish to
register electronically or by mail to facilitate later voting by mail, defendants argue that
voters must plan accordingly and complete their electronic and mail-in registrations by the
established deadline of October 14.

38

A70

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 39 of 69

Of course, what the Legislature originally afforded as a convenience to in-person
registration and voting has, at least for this election, become a necessity for some, as well
as an important tool for WEC and local officials to reduce the number of people voting in
person on the day of the election. Even more to the point, as WEC Administrator Wolfe
testified at the hearing, registering in person on the day of the election not only risks longer
lines, but increases the amount of time individuals are inside polling stations, as well as
requiring person-to-person engagement in two separate processes, which are further
prolonged by the additional, COVID-19 protections of social distancing and masking.
(8/5/20 Hr’g Tr. (dkt. #532) 60-61, 98-100.) Facilitating early registration electronically
and by mail will not only limits sustained interactions on election day, but will allow some,
significant number of unwary individuals sufficient time to request absentee ballots and
vote by mail (or by drop-off), rather than voting in person before or on the day of the
election.

For these reasons, WEC Administrator Wolfe testified at the hearing, the

tradition of having a significant number of individuals register in person on the day of the
election is incompatible with the goal of -- and projected, significant demand for -- voting
by mail via absentee ballot. (Id. at 57.) Cutting off electronic and mail-in registrations
three weeks before the election will not just thwart efforts to encourage Wisconsin voters
to vote by mail via absentee ballots, but increase the burdens and risks on those choosing
to vote in person. This is especially true in light of Wisconsin’s “cultural tradition” of
registering on election day, with more than 80% of registered voters having engaged in that
process in the past. (Id. at 58.)
Still, the recognized health benefits of driving the electorate to mail-in registration

39

A71

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 40 of 69

and absentee voting is probably insufficient alone to justify this court modifying an
established deadline for doing so. The difference in April, and again this November, is the
sheer number of new registrations and absentee voters who will rely on the U.S. mail to do
so, especially as compared to past elections, and the risks of severely restricting that option
during the pandemic for those who will come to the realization that the window has closed
too soon for them to register and request an absentee ballot. Unless some relief is provided
to the October 14 deadline, the likelihood of thousands of voters missing this window and
choosing not to vote in person is quite high, and while that eventuality may be present in
any election, the risks expand to tens of thousands of voters in the midst of the pandemic.
For these reasons, plaintiffs have demonstrated that discontinuing electronic and mail
registration options precipitously on October 14 will likely restrict many Wisconsin
citizens’ freedom to exercise their right to vote, at least without having to take unnecessary
risks of COVID-19 exposure by registering in person, and for some significant minority of
citizens, will severely restrict that right because of age, comorbidities or other health
concerns. See Luft, 963 F.3d at 671–72 (“Only when voting rights have been severely
restricted must states have compelling interests and narrowly tailored rules.”) (citations
omitted).
In contrast, the only interest in enforcing the October 14 deadline articulated by
the defendants is providing sufficient time for election officials to prepare voter records.
As WEC Administrator Wolfe testified at the hearing, however, this deadline could be
extended an additional week until October 21, 2020, while still providing sufficient time
for local election officials to print poll books. (8/5/20 Hr’g Tr. (dkt. #532) 62.) Indeed,

40

A72

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 41 of 69

the record reflects that local election officials were able to accommodate the court’s April
2020 extension of electronic registration by 12 days before the April election without
significant impact of local officials’ ability to manage in-person voting. (Id. at 63-64; see
also DNC Pls.’ PFOFs (dkt. #419) ¶ 194. )
Accordingly, the court concludes that plaintiffs have sufficiently demonstrated that
the current electronic and mail-in registration deadline of October 14, 2020, will
substantially (and in a smaller, but significant group, severely) restrict the right to vote
during the ongoing pandemic, particularly after considering the likely impact of increased,
in-person registration on the orderly, safe functioning of voting on Election Day.
Moreover, by moving the deadline only one week to October 21st, rather than the twoweek extension requested by plaintiffs, the court has amply accounted for any arguable
state interest in allowing sufficient time to prepare voter records.

Finally, with this

accommodation, the court finds that the balance of interests weighs heavily in favor of
plaintiffs as to this narrow relief.
b. Proof-of-Residence Requirement
The DNC plaintiffs also seek an order enjoining the proof-of-residence requirement
under Wisconsin Statute § 6.34(2) for individuals who attest under penalty of perjury that
they cannot meet the requirement after reasonable efforts. During the evidentiary hearing,
the DNC plaintiffs acknowledged that they do not have any declarations establishing an
actual instance of a voter being unable to meet this requirement. (8/5/20 Hr’g Tr. (dkt.
#532) 200.) In light of the record evidence, this is unsurprising, since it is fairly easy to
satisfy the requirement. For those requesting an absentee ballot electronically, a driver’s

41

A73

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 42 of 69

license also satisfies the proof-of-residence requirement. (8/5/20 Hr’g Tr. (dkt. #532) 80
(Wolfe testifying that “[i]f someone registers to vote online, they do not need to provide
proof of residence because the match with their DMV record fulfills that requirement”).)
If a person wishes to register by mail or early in person, a utility bill would suffice, and the
voter would not even need to provide a copy of it. For some individuals, this requirement
still may constitute a burden -- for example, as the DNC plaintiffs argued at the hearing,
there may be college students not on a lease or on utility accounts -- but this is always the
case and not specific to the pandemic. 19 Finally, as the Seventh Circuit recognized in Luft,
there is a significant state interest in ensuring that individuals are voting in their proper
districts. Luft, 963 F.3d at 676. On this record, therefore, the court concludes that
plaintiffs are not likely to succeed in demonstrating that the proof-of-residence
requirement substantially burdens the right to vote or that this burden outweighs the
State’s interests, even in light of the circumstances surrounding the COVID-19 pandemic.
2. Absentee Voting
a. Counting of Absentee Ballots
Next, the Edwards and Swenson plaintiffs seek an order enjoining Wisconsin
Statute §§ 6.88, 7.51-.52, which require that absentee ballots not be counted before
election day. Plaintiffs argue that this requirement thwarts local election officials’ ability
to address defects in absentee ballots -- particularly a voter’s failure to comply with the

While the DNC plaintiffs propose use of “an affidavit” as a possible “safety net,” Frank II, 819
F.3d at 387, they fall short of proposing specific language, much less describing how this exception
would be administered. Regardless, the court is concerned about adding any additional burdens on
the WEC’s electronic registration process or on the stretched resources of local election officials.

19

42

A74

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 43 of 69

witness certification requirement. If the court were to enjoin this requirement and allow
counting before the election day, then local election officials could find defects, contact
voters and give them a chance to fix them before it is too late.
The court is not persuaded by this argument. As the Legislature explains, Wisconsin
law already provides procedures for absentee ballot voters to correct errors. Indeed, the
errors typically will occur on the outside of the envelope, and therefore, it need not be
opened, nor must the ballot be counted for an election official to alert a voter of a witness
certification error or some other defect. Regardless, the court agrees with the Legislature
that plaintiffs’ proposed solution is a poor fit for the general problem of absentee ballot
errors. Finally, plaintiffs’ argument is insufficiently tied to the particular circumstances
surrounding the pandemic. Indeed, to the extent that plaintiffs pursue this injunction to
facilitate efficient counting of absentee ballots, the court’s extension of the absentee ballot
receipt deadline sufficiently addresses this concern.

If anything, by precluding early

counting of absentee ballots during a period when they are likely to comprise 60 to 75%
of all ballots cast, the state’s interest in securing the tallying process until after the election
is closed is stronger. On this record, the court finds no basis to grant relief.
b. Witness Signature Requirement
All four plaintiffs next seek an order enjoining the witness signature requirement
under Wisconsin Statute § 6.87(2), although the plaintiffs again suggest various
replacements for this requirement. In essence, the DNC plaintiffs seek to enjoin this
requirement for those individuals who (1) attest under penalty of perjury that they cannot
meet the requirement after reasonable efforts, (2) sign a form and provide contact

43

A75

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 44 of 69

information, and (3) cooperate with local election officials who may follow-up. The DNC
argues that this process would satisfy Frank II and Luft. The Edwards plaintiffs similarly
request that the court allow the small population of people who cannot secure a witness to
sign a sworn statement to that effect. Next, the Gear plaintiffs propose an order following
the Seventh Circuit’s opinion reviewing this court’s April preliminary injunction by
allowing voters to write in the name and address of a witness but not require a signature.
Finally, the Swenson plaintiffs argue that self-certification should be sufficient to satisfy
the State’s interest.
In support of their various requests for relief from a witness signature, plaintiffs
submit substantive evidence in the form of affidavits from individuals who recount
difficulties they encountered in obtaining or attempting to obtain a witness signature
during the April election. (See, e.g., DNC Pls.’ PFOFs (dkt. #419) ¶¶ 157-60 (citing
declarations).) Plaintiffs also assert that the proposed alternatives in the April election
(e.g., have someone witness it via a video call or through a window) obviously did not work
in light of the roughly 14,000 ballots that were rejected because of insufficient witness
certifications, and further suggest that some portion of the 135,000 unreturned ballots
were not submitted because voters could not secure a witness.
While acknowledging the possible burden that the witness signature requirement
will place on some voters, the Seventh Circuit reversed this court’s entry of preliminary
relief from this requirement for the April 2020 election.

Democratic Nat’l Comm. v.

Bostelmann, Nos. 20-1538, -1546, -1545, (7th Cir. April 3, 2020). Moreover, it did so even
though the arguable need was greater then, given (1) the compressed period for election

44

A76

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 45 of 69

officials to adjust to the COVID-19 restrictions, (2) increased uncertainty as to how the
virus spreads and risks of contracting it, and (3) the dramatic increase in first-time absentee
applications and voters.

Further, the Seventh Circuit faulted this court for giving

inadequate weight to the State’s interests behind the witness requirement and vacated that
portion of this court’s preliminary injunction, rather than merely modifying it to require a
more robust affidavit or a witness, but no signature. Finally, the Supreme Court recently
signaled its own reticence to set aside such state law requirements by staying the effect of
an Eleventh Circuit decision blocking photo-ID and witness-signature requirements for
absentee ballots. See Merrill v. People First of Ala., No. 19A1063 (U.S. July 2, 2020).
To the extent, the Seventh Circuit left room for other possible workarounds to the
witness-signature requirement, the WEC has again proposed a number of options for any
voters having difficulty meeting the requirement for safety or other reasons all of which
would allow a voter to maintain a safe distance from the witness. See WEC, “Absentee
Witness

Signature

Requirement

Guidance”

(Mar.

29,

2020),

https://elections.wi.gov/node/6790. Given a greater understanding as to the efficacy of
masks and social distancing in substantially lowering the risk of transmitting the virus (and
the seemingly reduced risks of its transmittal on surfaces than by aerosols), these options
also appear more viable and safe for individuals wishing to vote via absentee ballot than
they did in April; albeit for some, the requirement may still present a significant hurdle.
Finally, under Purcell, there remains the challenge of fashioning and implementing an
effective exception to this requirement in the shorter period for voting via absentee ballot
in terms of: drafting an appropriate form, publicizing the option, managing its distribution

45

A77

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 46 of 69

to voters who cannot meet the requirement, and effecting the return of that form.
Viewing the election system as a whole, including the flexibility surrounding this
requirement, coupled with additional options for voting in person, either early or on the
day of the election, the court concludes that plaintiffs have failed to demonstrate a
sufficient likelihood of success in proving that the burden placed on some voters by this
requirement outweighs the State’s interests and possible disruption in the orderly
processing of an unprecedented number of absentee ballots. Accordingly, the court will
deny this request for relief under Anderson-Burdick.
As noted above, some of the plaintiffs assert claims under the ADA as well. At the
hearing, the Swenson plaintiffs specifically argued that relief from the witness signature
requirement was warranted in light of the ADA. To establish a violation of the ADA, a
plaintiff “must prove that he is a ‘qualified individual with a disability,’ that he was denied
‘the benefits of the services, programs, or activities of a public entity’ or otherwise subjected
to discrimination by such an entity, and that the denial or discrimination was ‘by reason
of’ his disability.” Love v. Westville Corr. Ctr., 103 F.3d 558, 560 (7th Cir. 1996) (quoting
42 U.S.C. § 12132). A defendant’s “failure to make reasonable modifications in policies,
practices, or procedures can constitute discrimination under Title II.” Lacy v. Cook Cty.,
897 F.3d 847, 853 (7th Cir. 2018) (citing 28 C.F.R. § 35.130(b)(7)(i)3).

An

accommodation is reasonable if “it is both efficacious and proportional to the costs to
implement it.” Oconomowoc Residential Programs v. City of Milwaukee, 300 F.3d 775, 784 (7th
Cir. 2002).

The ADA, however, does not require a modification that would

“fundamentally alter the nature of the service, program, or activity.” P.F. by A.F. v. Taylor,

46

A78

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 47 of 69

914 F.3d 467, 472 (7th Cir. 2019) (quoting 28 C.F.R. § 35.130(b)(7)(i)).
Here, for the same reason that the court concluded the risks of administering an
affidavit, self-certifying or other program outweigh the burden on voting rights, the court
also concludes that the recommended accommodation is not reasonable under the ADA,
because it is not “efficacious and proportional to the costs to implement it.” Oconomowoc
Residential Programs, 300 F.3d at 784. As such, plaintiffs have not shown a likelihood of
success in proving that the witness signature requirement violates the ADA.
c. Receipt Deadline of Absentee Ballots
Next, the DNC plaintiffs and the Swenson plaintiffs seek an order enjoining the
requirement that absentee ballots must be received by election day under Wisconsin
Statute § 6.87(6), urging instead that the ballots again be postmarked by election day to
be counted. In its prior opinion and order, the court extended the deadline for receipt of
mailed-in absentee ballots until the Monday after the election day. On appeal, the Seventh
Circuit upheld this same extension, as did the U.S. Supreme Court, except for requiring
that the return envelope be postmarked before or on election day.
The reasons for the court’s extension of the deadline for receipt of mailed-in
absentee votes for the April 2020 election applies with almost equal force to the upcoming
November 2020 election. The WEC is now projecting 1.8 to 2 million individuals will
vote via absentee ballot, exceeding the number of absentees by a factor of three for any
prior general, presidential elections and exceeding by as much as a million the number of
absentee voters that overwhelmed election officials during the April 2020 election. As the
court discussed during the August 5th hearing, Wisconsin’s election system also allows

47

A79

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 48 of 69

individuals to request ballots up to five days before the election. While this deadline has
worked for the most part during a normal election cycle, the same statutory deadline is
likely to disenfranchise a significant number of voters in the November election given the
projected, record volume of absentee ballots. On top of the sheer volume of absentee ballot
requests that election officials found difficult to manage, the record also establishes that
the USPS’s delivery of mail has slowed due to budget constraints or other reasons, and will
undoubtedly be overwhelmed again with ballots in November, as they were in April.
Regardless of cause, plaintiffs have established significant problems with fulfilling
absentee ballot requests timely, and even greater problems in getting them back in time to
be counted. Indeed, those problems would have resulted in the disenfranchisement of
some 80,000 voters during the April election but for this court’s entry of a preliminary
injunction, and there is no evidence to suggest that the fundamental causes of these
problems have resolved or will be resolved in advance of the November election. To the
contrary, the WEC acknowledges that the unprecedented numbers of absentee voters will
again be very challenging for local election officials to manage in the compressed time frame
under current law despite their best efforts to prepare for and manage this influx, and they
have no reason to expect any better performance by the USPS. 20

This is not to denigrate the ongoing efforts of the small staff at WEC and efforts of local election
officials, nor of postal workers, just to reflect the systemic issues that will arise in a system never
meant to accommodate massive mail-in voting. Indeed, in addition to its efforts to encourage
staffing up locally, WEC worked with USPS to add bar codes to absentee ballots, but without
increased USPS personnel or automated tracking equipment, this is unlikely to change the speed
of receipt of applications or absentee ballots, much less receipt of executed ballots. At best, it may
help to better track how thousands of applications and votes became misplaced long after
completion of the November election.
20

48

A80

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 49 of 69

In response, the Legislature argues that individuals should request ballots now, so
that they can receive, complete and mail them back well in advance of the statutory
deadline, which requires receipt on or before election day. The court whole-heartedly
agrees that Wisconsin voters should proactively manage their voting plans, request
absentee ballots online or by mail now (or as soon as possible thereafter), if they wish to
vote by absentee ballot, and then diligently complete and return them well in advance of
the election. Everyone -- the WEC, the Legislature, other elected officials, and the political
parties and affiliated groups -- should be advocating for and to a large extent are advocating
for such action, although the latter entities are more targeted at best and subject mischief
at worst. Nonetheless, given the sheer volume expected this November, there remains little
doubt that tens of thousands of seemingly prudent, if unwary, would-be voters will not
request an absentee ballot far enough in advance to allow them to receive it, vote, and
return it for receipt by mail before the election day deadline despite acting well in advance
of the deadline for requiring a ballot.
While the Legislature would opt to disregard the voting rights of these so-called
procrastinators, Wisconsin’s election system sets them up for failure in light of the near
certain impacts of this ongoing pandemic. If anything, the undisputed record demonstrates
that unwary voters who otherwise reasonably wait up to two weeks before the October 29,
2020, deadline, to request an absentee ballot by mail face a significant risk of being
disenfranchised because their executed, mailed ballot will not be received by officials on or
before the current election day deadline. Moreover, it is particularly unreasonable to
expect undecided voters to exercise their voting franchise by absentee ballot well before the

49

A81

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 50 of 69

end of the presidential campaign, especially when the Wisconsin’s statutory deadline is
giving them a false sense of confidence in timely receipt.
Not really disputing the magnitude of this risk in light of the vast, unprecedented
number of absentee ballots received after the deadline in April, the Legislature instead
argues that a similar extension this time will somehow undermine the state’s interests in
having prompt election results. Even this argument rings hollow during a pandemic, but
it also ignores that some fourteen states, other than Wisconsin and the District of
Columbia, follow a postmark-by-election-day rule (or a close variant) and count ballots
that arrive in the days following the election, so long as they are timely postmarked. (DNC
Pls.’ Supp. PFOFs (dkt. #501) ¶ 19.)

As such, Wisconsin will not be an anomaly.

Furthermore, by including a postmark-by-election-day requirement, there is no concern
that initial election results will influence a voter’s decision. Moreover, unlike in April, the
court will not require election officials to refrain from publishing results until after the
extended absentee ballot deadline, since that requirement was only added because of this
court’s original decision not to include a postmark deadline. With the guidance of the
United States Supreme Court that a postmark deadline is warranted, any concern about
early release of election results is mitigated.
Finally, while not addressed by defendants, plaintiffs offered evidence that the
election day receipt requirement actually furthered the state’s interest in completing its
canvass during the April election. Regardless, WEC Administrator Wolfe testified that
election officials were able to meet all post-election canvassing deadlines notwithstanding
this court’s six-day extension of the deadline in April, and the extension gave election

50

A82

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 51 of 69

officials time to tabulate and report election results more efficiently and accurately. (DNC
Pls.’ PFOFs (dkt. #419) ¶ 195.) Nor have defendants identified any other predicted or
unforeseen anomalies arise because of this extension. On the contrary, as previously
discussed, there is strong evidence that as many as 80,000 voters’ rights were vindicated
by the extension in the primary election, and a reasonable extrapolation for the general
election could well exceed 100,000.
Thus, on this record, the court concludes that plaintiffs have shown a likelihood of
success in demonstrating the risk of disenfranchisement of thousands of Wisconsin voters
due to the election day receipt deadline outweighs any state interest during this pandemic.
Accordingly, the court will grant this request, extending the receipt deadline for absentee
ballots until November 9, 2020, but requiring that the ballots be mailed and postmarked
on or before election day, November 3, 2020. 21

The court is mindful that the addition of a postmark requirement by the U.S. Supreme Court
created some unintended consequences in April 2020, since a small proportion of the absentee
ballots returned by mail lacked a legible postmark, apparently as a result of processing anomalies at
local post offices. The court was hopeful that the planned use of intelligent mail barcodes (“IMB”)
would assuage this concern, although it appears that the presence of IMBs on most return envelopes
is uncertain, if not unlikely. To the extent that the use of IMBs does not resolve this issue, the
WEC will again need to provide guidance to local election officials, as it did for the April election.
Given the political deadlock among WEC Commissioners and the apparent lack of state law
guidance on this subject -- as well as the fact that this postmark requirement is federally mandated
and the apparent importance of equal treatment of ballots after Bush v. Gore, 531 U.S. 98 (2000)
-- it is this court’s view that local election officials should generally err toward counting otherwise
legitimate absentee ballots lacking a definitive postmark if received by mail after election day but
no later than November 9, 2020, as long as the ballot is signed and witnessed on or before
November 3, 2020, unless there is some reason to believe that the ballot was actually placed in the
mail after election day. See Shiflett v. U.S. Postal Serv., 839 F.2d 669, 672 (Fed. Cir. 1988)
(discussing prior version of regulation when timing was triggered by mailing of appeal to the Merit
Systems Protection Board, explaining that “[t]he date of a filing by mail shall be determined by the
postmark date; if no postmark date is evident on the mailing, it shall be presumed to have been
mailed 5 days prior to receipt”); Wells v. Peake, No. 07-913, 2008 WL 5111436, at *3 (Vet. App.
Nov. 26, 2008) (relying on prior regulation where timing of appeal was triggered by its mailing, to
21

51

A83

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 52 of 69

d. Electronic Receipt of Absentee Ballots
The Gear, Edwards and Swenson plaintiffs further request an injunction preventing
enforcement of Wisconsin Statute § 6.87(3)(a), which limits delivery of absentee ballots
to mail only for domestic civilian voters, while military and overseas civilian voters can
receive an absentee ballot by fax or email delivery, or can even access a ballot electronically,
then download and print it. Wis. Stat. § 6.87(3)(d). As explained above, Judge Peterson
invalidated this ban on email delivery of absentee ballots for domestic civilians in One
Wisconsin Institute, 198 F. Supp. at 946-48, but that order was reversed by the Seventh
Circuit’s decision in Luft. Regardless, for the roughly four-year period of time that this
court’s order was in place, local election officials were given the option to email or fax
absentee ballots to voters to ensure timely and efficient delivery.
Plaintiffs’ renewed request for this relief is limited to those voters who timely
request an absentee ballot (having already timely submitted their photo ID and registered
by mail), had their requests processed and an absentee ballot mailed to them, but because
of issues with the USPS (or for some other reason), the voters did not actually receive an
absentee ballot by mail in a timely fashion. The record is replete with such examples from
the April 2020 election. (See Swenson Pls.’ PFOFs (‘459, dkt. #42) ¶¶ 51, 164, 176 (citing
declarations); DNC Pls.’ PFOFs (dkt. #419) ¶ 73 (citing declarations); Edwards Pls.’
PFOFs (dkt. #417) ¶¶ 67-162, 177-81) (citing declarations); Gear Pls.’ PFOFs (dkt. #422)

explain that “[s]ince there was no postmark, the BVA applied 38 C.F.R. § 20.305(a), which
presumes the postmark date to be five days before the date VA receives the document, excluding
Saturdays, Sundays, and legal holidays”).

52

A84

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 53 of 69

¶¶ 37, 43, 81, 157-677 (citing declarations).) 22
In response, the Legislature argues generally that there are no special circumstances
here to warrant granting this relief, even temporarily.

The record strongly suggests

otherwise. Specifically, the evidence is nearly overwhelming that the pandemic does present
a unique need for relief in light of: (1) the experience during the Spring election, (2) much
greater projected numbers of absentee ballot requests and votes in November, and (3)
ongoing concerns about the USPS’s ability to process the delivery of absentee ballot
applications and ballots timely. None of this was remotely contemplated by the Legislature
in fashioning an election system based mainly in person voting, nor addressed by the
Seventh Circuit’s recent decision in Luft.

Moreover, the relief requested is narrowly

tailored only to those voters who timely fulfilled all of the necessary steps to vote by mail,
but were thwarted through no fault of their own. Indeed, this is exactly the “1% problem”
that the Seventh Circuit indicated requires a safety net in both Luft and Frank II. The Gear
plaintiffs further suggest that the court limit it to the week before the deadline for
requesting absentee ballots, which for this election is October 29, 2020. Up until that
deadline, voters may request a replacement ballot by mail.

See Wis. Stat. § 6.86(5)

(explaining process for requesting an absentee ballot).
The Legislature also argues that this solution may create significant administrative

The Swenson plaintiffs also request online ballot delivery for individuals with print disabilities
under the ADA. While this request may have merit, plaintiffs have failed to explain adequately
why the current options have proven inadequate in past elections or how the pandemic creates
sufficient, additional burdens to warrant relief. Given the numerous requests for relief in these
consolidated cases, the court must remain focused on those requests for which the need and solution
are clear and circumstances surrounding the pandemic in particular warrant an injunction.

22

53

A85

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 54 of 69

hurdles for local election officials, specifically citing to the need by local election officials
to recast the absentee ballot into a form that is readable by voting machines. However,
local election officials themselves represent that this inconvenience is outweighed by the
benefit of having fewer, in-person voters on election day. (Gear Br. (dkt. #421) 42.) Plus,
Wisconsin has a four-year history when fax or electronic delivery was available to all voters
at the discretion of local election officials without incident.

In contrast, the court’s

injunction will only apply to a narrow subset of those voters for whom an absentee ballot
was not received timely by mail, who afterwards request a replacement ballot in the week
leading up to the deadline for making such a request, and satisfy local election officials of
the need for an alternative means of delivery. For all these reasons, this limited relief
should not overtax election officials’ abilities to administer the November election.
Finding that plaintiffs are likely to succeed on their claim that limiting receipt of
absentee ballots to mail delivery burdens voters’ rights who fail to receive their absentee
ballot timely, and that this burden is not outweighed by the interests of the State, the court
will grant that relief. As set forth below, however, the ban on allowing online access to
replacement absentee ballots or emailing replacement ballots is only lifted for the narrow
period from October 22 to October 29, 2020, as to those voters who timely requested an
absentee ballot, the request was approved, and the ballot was mailed, but the voter did not
receive the ballot in time to vote. For the limited number of disabled who truly require an
electronic ballot to vote effectively under the ADA, and have failed to discern an effective
means to vote using a hard absentee ballot, after meeting all the same requirements set
forth above for all voters, this may also provide an alternative.

54

A86

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 55 of 69

e. Mail Absentee Ballots to All Registered Voters
Finally, with respect to absentee ballots, the Edwards plaintiffs seek an order
requiring the WEC to send out absentee ballots to all registered voters, or at least to all
voters who previously voted absentee. This request was not pursued at the hearing, and
for good reason, since it is neither narrowly tailored to the alleged violations to voting
rights caused by the pandemic, nor considers the substantial burden it would place on the
WEC and local election officials who have already begun responding to actual applications
for absentee ballots. The court, therefore, denies this request.
3. In-Person Voting
a. Early In-Person Voting
Plaintiffs further seek several injunctions relating to in-person voting. To begin, the
Edwards plaintiffs seek to enjoin Wisconsin Statute § 6.86(1)(b), which limits in-person,
absentee voting to the period beginning 14 days before the election and ending the Sunday
before the election. This request warrants little discussion because the Edwards plaintiffs
failed to develop the record as to why a 12-day period is not sufficient to provide voters an
adequate opportunity to vote early in-person. Viewing the election system as whole, a twoweek period for in-person, early voting, is sufficient to protect voters’ constitutional rights,
especially when considered in light of a robust mail-in absentee voting option and what
will hopefully be a generally safe and adequate, in-person voting opportunity on the day of
the election.
b. Selection of Early In-Person Voting Sites
The Edwards and Swenson plaintiffs also seek to enjoin Wisconsin Statute §

55

A87

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 56 of 69

6.855(1), which requires municipalities to designate in-person, absentee voting site or sites
(other than the clerk of board of election commissioners’ office) 14 days before absentee
ballots are available for the primary. For the November election, this means the required
designations were due by June 11, 2020. Plaintiffs contend that extending this deadline
would (1) allow increased flexibility and (2) reduce crowds and encourage social distancing
by allowing extra sites added. Here, again, plaintiffs have failed to develop any record to
find that additional, in-person voting sites are necessary to meet the demand of voters who
wish to vote in person before the election day, especially given that voters may do so over
a 12-day period of time. Accordingly, the court will also deny this request.
a. Photo ID Requirement
The DNC and Edwards plaintiffs both seek an order enjoining the photo ID
requirement under Wisconsin Statute § 6.87(1), although the contours of the relief
requested are different: the DNC plaintiffs seek to enjoin the requirement for those
individuals who attest under penalty of perjury that they cannot meet those requirements
after reasonable efforts; while the Edwards plaintiffs seek to enjoin the requirement for
people with disabilities if they swear that they are unable to obtain the required ID.
The DNC’s request for relief from the photo ID requirement falters for similar
reasons as plaintiffs’ request for relief from the proof-of-residence requirement. When
pressed at the hearing, the DNC plaintiffs listed four declarations from individuals who
they represented were not able to vote in the April 2020 election because of the ID
requirement. From the court’s review of these four declarations, only one -- the declaration
of Shirley Powell (dkt. #341) -- actually provides support for the requested relief. Powell

56

A88

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 57 of 69

avers that she attempted to request an absentee ballot by mail, but could not do so because
she did not want to leave her house to obtain the necessary copy of her photo ID. (Id. ¶
5.) 23 That proof falls well short of a substantial burden on her right to vote.
For their part, the Edward plaintiffs simply direct the court to a report about the
difficulty in obtaining photo IDs for the 2016 election, offering neither evidence specific
to the COVID-19 pandemic nor proof of any unique burdens it places on disabled voters
under the ADA. While the court acknowledges that some voters like Powell may encounter
difficulty in uploading a photo of their ID or obtaining a hard copy, this burden has likely
diminished since April 2020, given both the additional time voters will have to obtain the
necessary documents to request an absentee ballot electronically or by mail, coupled with
the increased awareness of how COVID-19 spreads and efforts one can take to avoid
transmission upon leaving the house. 24
Even if not entitled to broader relief, plaintiffs argue, the creation of a “safe harbor”
or “fail-safe” measure is called for by the Seventh Circuit’s decisions in Luft and Frank II.
However, the court concludes that, while not a perfect solution, the “indefinitely confined”
designation under Wisconsin Statute § 6.87(4)(b)2 provides such relief already for those

The other individuals -- Sue Rukamp, Sharon Gamm and Marlene Sorenson -- simply averred
that they encountered difficulty in uploading a photo of their ID or submitting a hard copy via
mail, but it appears that all three were eventually able to request an absentee ballot. (Dkt. ##349,
294, 355.) Not to diminish the burdens that they encountered, their declarations do not support
providing relief from the photo ID requirement. Instead, the difficulties that they encountered are
more appropriately addressed in providing electronic delivery of ballots for those individuals who
do not timely receive absentee ballots by mail and by extending the deadline for receipt of absentee
ballots to account for USPS delays. Both forms of relief are granted below.
23

Of course, the court is not definitively concluding such a burden cannot be proved, just that
plaintiffs have not begun to proffer evidence of their likelihood of doing so given the work-arounds
now available.
24

57

A89

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 58 of 69

unique individuals who are both (1) not able to upload a photograph of their ID or obtain
a copy and (2) avoiding public outings because of legitimate COVID-19 concerns.
Apparently anticipating this outcome, plaintiffs further argue that if the court relies
on the “indefinitely confined” status as a safety net for the photo ID requirement, then it
should also define that term and direct the WEC to provide this definition in its materials
explaining and promoting voting via absentee ballot. As it concluded in its earlier opinion
and order, however, the plain language of the statute, coupled with the WEC’s March 2020
guidance that the term “does not require permanent or total inability to travel outside of
the residence” provides sufficient, albeit imperfect, information to guide voters’ use of that
safe harbor. See Wisconsin Election Commission, Guidance for Indefinitely Confined Electors
COVID-19 (Mar. 29, 2020) ), https://elections.wi.gov/node/6788.
On this record, therefore, the court concludes that plaintiffs have failed to
demonstrate a likelihood of succeeding in their claim that the COVID-19 pandemic
amplifies the typical burden of requiring a photo ID, so as to outweigh the State’s
repeatedly recognized interest in doing so. Because the court relies on the “indefinitely
confined” option as a safety net or fail-safe for those legitimately unable to meet this
requirement, however, the court will direct the WEC to include on the MyVote website
(and on any additional materials that may be printed explaining the “indefinitely confined”
option) the language provided in their March 2020 guidance, which explains that the
indefinitely confined exception “does not require permanent or total inability to travel
outside of the residence.”

58

A90

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 59 of 69

b. Election Official Residence Requirement
Next, the Edwards and Swenson plaintiffs seek to enjoin Wisconsin Statute
§ 7.30(2), which requires that each election official be an elector of the county in which
the municipality is located. This request has significant more traction in light of the record.
In particular, based on her past experience and unique perspective, Administrator Wolfe
testified that her biggest worry in the administration of the November election is a lack of
poll workers for in-person voting on election day. (8/5/20 Hr’g Tr. (dkt. #532) 83.) Both
for the April and August 2020 elections, local municipalities struggled to recruit and retain
sufficient poll workers, which resulted in some localities being severely limited in providing
in-person voting opportunities.

In fact, even with substantially greater warning and

opportunity to plan, local election officials still had difficulty securing adequate people for
Wisconsin’s much smaller August 2020 election. (Id. at 82-83.) At minimum, eliminating
the residence requirement would provide greater flexibility across the state to meet
unanticipated last-minute demands for staffing due to COVID-19 outbreaks or fear.
In response, the Legislature simply argues that this requirement furthers the State’s
interest in promoting a decentralized approach to election management.

Without

discounting the value of this interest, if a county or municipality lacks sufficient poll
workers and wishes to recruit workers from other locations within the state, including
accessing National Guard members who reside outside of their community (should the
Governor choose to answer the repeated call by local officials to make them available
sooner rather than later), the municipality or county has already conceded its inability to
maintain that interest while still conducting a meaningful election, at least with respect to

59

A91

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 60 of 69

the location of residence of poll workers. Regardless, in light of the record evidence
demonstrating that recruitment of poll workers will present a tricky and fluid barrier for
adequate in-person voting options up to and during election day, plaintiffs have
demonstrated a likelihood of success in proving that this requirement will burden their
right to vote and that this burden outweighs any state interest in maintaining the
requirement over expressed, local need.. As such, the court will grant this requested relief
during the ongoing pandemic.
c. Ensure Safe and Adequate In-Person Voting Sites
The DNC and Swenson plaintiffs seek an order requiring the WEC to provide safe
and adequate, in-person voting options, including (1) adequate voting sites with sufficient
number of poll workers, and (2) implementation of safety protocols like PPE, masks, social
distancing requirements, hand washing and sanitizing steps. While the court agrees, and
more importantly the WEC and, in turn, local election officials agree, that these are
appropriate steps to be taken, the court sees no basis to order this requested relief.
Specifically, the WEC has earmarked $4.1 million to provide increased safety
measures at locations and has also designated $500,000 to secure and distribute sanitation
supplies. WEC also is providing public health guidance and training to local election
officials. Plaintiffs fail to describe how these measurers fall short. As for the concern about
the number of voting locations, as previously described, local election officials in
Milwaukee and Green Bay, in particular, have indicated their intent to open significantly
more polling locations than that opened in April. Again, considering the election system
as a whole, including the WEC’s, local officials’, and now the court’s efforts to ensure

60

A92

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 61 of 69

robust absentee voting options, the court concludes that plaintiffs have failed to
demonstrate that the WEC and local election officials’ efforts to date with respect to
ensuring safe and adequate election-day voting sites are inadequate.
4. Requests for Miscellaneous Relief
Finally, the Swenson plaintiffs propose a number of other areas of relief, which all
involve ordering the WEC to do more or do better. Specifically, the Swenson plaintiffs
seek orders requiring the WEC to: (1) upgrade electronic voter registration systems and
absentee ballot request systems; (2) engage in a public education drive; (3) ensure secure
drop boxes for in-person return of absentee ballots; and (4) develop policies applicable to
municipal clerks regarding coordinating with USPS to ensure timely delivery of and return
of absentee ballots. Again, all of these are worthwhile requests, but the record reflects that
the WEC is taking such steps or, at least, that a court order to the same effect is unlikely
to do more before November 3 than hamper the ongoing state and local efforts. For
example, in its June 25, 2020, report to the court, the WEC detailed its efforts to upgrade
MyVote and WisVote, as well as provide federal funds to help municipalities with their IT
needs. Moreover, the WEC described its development of various voter outreach videos,
guides and surveys to help educate voters on unfamiliar aspects of voting. Further, as the
Legislature points out, Wisconsin Statute § 6.869 already requires the WEC to prescribe
uniform instructions on absentee voting. As for the request for more drop boxes, the WEC
is providing funding from the CARES Act to municipalities to provide such boxes. Finally,
as described above, the WEC is working with the USPS to implement intelligent mail
barcodes to track absentee ballots.

61

A93

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 62 of 69

To the extent mail delivery issues persist despite these steps, the court has attempted
by entry of the order below to accommodate these concerns by permitting online access,
by emailing and faxing of absentee ballots for those individuals who do not receive their
requested absentee ballots timely, and by extending the absentee ballot receipt date.
Plaintiffs’ further requests for relief are either too vague to be meaningful or unnecessary
because the WEC is already taking such steps.

B. Alternate Claims for Relief Under the Due Process and Equal Protection
Clauses and Voting Rights Act
As already discussed, constitutional challenges to laws that regulate elections are
generally analyzed under balancing test set forth by the U.S. Supreme Court in the
Anderson-Burdick test. See, e.g., Crawford v. Marion Cty. Election Bd., 553 U.S. 181, 190
(2008); Luft, 963 F.3d at 671; see also Samuel Issacharoff et al., The Law of Democracy 92127 (5th ed. 2016) (reviewing the general constitutional framework for challenges to
election laws affecting the right to vote). This balancing test is rooted in both the First
and Fourteenth Amendments to the U.S. Constitution. See Burdick, 504 U.S. at 434 (citing
Anderson, 460 U.S. at 788-89).

In interpreting the Supreme Court’s election law

jurisprudence, the Seventh Circuit has concluded that the Anderson-Burdick test “applies to
all First and Fourteenth Amendment challenges to state election laws.” Acevedo v. Cook Cty.
Officers Electoral Bd., 925 F.3d 944, 948 (7th Cir. 2019) (emphasis in original); see also
Harlan v. Scholz, 866 F.3d 754, 759 (7th Cir. 2017) (the Anderson-Burdick framework
addresses “the constitutional rules that apply to state election regulations”).
As explained during oral argument, this court is exceedingly reluctant to apply more

62

A94

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 63 of 69

generalized constitutional tests to the election laws challenged here, at least without a
specific legal and factual basis to do so. Indeed, in its order preceding completion of
briefing and oral arguments on the motions for preliminary injunction, the court suggested
that to proceed on claims under other constitutional frameworks, plaintiffs must
adequately distinguish such claims from those brought under Anderson-Burdick.
6/10/20 Op. & Order (dkt. #217) 14-15.)

(See

Without ever adequately addressing this

concern, some plaintiffs nevertheless maintain that this court should venture outside of
the Anderson-Burdick framework and consider their claims under alternative procedural due
process and equal protection clause standards.
Specifically, plaintiffs urge the court to apply the more general procedural due
process balancing test articulated in Mathews v. Eldridge, 424 U.S. 319 (1976). That test
requires the court to balance: (1) the interest that will be affected by the state action; (2)
the risk of erroneous deprivation of this interest through the procedures used by the state
and the probable value, if any, of additional procedural safeguards; and (3) the state’s
interest, including the fiscal and administrative burdens that the additional procedure
would entail. Id. at 340-49. The Swenson plaintiffs contend that the Anderson-Burdick and
Mathews tests are “analytically distinct” because “[t]he focus of the procedural due process
inquiry is what process is due before a statutorily protected liberty or property interest is
deprived.” (Swenson Pls.’ Br. (‘459, dkt. #41) 47 n.188.) Similarly, the DNC plaintiffs
contend that “Anderson-Burdick balances burdens on voting rights against states’
justifications, while due process claims focus on the sufficiency of the process involved
before the State deprives someone of their right to vote.” (DNC Pls.’ Br. (dkt. #420) 55.)

63

A95

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 64 of 69

During initial briefing, no plaintiff could cite to any case law to support the nuanced
differences suggested by their respective positions. To the contrary, the DNC plaintiffs
acknowledged that “we have not yet found a decision in which a court accepted an
Anderson-Burdick claim while rejecting a due process challenge to the same provision; or
rejected an Anderson-Burdick challenge while striking down the same provision as violating
due process.” (DNC Br. (dkt. #420) 54.) Since then, plaintiffs have pointed to three,
recent election cases in which a district court applied the general Mathews test to election
law challenges, all of which were considered in the context of the current pandemic. (See
Notice of Supp. Authority (dkt. #536) (citing The New Georgia Project v. Raffensperger, 1:20cv-01986-ELR (N.D. Ga. Aug. 31, 2020)); Notice of Supp. Authority (dkt. #534) (citing
Frederick v. Lawson, No. 19-cv-01959, 2020 WL 4882696 (S.D. Ind. Aug. 20, 2020));
Notice of Supp. Authority (dkt. #523) (citing Democracy N.C. v. N.C. State Bd. of Elections,
No. 20-cv-457 (M.D.N.C. Jul. 27, 2020)).) However, even these cases fail to address the
overlap between the Mathews and Anderson-Burdick standards, much less the exclusive role
played by the latter test in the U.S. Supreme Court’s overall election law jurisprudence,
thus providing little guidance as to the role, if any, of the Mathews test here. Accordingly,
plaintiffs have not convinced this court that in the claims before it, an independent analysis
under the Mathews test is necessary, much less appropriate. 25
As for the equal protection claims, plaintiffs rely on the standard articulated by the

The DNC plaintiffs themselves admit that the “Anderson-Burdick and Mathews v. Eldridge analyses
are both multi-factor balancing inquiries . . . and the results of the inquiries may often be the same.”
(DNC Pls.’ Br. (dkt. #420) 55.)
25

64

A96

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 65 of 69

Supreme Court’s per curiam decision in Bush v. Gore, 531 U.S. 98 (2000). There, the
Supreme Court explained that a state “may not, by later arbitrary and disparate treatment,
value one person’s vote over that of another.” Id. at 104-05. 26 Notwithstanding that the
Supreme Court took unusual pains to limit its “consideration” specifically to the “present
circumstances” surrounding the 2000 Florida recount, id. at 109, other courts have
appeared to rely on Gore in attempting to analyze subsequent election challenges. See, e.g.,
Raleigh Wake Citizens Ass’n v. Wake Cty. Bd. of Elections, 827 F.3d 333, 337 (4th Cir. 2016)
(redistricting); Obama for Am. v. Husted, 697 F.3d 423, 428–29 (6th Cir. 2012) (restrictions
on early voting); Idaho Coal. United for Bears v. Cenarrusa, 342 F.3d 1073, 1077 & n.7 (9th
Cir. 2003) (ballot-initiative process).
Even if applicable, however, the Legislative defendants persuasively point out that
this standard requires plaintiffs to prove that the arbitrary and disparate treatment is a
result of specific election “procedures.” Bush, 531 U.S. at 105. Here, the alleged disparate
treatment is rooted in poll closings and poll-worker shortages, lack of adequate personal
protective equipment at some polling locations and disparate treatment regarding voter
registration and requests for absentee ballots. Arguably, therefore, these allegations are not
rooted in specific “procedures” at all. Even if they were, plaintiffs again fail to explain
adequately what additional relief would or should be afforded under the equal protection

Plaintiffs also included a variety of facts regarding the disparate impact of COVID-19 on
particular groups seeking to vote, such as specific racial minorities and the elderly. Without
denigrating this impact in any way, plaintiffs’ equal protection claim is premised on a general
“arbitrary treatment” theory, rather than an argument that defendants’ actions specifically
discriminated against a particular protected class of voters, making many of these facts not relevant
to, and thus not referenced further in, the court’s discussion.

26

65

A97

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 66 of 69

clause that is not already available under Anderson-Burdick.
Finally, in addition to these constitutional arguments, the Swenson plaintiffs assert
a claim under Section 11(b) of the Voting Rights Act (“VRA”), which provides in relevant
part that “[n]o person, whether acting under color of law or otherwise, shall intimidate,
threaten, or coerce, or attempt to intimidate, threaten, or coerce any person for voting.”
52 U.S.C. § 10307(b). The Swenson plaintiffs argue that defendants’ inadequate response
to the pandemic means that voters are intimidated to vote in person, for fear of catching
COVID-19. (Swenson Pls.’ Br. (dkt. #41) 25.) Although admittedly a creative argument,
such an interpretation seriously stretches the purpose and common-sense meaning of
section 11(b).
The VRA was signed into law in 1965 against the backdrop of the civil rights
movement and state resistance to enforcement of the Fifteenth Amendment. See generally
Dep’t

of

Justice,

History

of

Federal

Voting

Rights

Laws

(July

28,

2017),

https://www.justice.gov/crt/history-federal-voting-rights-laws. While other sections of the
VRA had enormous consequences on voting rights -- particularly section 2, which prohibits
discriminatory voting practices, and section 5, which provides for federal “preclearance” of
election changes in states with a history of discriminatory practices -- relatively little case
law has explored the scope of section 11(b). See Ben Cady & Tom Glazer, Voters Strike
Back: Litigating Against Modern Voter Intimidation, 39 N.Y.U. Rev. L. & Soc. Change 173,
190 (2015).

Considering this background, there is no evidence that Congress

contemplated extending the VRA to impose liability on states that do not take adequate
action to reduce citizens’ “intimidation” of in-person voting due to an infectious virus.

66

A98

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 67 of 69

Moreover, the plain language of the statute itself suggests that the intimidation must be
caused by a “person,” not a disease or other natural force. Further, the parties disagree
over whether section 11(b) requires a mens rea -- plaintiffs argue that it does not, the
Legislature argues that it does -- and no definitive answer is found in case law. In light of
these various considerations and uncertainties, 11(b) also appears a poor fit for analyzing
the issues presented in this case, and the court finds that plaintiffs have presented no
likelihood of success on the merits of their claims under the VRA as well.

ORDER
IT IS SO ORDERED:
1) Common Cause Wisconsin’s motion for leave to file a brief as amicus curiae
(’249 dkt. #251; ’278 dkt. #186; ’340 dkt. #51; ’459 dkt. #75) is GRANTED.
2) Plaintiffs Democratic National Committee and Democratic Party of Wisconsin’s
motion for preliminary injunction (’249 dkt. #252) is GRANTED IN PART
AND DENIED IN PART as explained above and set forth below and in the
separate preliminary injunction order.
3) The Wisconsin Legislature’s motion to dismiss the Gear complaint (’278 dkt.
#382) is DENIED.
4) Plaintiffs Sylvia Gear, et al.’s motion for preliminary injunction (’278 dkt. #304)
is GRANTED IN PART AND DENIED IN PART as explained above and set
forth below and in the separate preliminary injunction order.
5) Defendants Scott Fitzgerald, Robin Vos, Wisconsin State Assembly, and
Wisconsin State Senate’s motion to dismiss the Edwards complaint (’340 dkt.
#12) is GRANTED IN PART AND DENIED IN PART. Plaintiffs’ claims
against Scott Fitzgerald and Robin Vos are DISMISSED. In all other respects,
the motion is denied.
6) Defendants the WEC Commissioners and Administrator’s motion to dismiss the
Edwards complaint (’340 dkt. #14) is DENIED.
7) American Diabetes Association’s motion for leave to file an amicus curiae brief
(’340 dkt. #23) is GRANTED.

67

A99

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 68 of 69

8) Plaintiffs Chrystal Edwards, et al.’s motion for preliminary injunction (’340 dkt.
#195) is GRANTED IN PART AND DENIED IN PART as explained above
and set forth below and in the separate preliminary injunction order.
9) The Wisconsin Legislature’s motion to dismiss the Swenson complaint (’459
dkt. ##27, 272) is DENIED.
10)
Plaintiffs Jill Swenson, et al.’s motion for preliminary injunction (’459 dkt.
#40) is GRANTED IN PART AND DENIED IN PART as explained above and
set forth below and in the separate preliminary injunction order.
11)
Defendants the Commissioners of the Wisconsin Election Commission and
its Administrator are:
a) Enjoined from enforcing the deadline under Wisconsin Statute § 6.28(1),
for online and mail-in registration. The deadline is extended to October
21, 2020.
b) Directed to include on the MyVote and WisVote websites (and on any
additional materials that may be printed explaining the “indefinitely
confined” option) the language provided in their March 2020 guidance,
which explains that the indefinitely confined exception “does not require
permanent or total inability to travel outside of the residence.”
c) Enjoined from enforcing the deadline for receipt of absentee ballots under
Wisconsin Statute § 6.87(6), and the deadline is extended until
November 9, 2020, for all ballots mailed and postmarked on or before
election day, November 3, 2020.
d) Enjoined from enforcing Wisconsin Statute § 6.87(3)(a)’s ban on delivery
of absentee ballots to mail only for domestic civilian voters, with that
lifted to allow online access to replacement absentee ballots or emailing
replacement ballots, for the period from October 22 to October 29, 2020,
provided that those voters who timely requested an absentee ballot, the
request was approved, and the ballot was mailed, but the voter did not
receive the ballot.
e) Enjoined from enforcing Wisconsin Statute § 7.30(2), to the extend
individuals need not be a resident of the county in which the municipality
is located to serve as election officials for the November 3, 2020, election.

68

A100

Case: 3:20-cv-00249-wmc Document #: 538 Filed: 09/21/20 Page 69 of 69

12)
The preliminary injunction order is STAYED for seven days to provide
defendants and intervening defendants an opportunity to seek an emergency
appeal of any portion of the court’s order.
Entered this 21st day of September, 2020.
BY THE COURT:

/s/
__________________________________
WILLIAM M. CONLEY
District Judge

69

A101

Case: 3:20-cv-00249-wmc Document #: 539 Filed: 09/21/20 Page 1 of 3

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF WISCONSIN
DEMOCRATIC NATIONAL COMMITTEE,
et al.,
Plaintiffs,

PRELIMINARY
INJUNCTION ORDER

v.

20-cv-249-wmc

MARGE BOSTELMANN, et al.,
Defendants,
and
WISCONSIN LEGISLATURE,
REPUBLICAN NATIONAL COMMITTEE,
and REPUBLICAN PARTY OF WISCONSIN,
Intervening-Defendants.
SYLVIA GEAR, et al.,

v.

Plaintiffs,
20-cv-278-wmc

MARGE BOSTELMANN, et al.,
Defendants,
and
WISCONSIN LEGISLATURE,
REPUBLICAN NATIONAL COMMITTEE,
and REPUBLICAN PARTY OF WISCONSIN,
Intervening-Defendants.

A102

Case: 3:20-cv-00249-wmc Document #: 539 Filed: 09/21/20 Page 2 of 3

CHRYSTAL EDWARDS, et al.,

v.

Plaintiffs,
20-cv-340-wmc

ROBIN VOS, et al.,
Defendants,
and
REPUBLICAN NATIONAL COMMITTEE,
and REPUBLICAN PARTY OF WISCONSIN,
Intervening-Defendants.
JILL SWENSON, et al.,

v.

Plaintiffs,
20-cv-459-wmc

MARGE BOSTELMANN, et al.,
and

Defendants,

WISCONSIN LEGISLATURE,
REPUBLICAN NATIONAL COMMITTEE,
and REPUBLICAN PARTY OF WISCONSIN,
Intervening-Defendants.

IT IS ORDERED that defendants the Commissioners of the Wisconsin Election
Commission and its Administrator are:
a) Enjoined from enforcing the deadline under Wisconsin Statute § 6.28(1), for
online and mail-in registration. The deadline is extended to October 21, 2020.
b) Directed to include on the MyVote and WisVote websites (and on any
additional materials that may be printed explaining the “indefinitely confined”
option) the language provided in their March 2020 guidance, which explains

2

A103

Case: 3:20-cv-00249-wmc Document #: 539 Filed: 09/21/20 Page 3 of 3

that the indefinitely confined exception “does not require permanent or total
inability to travel outside of the residence.”
c) Enjoined from enforcing the deadline for receipt of absentee ballots under
Wisconsin Statute § 6.87(6), and the deadline is extended until November 9,
2020, for all ballots mailed and postmarked on or before election day, November
3, 2020.
d) Enjoined from enforcing Wisconsin Statute § 6.87(3)(a)’s ban on delivery of
absentee ballots to mail only for domestic civilian voters, with that lifted to allow
online access to replacement absentee ballots or emailing replacement ballots,
for the period from October 22 to October 29, 2020, provided that those voters
who timely requested an absentee ballot, the request was approved, and the
ballot was mailed, but the voter did not receive the ballot.
e) Enjoined from enforcing Wisconsin Statute § 7.30(2), to the extend individuals
need not be a resident of the county in which the municipality is located to serve
as election officials for the November 3, 2020, election.
Entered this 21st day of September, 2020.
BY THE COURT:

/s/
__________________________________
WILLIAM M. CONLEY
District Judge

3

A104

Case: 20-2835

Document: 9-1

Filed: 09/23/2020

Pages: 25

No. 20-2835

In the United States Court of Appeals
FOR THE SEVENTH CIRCUIT
DEMOCRATIC NATIONAL COMMITTEE, ET AL.,
PLAINTIFFS-APPELLEES,

v.

MARGE BOSTELMANN, ET AL.,
DEFENDANTS,

and

WISCONSIN STATE LEGISLATURE,
INTERVENING DEFENDANT-APPELLANT.
SYLVIA GEAR, ET AL.,
PLAINTIFFS-APPELLEES,

v.

MARGE BOSTELMANN, ET AL.,
DEFENDANTS,

and

WISCONSIN STATE LEGISLATURE,
INTERVENING DEFENDANT-APPELLANT.
CHRYSTAL EDWARDS, ET AL.,
PLAINTIFFS -APPELLEES,
v.
WISCONSIN STATE LEGISLATURE,
DEFENDANT-APPELLANT.
JILL SWENSON, ET AL.,
PLAINTIFFS -APPELLEES,
v.
MARGE BOSTELMANN, ET AL.,
DEFENDANTS,

and

WISCONSIN STATE LEGISLATURE,
INTERVENING DEFENDANT-APPELLANT.
On Appeal From The United States District Court
For The Western District of Wisconsin
Consol. Case Nos. 3:20-cv-249, -278, -340, & -459
The Honorable William M. Conley, Presiding
WISCONSIN LEGISLATURE’S EMERGENCY MOTION
TO STAY THE PRELIMINARY INJUNCTION

[Attorneys for the Wisconsin Legislature listed on following page]

A105

(1 of 97)

Case: 20-2835

Document: 9-1

SCOTT A. KELLER
BAKER BOTTS LLP
700 K Street, N.W.
Washington, DC 20001
(202) 639-7837
(202) 585-1023 (fax)
scott.keller@bakerbotts.com

Counsel for Legislature in Gear
ERIC M. MCLEOD
LANE E. RUHLAND
HUSCH BLACKWELL LLP
P.O. Box 1379
33 East Main Street, Suite 300
Madison, WI 53701-1379
(608) 255-4440
(608) 258-7138 (fax)
eric.mcleod@huschblackwell.com
lane.ruhland@huschblackwell.com

Filed: 09/23/2020

Pages: 25

MISHA TSEYTLIN

Counsel of Record

ROBERT E. BROWNE, JR.
KEVIN M. LEROY
SEAN T.H. DUTTON
TROUTMAN PEPPER HAMILTON
SANDERS LLP
227 W. Monroe Street, Suite 3900
Chicago, IL 60606
(608) 999-1240
(312) 759-1939 (fax)
misha.tseytlin@troutman.com
robert.browne@troutman.com
kevin.leroy@troutman.com
sean.dutton@troutman.com

Counsel for Legislature in DNC, Gear,
Swenson, and Edwards

LISA M. LAWLESS
HUSCH BLACKWELL LLP
555 East Wells Street, Suite 1900
Milwaukee, WI 53202-3819
(414) 273-2100
(414) 223-5000 (fax)
lisa.lawless@huschblackwell.com

Counsel for Legislature in DNC

A106

(2 of 97)

Case: 20-2835

Document: 9-1

Filed: 09/23/2020

Pages: 25

TABLE OF CONTENTS
INTRODUCTION .......................................................................................................... 1
STATEMENT OF THE CASE ....................................................................................... 3
JURISDICTION............................................................................................................. 6
LEGAL STANDARD...................................................................................................... 6
ARGUMENT .................................................................................................................. 7
I.

The Legislature Is Exceedingly Likely To Succeed On Appeal Because
All Of The Challenged Election Laws Are Constitutional ................................ 7
A. Extending The Deadline To Register To Vote, Even Though Voters
Have Many Weeks To Register ..................................................................... 8
B. Further Extending The Deadline To Deliver Absentee Ballots, Even
Though Voters Have Many Weeks To Deliver Their Ballots ....................... 9
C. Unnecessarily Creating A Confusing, Difficult-To-Administer Week
Of Faxing And Emailing Absentee Ballots ................................................. 13
D. Requiring The Commission To Tell Voters Duplicative Information
About The Indefinitely Confined Exception ............................................... 15
E. Unnecessarily Lifting Rules For The Residency Of Election Officials ...... 16

II. The Equitable Factors Favor Staying The District Court’s Injunction .......... 17
CONCLUSION............................................................................................................. 20

A107

(3 of 97)

Case: 20-2835

Document: 9-1

Filed: 09/23/2020

Pages: 25

INTRODUCTION
In March, the district court granted to Plaintiffs certain relief for the April 7
Election, premised upon that court’s view that the unexpected, late-breaking nature
of the COVID-19 pandemic did not give voters enough time to register remotely,
obtain witness signatures, and return absentee ballots. Even in that situation, this
Court and then the Supreme Court stayed most of the relief that the district court
ordered. See Republican Nat’l Comm. v. Democratic Nat’l Comm., ___ U.S. ___, 140
S. Ct. 1205 (2020) (per curiam); Democratic Nat’l Comm. v. Bostelmann, Nos. 201538, -1539, -1545, -1546, 2020 WL 3619499 (7th Cir. Apr. 3, 2020).
Plaintiffs have now brought strikingly similar challenges related to the
November Election, even though the law and the facts have all moved against them.
On the law, this Court in Luft v. Evers, 963 F.3d 665 (7th Cir. 2020), provided
significant guidance limiting courts’ authority to enjoin election laws, explaining that
“[o]ne federal judge’s preference” for a voting policy is insufficient to bar “a state
legislature from implementing a different approach.” See id. at 679. Meanwhile, the
Supreme Court has granted multiple stay applications regarding COVID-19-related
election-law injunctions, including in the prior iteration of this case, Republican Nat’l

Comm., 140 S. Ct. at 1206–08; Merrill v. People First of Ala., No. 19A1063 (U.S. July
2, 2020), staying People First of Ala. v. Sec’y of State, No. 20-12184, 2020 WL 3478093
(11th Cir. June 25, 2020); and it has refused to disturb a court of appeals’ stay of such
changes, Tex. Democratic Party v. Abbott, 961 F.3d 389 (5th Cir. 2020), application

A108

(4 of 97)

Case: 20-2835

Document: 9-1

Filed: 09/23/2020

Pages: 25

to vacate stay denied, No. 19A1055 (June 26, 2020).1 Thus, the Supreme Court has
made clear that COVID-19 is not a basis for judicially changing duly-enacted election
laws. And on the facts, Wisconsin’s voters and election officials have had much more
time to prepare for the November Election than the April Election, no longer
adjusting to a pandemic that “no one saw” coming, R.181:127–28 (Tr. of April 1, 2020
Hearing). Wisconsin voters have many weeks to register to vote and to request and
cast absentee ballots, if they now wish to vote absentee in light of COVID-19. And
election officials have had months to prepare for even safer in-person voting.
The district court nevertheless again enjoined several Wisconsin elections
laws, ordering changes in the middle of an ongoing election. The nature of, and
rationale underlying, the district court’s relief dictates the conclusion that, contrary
to Luft, the court thought that it had the lawful authority to order any relief—
whether major or minor—that it believed would improve Wisconsin’s election system
to deal with COVID-19. The Wisconsin Legislature (“Legislature”) thus respectfully
asks this Court to issue an emergency stay of that injunction in full, before the
expiration of the district court’s seven-day stay on September 28, 2020.

1

In the only case where the Supreme Court has denied a COVID-19-related electionchange-stay request, the Court did so because the private party seeking the stay “lack[ed] a
cognizable interest in the State’s ability to enforce its duly enacted laws.” Republican Nat’l
Comm. v. Common Cause R.I., No. 20A28 (S. Ct. Aug. 13, 2020) (citations omitted).

-2-

A109

(5 of 97)

Case: 20-2835

Document: 9-1

Filed: 09/23/2020

Pages: 25

STATEMENT OF THE CASE
A. “Wisconsin has lots of rules that make voting easier,” even as compared to
“the rules of many other states.” Luft, 963 F.3d at 672; see Frank v. Walker, 768 F.3d
744, 748 (7th Cir. 2014) (“Frank I”).
“Registering to vote is easy in Wisconsin.” Id. Wisconsin voters need only
complete a registration form and, for most voters, provide “an identifying document
that establishes proof of residence.” Wis. Stat. § 6.34(2); R.538:5 (“Op.”). Voters may
register in person at the clerk’s office, by mail, or online using the Wisconsin Election
Commission’s (“Commission”) “MyVote” website. Wis. Stat. §§ 6.28(1), 6.29(2)(a). For
the November Election, voters must either register online or by mail by October 14,

see Wis. Stat. §§ 6.28(1), 6.29(2)(a), or complete “[l]ate registration” in person at the
clerk’s office by October 30, 2020, Wis. Stat. § 6.29(1)–(2). See Op.5. Finally, a voter
may register in person on election day, immediately before casting a ballot. Wis. Stat.
§ 6.55(2); see also Luft, 963 F.3d at 672; Op.5.
Voting by mail is also easy in Wisconsin, under Wisconsin’s no-excuses-needed
absentee-voting regime, Wis. Stat. § 6.85; Luft, 963 F.3d at 672, and that by-mail
voting for the November Election has already begun, see Op.55. To obtain an absentee
ballot, voters need only submit a request by October 29, if requesting it by mail, fax,
or online, Wis. Stat. § 6.86(1)(ac), (b); Op.6–7, or by November 1, 2020, if requesting
it in person, Wis. Stat. § 6.86(1)(b); Op.8. Any registered voter may request a ballot

immediately, so voters who do not wish to vote in-person still have many weeks to
request and return their ballots. See Wis. Stat. § 7.15(1)(cm); R.458-2. Voters must

-3-

A110

(6 of 97)

Case: 20-2835

Document: 9-1

Filed: 09/23/2020

Pages: 25

then return the ballot by 8:00 p.m. on election day, which they or their agent may do
by mail, via a “drop box” where available, through hand delivery to the clerk’s office
or another designated site, or by delivering it to their polling place. Op.7–8; Wis. Stat.
§ 6.87(6). For “military [and overseas] voters” requesting absentee ballots, Wisconsin
law allows municipal clerks to “fax or email” them absentee ballots after receiving a
valid absentee-ballot request. Luft, 963 F.3d at 677; see Wis. Stat. § 6.87(3)(d).
Wisconsin law allows voters who are “indefinitely confined because of age,
physical illness or infirmity or [are] disabled for an indefinite period” to elect to
“automatically” receive absentee ballots “for every election,” without satisfying the
photo-ID requirement. Wis. Stat. §§ 6.86(2)(a), 6.87(4)(b)2. The Commission has
clearly explained this exception to voters, noting that “[d]esignation of indefinitely
confined status is for each individual voter to make based upon their current
circumstance[s],” “[i]t does not require permanent or total inability to travel outside
of the residence,” and “shall not be used . . . simply as a means to avoid the photo ID
requirement.” R.458-12 (Wis. Elections Comm’n, I Want to Vote Absentee);2 see

Jefferson v. Dane Cty., No. 2020AP557-OA (Wis. Mar. 31, 2020) (preliminarily
enjoining election clerk’s inaccurate statements about the availability of the
indefinitely-confined-voter exception and noting the Commission’s guidance on the
term “indefinitely confined”).3

2

Available at https://elections.wi.gov/voters/absentee.

3

This original action is currently pending before the Wisconsin Supreme Court. See

Jefferson v. Dane Cty., No. 2020AP557-OA (Wis. Mar. 31, 2020).

-4-

A111

(7 of 97)

Case: 20-2835

Document: 9-1

Filed: 09/23/2020

Pages: 25

Finally, eligible Wisconsinites have multiple options to vote in person, both for
two weeks in-person absentee until November 1, Wis. Stat. § 6.86(1)(b), and on
election day, Wis. Stat. §§ 6.76–78, 6.80. “[T]he [Commission] is taking [ ] steps” to
“do more or do better” with respect to the in-person aspects of the November Election,
including “earmark[ing] $4.1 million to provide increased safety measures at
locations”; “designat[ing] $500,000 to secure and distribute sanitation supplies”; and
“providing public health guidance and training to local election officials.” Op.60–61.
B. In these consolidated cases, Plaintiffs challenged a host of Wisconsin
election laws with respect to the upcoming November Election. Op.2–4. On
September 21, the district court entered an order granting to Plaintiffs the following
relief: (1) extending the deadline for online and mail-in registration to October 21,
2020, under Wis. Stat. § 6.28(1); (2) directing the Commission to include on the
MyVote and WisVote websites (and on any additional materials that may be printed
explaining the “indefinitely confined” option) the language provided in their March
2020 guidance; (3) extending the receipt deadline for absentee ballots by one week
until November 9, 2020, under Wis. Stat. § 6.87(6), while still requiring the ballots
be mailed and postmarked on or before election day; (4) allowing access to
replacement absentee ballots online or via email from October 22, through
October 29, for any voters who timely requested an absentee ballot, which request
was approved and the ballot was mailed but not received by the voter; and
(5) enjoining Wis. Stat. § 7.30(2)’s rule that each election official be an elector of the
county in which the municipality is located. Op.67–69. The court stayed its

-5-

A112

(8 of 97)

Case: 20-2835

Document: 9-1

Filed: 09/23/2020

Pages: 25

preliminary injunction order for seven days, to provide the aggrieved parties an
opportunity to seek this emergency appellate relief. Op.69.
JURISDICTION
As this Court already held in the prior round of this case, the “Legislature has
standing to pursue this appeal.” See DNC, 2020 WL 3619499, at *2 (citing Va. House

of Delegates v. Bethune-Hill, 139 S. Ct. 1945 (2019), and Planned Parenthood of Wis.,
Inc. v. Kaul, 942 F.3d 793 (7th Cir. 2019)).
LEGAL STANDARD
“The standard for granting a stay pending appeal mirrors that for granting a
preliminary injunction.” In re A & F Enters., Inc. II, 742 F.3d 763, 766 (7th Cir. 2014);

accord Nken v. Holder, 556 U.S. 418 (2009). In that analysis, this Court must consider
whether the moving party “establish[ed] that he is likely to succeed on the merits,
that he is likely to suffer irreparable harm in the absence of preliminary relief, that
the balance of equities tips in his favor, and that an injunction is in the public
interest.” Ill. Republican Party v. Pritzker, No. 20-2175, ___ F.3d ___, 2020 WL
5246656, at *2 (7th Cir. Sept. 3, 2020) (citation omitted).4

4

The Legislature orally moved the district court to stay any preliminary injunction
pending the Legislature’s appeal, R.532:215–17, just as Intervenor-Defendant Republican
National Committee did with the first appeal in this case, R.181:135–36. The district court
granted only a one-week stay to seek appellate review, Op.4, thus necessitating this
Emergency Stay Motion, see Fed. R. App. P. 8(a)(1)(A).

-6-

A113

(9 of 97)

Case: 20-2835

Document: 9-1

Filed: 09/23/2020

Pages: 25

ARGUMENT
I.

The Legislature Is Exceedingly Likely To Succeed On Appeal Because All Of
The Challenged Election Laws Are Constitutional
Federal courts analyze challenges to voting laws under the Anderson/Burdick

framework, “weigh[ing] ‘the character and magnitude of the asserted injury to the
[voting] rights protected by the First and Fourteenth Amendments” against “‘the
precise interests put forward by the State as justifications for the burden imposed by
its rule.’” Burdick v. Takushi, 504 U.S. 428, 434 (1992) (quoting Anderson v.

Celebrezze, 460 U.S. 780, 789 (1983)). A state violates the Constitution if it requires
a voter to expend more than “reasonable effort” to vote. Frank v. Walker, 819 F.3d
384, 386 (7th Cir. 2016) (“Frank II”); accord Crawford v. Marion Cty. Election Bd.,
553 U.S. 181, 198 (2008) (controlling plurality op. of Stevens, J.).
As this Court explained in Luft, the Anderson/Burdick analysis considers any
particular election law’s burden in light of “the state’s election code as a whole.” 963
F.3d at 671. Absent a plaintiff satisfying the demanding Anderson/Burdick test—that
is, showing that more than “reasonable effort” is needed to vote, Frank II, 819 F.3d
at 386—a court cannot order any election-law reform, no matter how “beneficial” the
court thinks the reform is “on balance.” Luft, 963 F.3d at 671. After all, “[o]ne federal
judge’s preference” alone “does not prevent a state legislature from implementing a
different approach.” Id. at 679.
And, finally, even if a provision does impose an unconstitutional burden on
particular voters (i.e., foreclosing those specific voters from voting after expending
“reasonable effort”), a court cannot “prevent the state from applying the law

-7-

A114

(10 of 97)

Case: 20-2835

Document: 9-1

Filed: 09/23/2020

Pages: 25

generally.” Frank II, 819 F.3d at 386. Instead, the specific voters may be eligible for
as-applied relief, not a statewide injunction applicable to all voters. Id. at 386–87.
Here, the district court preliminarily enjoined several provisions of Wisconsin’s
election law, and its analysis on each provision was legally wrong.
A.

Extending The Deadline To Register To Vote, Even Though Voters Have
Many Weeks To Register

Wisconsin’s voter registration deadlines are plainly constitutional. Under
Wisconsin law, voters still have many weeks until the deadlines to register online, by
mail, or in person at the clerk’s office—October 14 for regular registration, and
October 30 for late registration in person at the clerk’s office. See supra p.3. Further,
Wisconsin also has “generous . . . same-day registration” at the polls. Luft, 963 F.3d
at 676. These reasonable deadlines easily satisfy Anderson/Burdick and directly
further the State’s “valid and sufficient interests in providing for some period of time
. . . to prepare adequate voter records and protect its electoral process from possible
fraud.” Luft, 963 F.3d at 676 (citation omitted).
The district court ordered the State to extend “the current electronic and mailin registration deadline of October 14, 2020,” by one week to October 21, Op.41, and
that decision was plainly wrong. The court’s conclusion that anyone is “restrict[ed]”
in their “right to vote” by the October 14 deadline is incorrect, given that voters still
have weeks to meet this deadline and, even after that date, may easily register in
person at the clerk’s office by October 30, or at their polling location on election day
itself. Supra p.3. The court’s related concerns for “a smaller, but significant group”
that may face “severe[ ]” burdens from this deadline likewise does not support its

-8-

A115

(11 of 97)

Case: 20-2835

Document: 9-1

Filed: 09/23/2020

Pages: 25

decision, Op.41, including because: (1) it is easy for any voter to register now online
or by mail, or, if they want, to register in person; and (2) the court ordered a one-week
extension for all voters, not tailored relief for this (frankly, non-existent) “small[ ]”
group for whom the court thought October 14 deadline is problematic in some respect.
Op.41; see Frank II, 819 F.3d at 386.
The other reasons that the district court offered for this aspect of its injunction
are similarly unavailing. The court’s desire to provide more time for “unwary
individuals”—who apparently do not know about the October 14 deadline—is
indefensible. Op.39; see also Op.40. The Constitution gives “little weight to the
interest [of voters] . . . in making a later rather than early decision.” Burdick, 504
U.S. at 437 (citation omitted); see also Rosario v. Rockefeller, 410 U.S. 752, 758 (1973)
(failure to “act” according to “mere[ ] [ ] time limitation[s]” is a voter’s “own failure to
take timely steps”). And the court’s concern about possible mailing delays, Op.40,
misses the mark because, even if such delays occur for a particular voter, that voter
can register online, in person at the clerk’s office, or at the polling place—alternatives
that all require only “reasonable effort,” Frank II, 819 F.3d at 386.
B.

Further Extending The Deadline To Deliver Absentee Ballots, Even
Though Voters Have Many Weeks To Deliver Their Ballots

Wisconsin’s requirement that absentee ballots be “delivered to the polling place
serving the elector’s residence before 8 p.m. on election day,” is also constitutional.
Wis. Stat. § 6.87(6). This deadline requires only “reasonable effort” from voters,

Frank II, 819 F.3d at 386, since voters who do not wish to vote in-person have weeks
to request and return their absentee ballots, see Wis. Stat. § 7.15(1)(cm). Any

-9-

A116

(12 of 97)

Case: 20-2835

Document: 9-1

Filed: 09/23/2020

Pages: 25

registered voter may request a ballot immediately, and clerks have already begun to
deliver them to voters. See supra pp.3–4; Op.55. Further, voters (or their agents) may
return these ballots by the election-day deadline through a variety of methods: in the
mail; via “drop box”; hand delivery to the clerk’s office or another designated site; or
at the polling place itself on election day. See Op.8. These mild “[a]dministrative
steps” require little of the voter, thus reasonably diligent voters wishing to vote
absentee should take them immediately. Luft, 963 F.3d at 679 (citation omitted). And,
of course, other voters can simply choose to vote in person—either during the twoweek in-person absentee-voting period, or on election day. See supra p.5.
The district court ordered an extension of the absentee-ballot-receipt deadline
to November 9, for all voters, so long as “the ballots [are] mailed and postmarked on
or before election day, November 3, 2020.” Op.51. The district court’s order is legally
unjustified, especially since now—unlike in the Spring—voters concerned about
voting in person due to COVID-19 have many weeks to vote absentee.
To begin, the court mistakenly looked to whether “unwary voters” could or
would wait until the last minute to mail their absentee requests or ballots. Op.49 (“socalled procrastinators”). But, again, unwariness is not the constitutional standard.

See supra p.9. Nothing in the Constitution gives voters’ the constitutional right to
delay until the last minute in requesting or mailing their absentee ballots, without
risking the foreseeable consequences of such delay. As the Supreme Court explained
in the earlier round of this very case, “even in an ordinary election, voters who request
an absentee ballot at the deadline for requesting ballots . . . will usually receive their

- 10 -

A117

(13 of 97)

Case: 20-2835

Document: 9-1

Filed: 09/23/2020

Pages: 25

ballots on the day before or day of the election,” Republican Nat’l Comm., 140 S. Ct.
at 1207, which, in turn, may not provide them with enough time to successfully mail
the ballot back to the clerk by election day even before COVID-19. Yet, no one would
argue that this previously rendered any State’s voting laws unconstitutional before
COVID-19. So while the district court worried about voters who wanted to wait until
close to election day to decide for whom to vote, Op.49–50, absentee voters almost

always vote without “information . . . that surfaces in the late stages of the election
campaign,” Griffin v. Roupas, 385 F.3d 1128, 1131 (7th Cir. 2004).
In any event, and independently fatal to the district court’s injunction,
Wisconsin’s multiple in-person voting options—including two weeks of in-person
absentee voting and election day voting, see supra p.5—are constitutionally adequate
options for Wisconsin voters who experience any absentee-voting mailing or
processing problems. See supra pp.7–8. Again, a State only needs to provide voters a
constitutionally adequate “path to cast a vote,” Luft, 963 F.3d at 678, with
“reasonable effort,” Frank I, 819 F.3d at 386. It follows that voters who can vote in
person with reasonable effort have “no constitutional right to an absentee ballot.”

Mays v. LaRose, 951 F.3d 775, 792 (6th Cir. 2020); see Griffin, 385 F.3d at 1130;
McDonald v. Bd. of Election Comm’rs, 394 U.S. 802, 807–08 (1969). And COVID-19
“has not suddenly obligated [the State] to do what the Constitution has never been
interpreted to command, which is to give everyone the right to vote by mail.” Tex.

Democratic Party v. Abbott, 961 F.3d 389, 409 (5th Cir. 2020).

- 11 -

A118

(14 of 97)

Case: 20-2835

Document: 9-1

Filed: 09/23/2020

Pages: 25

Wisconsin’s own election experiences during COVID-19 show that in-person
voting is a constitutionally adequate alternative. As the district court acknowledged,
Wisconsin’s experience with its April and August Elections “suggest[s] that in-person
voting can be conducted safely if the majority of votes are cast in advance, sufficient
poll workers, polling places, and [personal protective equipment] are available, and
social distancing and masking protocols are followed.” Op.19. The Commission is
taking comprehensive steps to ensure even greater safety for in-person voting for
November, such that the district court saw “no basis to order” the Commission to take
any additional measures. Op.60–61. Thus, if some voters choose to wait until close to
election day to cast their absentee ballot and something goes wrong with the
processing or mailing of their absentee ballots, in-person voting remains a
constitutionally adequate option, thereby making Wisconsin’s voting system “as a

whole” constitutional. Luft, 963 F.3d at 671.
Further, and also independently fatal to the district court’s injunction, the
court granted facial relief against this deadline, “prevent[ing] the state from applying
the law generally” to any voter, even voters who can indisputably vote in-person with

reasonable effort, if something goes wrong with the mailing of their absentee ballots.
See Frank II, 819 F.3d at 386. If the district court thought that some identified group
of voters could not safely vote in person, and was concerned about what would happen
to those voters if they experienced absentee-ballot mailing problems, the court was
duty-bound to tailor any relief only to those voters. Id.

- 12 -

A119

(15 of 97)

Case: 20-2835

Document: 9-1

Filed: 09/23/2020

Pages: 25

Finally, the court wrongly minimized the State’s interest in adopting an
election-day-receipt deadline that many other States have chosen, Op.50, in an effort
to forward “orderly administration” of its elections, see Crawford, 553 U.S. at 196
(controlling plurality op. of Stevens, J.). The district court believed that the State’s
interest “rings hollow during a pandemic,” Op.50, but that is the court “substitut[ing]”
the “judicial judgment for legislative judgment.” Luft, 963 F.3d at 671.
C.

Unnecessarily Creating A Confusing, Difficult-To-Administer Week Of
Faxing And Emailing Absentee Ballots

Wisconsin’s decision to allow only military or overseas electors to receive faxed
or emailed absentee ballots, Wis. Stat. § 6.87(3)(d), poses no constitutional issues
under Anderson/Burdick, as this Court held in Luft. As Luft concluded, Wisconsin
“could reasonably conclude that members of the military [and overseas voters] face
special problems,” such as the inability “to return to the state to use its regular voting
methods[ ], which justify willingness on the state’s part to accept the burdens that
fax or email cause for the vote-counting process.” 963 F.3d at 677.
The district court essentially overruled Luft, in part, by ordering local election
officials to send and receive absentee ballots online between October 22 and
October 29 for all “voters who timely requested an absentee ballot, the request was
approved, and the ballot was mailed, but the voter did not receive the ballot in time
to vote.” Op.54. This relief was not nearly as “narrow” as the court claimed. Op.54. To
take just one problematic example, voters could request an absentee ballot on
October 21 or 22, have their ballots mailed by the clerk within one day of that request,

- 13 -

A120

(16 of 97)

Case: 20-2835

Document: 9-1

Filed: 09/23/2020

Pages: 25

see Wis. Stat. § 7.15(1)(cm); R.458-4, and then request that the clerk email the ballot
instead since they may not “receive the ballot in time to vote,” Op.54.
Even beyond the fact that the district court’s order here impermissibly
overturns, in part, this Court’s recent decision in Luft, the court’s order was also
legally indefensible for the independent reason that Wisconsin’s multiple in-person
voting options already provide constitutionally adequate options to every voter whose
mailed absentee ballot is lost or delayed. See supra pp.4–5, 11–12. Further, and
closely related, even if the record had established that some extremely limited group
of voters could not safely vote in person if their absentee ballot gets lost or delayed—
and, to be clear, the record lacks evidence of any voters who cannot safely vote either
in person or in-person absentee, after following all public health protocols—the
district court’s injunction would still be unconstitutionally overbroad because it is not
limited to those specific voters. See Frank II, 819 F.3d at 386.
Nor did the district court adequately address the difficulty that its judicially
created email-ballot regime would impose on election officials. As a threshold matter,
the district court did not explain how local election officials across Wisconsin could
consistently determine which voters actually qualified for the district court’s
judicially created option. Further, broadening the availability of online ballot access
risks “errors arising from the fact that faxed or emailed ballots cannot be counted by
machine.” Luft, 963 F.3d at 677. Alternative delivery arrangements impose burdens
on elections officials, especially because returns of faxed/emailed absentee ballots
come “on regular printer paper,” not “official ballot stock,” requiring the clerks to

- 14 -

A121

(17 of 97)

Case: 20-2835

Document: 9-1

Filed: 09/23/2020

Pages: 25

“remake the ballots [on official paper] so that it can be counted by the voting
equipment on election day.” R.247:153. In response, the district court cited the
remarks of a handful of local election officials, who claimed that any inconvenience
would be “outweighed by the benefit of having fewer, in-person voters on election
day.” Op.54. Such personal opinions of local elections officials about statewide
election laws are, of course, irrelevant, as “which decisions a state wishes to make
statewide, and which locally, are for the state to decide.” Luft, 963 F.3d at 674.
D.

Requiring The Commission To Tell Voters Duplicative Information
About The Indefinitely Confined Exception

The district court also erred in requiring the Commission “to include on the
MyVote website (and on any additional materials that may be printed explaining the
‘indefinitely confined’ option) the language provided in their March 2020 guidance,
which explains that the indefinitely confined exception ‘does not require permanent
or total inability to travel outside of the residence.’” Op.58. The court did not hold
that Wisconsin’s photo-ID law would be unconstitutional without providing this
duplicative information to voters, Op.56–58, nor would such a holding be even
arguably plausible, see Frank I, 768 F.3d at 749–51. Furthermore, the district court
nowhere explained why its ordered “relief” is necessary to protect the right to vote or
tailored to remedying an Anderson/Burdick problem. As the district court admitted,
Op.6, 58, both the Wisconsin Supreme Court, Jefferson v. Dane Cty., 2020AP557-OA
(Wis. Mar. 31, 2020), and the Commission, see R.458-12, have already provided all
Wisconsin voters with this same guidance on the meaning of the law, which all voters

- 15 -

A122

(18 of 97)

Case: 20-2835

Document: 9-1

Filed: 09/23/2020

Pages: 25

are presumed to know in any event, see Cochran v. Ill. State Toll Highway Auth., 828
F.3d 597, 600 (7th Cir. 2016).
E.

Unnecessarily Lifting Rules For The Residency Of Election Officials

The district court also wrongly enjoined Wis. Stat. § 7.30(2), which provides
that a polling-place inspector must “be a qualified elector of a county in which the
municipality where the official serves is located.” This “reasonable” regulation, Stone

v. Bd. of Election Comm’rs for City of Chi., 750 F.3d 678, 681 (7th Cir. 2014), ensures
that officials who are truly local administer their own polling places, furthering the
State’s desire to take a “decentralized” approach to election administration, see
R.227-1:1; R.227-2:10.
The district court failed to explain what, if any, constitutional violation might
arise if Section 7.30(2) remained in place. Instead, it concluded only that
Section 7.30(2) presented a “tricky and fluid barrier” to in-person voting. Op.60. The
court also noted that allowing local election officials to “access[ ] National Guard
members who reside outside of their community” would help them recruit additional
poll workers. Op.60. But the record evidence showed that Section 7.30(2) imposed no
barriers to properly staffing polling locations in jurisdictions that were willing to
accept the help of the National Guard. R.227-1:8–9. “Municipalities who used
[National Guard] personnel” in the April 7 Election “report[ed] the experience as a
very positive one” and “hope[d] that the service members will continue to serve as
volunteer poll workers in their home communities in the future.” R.227-1:8 (emphasis
added). The only evidence of staffing difficulties that any Plaintiffs could muster were

- 16 -

A123

(19 of 97)

Case: 20-2835

Document: 9-1

Filed: 09/23/2020

Pages: 25

in jurisdictions where local staffing decisions contributed to poll-worker shortages.

See Swenson R.41:41–42; R.397:53.
II.

The Equitable Factors Favor Staying The District Court’s Injunction
“[T]he inability [of the State] to enforce its duly enacted plans clearly inflicts

irreparable harm on the State” by interfering with its sovereignty. Abbott v. Perez,
138 S. Ct. 2305, 2324 & n.17 (2018). While the changes that the district court ordered
vary in practical significance—from deeply significant changes to election deadlines,
to unnecessary requirements to re-publish “indefinitely confined” guidance—each
aspect of the order infringes upon Wisconsin’s sovereignty by substituting “[o]ne
federal judge’s preference[s]” for those of the “state legislature.” Luft, 963 F.3d at 679.
This imposes unjustified irreparable harm on the State and its citizens.
Further, the timing of the district court’s injunction beckons for a stay. Purcell

v. Gonzalez, 549 U.S. 1 (2006) (per curiam), recognized that federal-court intervention
in elections “can [ ] result in voter confusion and consequent incentive to remain away
from the polls,” especially “[a]s an election draws closer,” id. at 4–5; accord Republican

Nat’l Comm., 140 S. Ct. at 1207. The November Election in Wisconsin has already
begun, since clerks began mailing absentee ballots to voters on September 17, 2020.

Supra pp.3–4. So, under Purcell, any federal-court intervention, including
multifaceted orders like the district court’s order here, comes with the grave risk of
“voter confusion” and concomitant disenfranchisement. See Purcell, 549 U.S. at 4–5.
This is why another district judge in the Western District of Wisconsin considering a

narrower challenge to portions of Wisconsin’s photo-ID laws today refused to enjoin

- 17 -

A124

(20 of 97)

Case: 20-2835

Document: 9-1

Filed: 09/23/2020

Pages: 25

these provisions prior to the November Election, since Wisconsin is now “well within
the sensitive time frame” where any injunction would sow “exactly the chaos and
confusion that the Purcell principle is meant to avoid.” Common Cause v. Thomsen,
No. 3:19-cv-323, Dkt.51:2–3 (W.D. Wis. Sept. 23, 2020).
Even if this Court were to consider the provisions that the district court
enjoined, one by one, the balance of the irreparable harms and the equities strongly
supports granting a stay of the district court’s unlawful injunction.

First, the court’s extension of the registration deadlines disrupts the State’s
“valid and sufficient interests in providing for some period of time—prior to an
election—in order to prepare adequate voter records and protect its electoral process
from possible fraud.” Luft, 963 F.3d at 676 (citation omitted). And while the district
court concluded that the State’s election officials could likely comply with this order
“without significant impact,” Op.40–41, this order necessarily diverts sovereign
resources in the crucial run-up to the election from where the Legislature thought
best to the processing of late registration applications.

Second, the extension of the absentee-ballot-receipt deadline harms the State’s
ability to canvass the election results, introducing unnecessary uncertainty and delay
into “the democratic process.” Anderson, 460 U.S. at 788 (citation omitted). That
potential for disorder explains why most States express a similar interest in the
finality that comes from collecting all ballots on election day. See Op.50. And, of
course, a State “inevitably must” enact some ballot deadline, Timmons v. Twin Cities

Area New Party, 520 U.S. 351, 358 (1997), so the district court’s preference of

- 18 -

A125

(21 of 97)

Case: 20-2835

Document: 9-1

Filed: 09/23/2020

Pages: 25

November 9 is an impermissible “substitution of judicial judgment for legislative
judgment” that unjustifiably infringes upon state sovereignty, Luft, 963 F.3d at 671.
That “election officials were able to meet all post-election canvassing deadlines
notwithstanding th[e] court’s six-day extension of the deadline in April,” Op.50, does
not alter the balance, since that extension required these officials to expend
“incredible efforts” to make “an extremely tight turnaround,” R.247:48.

Third, the opening of a difficult-to-administer, weeklong window where voters
may request emailed or faxed absentee ballots will likewise sow needless confusion
into Wisconsin’s election. Anderson, 460 U.S. at 788 (citation omitted). As noted
above, it will be difficult for local election officials statewide to determine which voters
qualify for the district court’s judicial bypass. See supra pp.13–15. Further,
processing faxed and mailed ballots creates serious practical problems, as this Court
discussed in Luft, 963 F.3d at 677, and as the record below establishes, see R.247:153.

Fourth, the court’s order that the Commission provide voters with duplicative
information about the indefinitely confined exception imposes an unnecessary
obligation on the Commission, while also infringing upon the State’s sovereignty by
forcing it to restate guidance that it has already given its citizens.

Finally, the district court lifted Wisconsin’s rules that election officials must
be electors of the counties in which they work, undermining the State’s interest in
local election administration. See supra pp.16–17. And, as discussed above, there is
no record evidence that lifting this requirement will make a meaningful difference in
terms of election-day staffing. See supra pp.16–17.

- 19 -

A126

(22 of 97)

Case: 20-2835

Document: 9-1

Filed: 09/23/2020

Pages: 25

CONCLUSION
This Court should stay pending appeal the district court’s entire preliminary
injunction.
Dated: September 23, 2020
Respectfully Submitted,
SCOTT A. KELLER
BAKER BOTTS LLP
700 K Street, N.W.
Washington, DC 20001
(202) 639-7837
(202) 585-1023 (fax)
scott.keller@bakerbotts.com

Counsel for Legislature in Gear
ERIC M. MCLEOD
LANE E. RUHLAND
HUSCH BLACKWELL LLP
P.O. Box 1379
33 East Main Street, Suite 300
Madison, WI 53701-1379
(608) 255-4440
(608) 258-7138 (fax)
eric.mcleod@huschblackwell.com
lane.ruhland@huschblackwell.com

/s/ Misha Tseytlin
MISHA TSEYTLIN

Counsel of Record

ROBERT E. BROWNE, JR.
KEVIN M. LEROY
SEAN T.H. DUTTON
TROUTMAN PEPPER HAMILTON
SANDERS LLP
227 W. Monroe Street, Suite 3900
Chicago, IL 60606
(608) 999-1240
(312) 759-1939 (fax)
misha.tseytlin@troutman.com
robert.browne@troutman.com
kevin.leroy@troutman.com
sean.dutton@troutman.com

Counsel for Legislature in DNC, Gear,
Swenson, and Edwards

LISA M. LAWLESS
HUSCH BLACKWELL LLP
555 East Wells Street, Suite 1900
Milwaukee, WI 53202-3819
(414) 273-2100
(414) 223-5000 (fax)
lisa.lawless@huschblackwell.com

Counsel for Legislature in DNC

- 20 -

A127

(23 of 97)

Case: 20-2835

Document: 9-1

Filed: 09/23/2020

Pages: 25

CERTIFICATE OF COMPLIANCE
Pursuant to Federal Rule of Appellate Procedure 32(g), I certify the following:
This Motion complies with the type-volume limitation of Federal Rule of
Appellate Procedure 27(d)(2) because it contains 5,187 words, excluding the parts of
the Motion exempted by Federal Rule of Appellate Procedure 32(f).
This Motion complies with all typeface requirements of Federal Rules of
Appellate Procedure 27(d)(1)(E) and 32(a)(5)–(6), because it has been prepared in a
proportionally spaced typeface using the 2016 version of Microsoft Word in 12-point
Century Schoolbook.
Dated: September 23, 2020.
/s/ Misha Tseytlin
MISHA TSEYTLIN

A128

(24 of 97)

Case: 20-2835

Document: 9-1

Filed: 09/23/2020

Pages: 25

CERTIFICATE OF SERVICE
I hereby certify that on this 23rd day of September, 2020, I filed the foregoing
Emergency Motion To Stay The Injunction Pending Appeal with the Clerk of the
Court using the CM/ECF System, which will send notice of such filing to all registered
CM/ECF users.
Dated: September 23, 2020
/s/ Misha Tseytlin
MISHA TSEYTLIN

A129

(25 of 97)

Case: 20-2835

Document: 46

Filed: 09/25/2020

Pages: 20

Nos. 20-2835, 20-2844

IN THE UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
DEMOCRATIC NATIONAL COMMITTEE, et al.,
Plaintiffs-Appellees,
v.
WISCONSIN STATE LEGISLATURE, et al.,
Intervenor-Defendants-Appellants.

GEAR V. BOSTELMANN PLAINTIFFS-APPELLEES’
OPPOSITION TO INTERVENOR-DEFENDANTSAPPELLANTS’ EMERGENCY MOTION TO STAY DISTRICT
COURT’S PRELIMINARY INJUNCTION
ON APPEAL FROM
THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF WISCONSIN
Consol. Case Nos. 3:20-cv-249, -278, -340, -459 The Honorable William M.
Conley, Presiding
DOUGLAS M. POLAND
JEFFREY A. MANDELL
STAFFORD ROSENBAUM LLP
222 West Washington Avenue, Suite 900
Post Office Box 1784
Madison, Wisconsin 53701-1784
dpoland@staffordlaw.com
jmandell@staffordlaw.com
(608) 256-0226

JON SHERMAN
MICHELLE KANTER COHEN
CECILIA AGUILERA
FAIR ELECTIONS CENTER
1825 K St. NW, Suite 450
Washington, DC 20006
jsherman@fairelectionscenter.org
mkantercohen@fairelectionscenter.org
caguilera@fairelectionscenter.org
(202) 331-0114

Attorneys for Plaintiffs-Appellees
1

A130

Case: 20-2835

Document: 46

Filed: 09/25/2020

Pages: 20

INTRODUCTION
The district court granted relief to the Gear Plaintiffs-Appellees in part (d) of the
preliminary injunction order. See dkt. 539 at 3.1 For two decades, Wisconsin election officials have
emailed mail-in absentee ballots upon request. For the first decade, the statute gave clerks
discretion to send any absentee voter their ballots by email when, in their judgment, there was
insufficient time to receive the ballot by mail and timely cast it. Then, for about four-and-a-half
years, the Legislature made email delivery non-discretionary but restricted it to military and
overseas voters. In 2016, the district court struck down the statutory provision barring all but
military and overseas voters from receiving their absentee ballots by email and fax delivery.2 This
Court denied a motion to stay that order3 and, while that case was pending before this Court,
municipal clerks delivered mail-in absentee ballots to voters by email—“without incident,” as the
district court found. See dkt. 538 at 54.4 For the next four years, every election in Wisconsin was
conducted with email delivery of mail-in absentee ballots available to all voters.
In late June, this Court reversed the district court’s injunction and reinstated the ban on
electronic transmission of ballots to domestic civilian voters,5 but did so on a record developed
long before Covid-19. Those consequences include a death toll now surpassing 200,000
Americans; the consequent, unprecedented demand for mail-in ballots; and a sclerotic U.S. Postal
Service that has failed to deliver ballots to voters on time or at all. The district court found the

1

Unless otherwise indicated, citations to the district court docket in this brief (“dkt.”) are to the
docket under which the Gear case was consolidated, case number 20-cv-249-wmc.
2
One Wisconsin Inst., Inc. v. Thomsen, 198 F. Supp. 3d 896, 946 (W.D. Wis. 2016).
3
One Wisconsin Inst., Inc. v. Thomsen, No. 16-3083, at *1 (7th Cir. Aug. 22, 2016).
4
Absentee voters must return these ballots by mail or drop them off at their municipal clerk’s
office, polling place, or dropbox. Wis. Stat. §§ 6.87(3)(d), 6.87(4). Plaintiffs’ claims solely address
the delivery of ballots to voters by electronic means, not the method by which voters return their
ballots.
5
Luft v. Evers, 963 F.3d 665, 676-77 (7th Cir. 2020).
2

A131

Case: 20-2835

Document: 46

Filed: 09/25/2020

Pages: 20

record evidence on these points “overwhelming.” Dkt. 538 at 53. Earlier this year, these forces
disenfranchised voters, including five of the Plaintiffs-Appellees, who are at much higher risk from
Covid-19. Given the health risks they face and the corresponding severe burden on their right to
vote, no legitimate and rational, let alone compelling, state regulatory interest could justify forcing
such voters to vote in person, if their absentee ballots cannot timely be received and cast by mail.
Such voters need a fail-safe.
The district court issued limited relief for this specific group of voters who do not timely
receive a timely-requested absentee ballot in the mail. From October 22-29, voters who have not
yet received their ballot in the mail may do so by email or through myvote.wi.gov. The district
court left the choice of electronic transmission method to the Wisconsin Elections Commission
(“WEC” or “the Commission”). WEC has sufficient time to restore email delivery to domestic
civilian voters, which it had done until two months ago. Municipal clerks know how to deliver
mail-in absentee ballots by email; this requires no retraining of clerks and no involvement of poll
workers. Voters are familiar with email delivery as an option, having used it for four years. This
limited relief provides only a back-up option to receive replacement ballots within an eight-day
period. Most voters will never need to learn of or use this fail-safe but, as the district court found,
vulnerable voters’ rights will depend on it. Accordingly, courts’ usual concerns of voter confusion,
voter suppression, and increased administrative burdens are significantly diminished.6
The Intervenor-Defendants-Appellants Wisconsin Legislature (“Legislature”), Republican
National Committee (“RNC”), and Republican Party of Wisconsin’s (RPW”) have moved to stay
the preliminary injunction. These motions should be denied because the movants lack standing to
appeal and are unlikely to succeed on the merits anyway. While Luft commands a holistic review

6

See Purcell v. Gonzalez, 549 U.S. 1 (2006).
3

A132

Case: 20-2835

Document: 46

Filed: 09/25/2020

Pages: 20

of the election code, it also instructs that voters’ rights are personal and must be protected through
fail-safe options if they cannot vote through reasonable effort. The eight individual PlaintiffsAppellees and the organizational Plaintiffs-Appellees League of Women Voters of Wisconsin
(“LWVWI”) and Wisconsin Alliance for Retired Americans (“WIARA”) which divert resources,
time, and money to assist and educate voters who do not receive ballots in the mail filed suit to
ensure voters have a fail-safe option.
FACTUAL & PROCEDURAL BACKGROUND
Email delivery of mail-in absentee ballots has been an option for some or all of Wisconsin’s
absentee voters for two decades. The statute in question was created by 1999 Wis. Act 182, § 97
(May 24, 2000), went into effect in 2000, and permitted any voter—domestic civilian, military,
and overseas—to request and receive a mail-in absentee ballot by email “if, in the judgment of the
clerk, the time required to send the ballot through the mail may not be sufficient to enable return
of the ballot by the time provided under sub. (6).” Wis. Stat. § 6.87(3)(d) (2000) (emphasis added),
amended by 2001 Exec. Budget Act, § 9415, 2001-2002 Wis. Legis. Serv. Act 16. For ten years,
clerks were given discretion to decide whether email delivery was necessary. In 2011, the language
that made alternative delivery methods discretionary was dropped. Wis. Stat. § 6.87(3)(d) (June
10, 2011) (“A municipal clerk shall…transmit a facsimile or electronic copy of the absent elector's
ballot to that elector in lieu of mailing under this subsection.”).
The Wisconsin Legislature enacted 2011 Wis. Act 75 in December 2011, mandating that
municipal clerks “transmit a facsimile or electronic copy of the elector’s ballot to that elector in
lieu of mailing” only to military and overseas voters who request delivery by this means. Wis. Stat.
§ 6.87(3)(d). Now the statute only permits military electors and overseas electors, both as defined
in Wis. Stat. § 6.34(1), to request delivery of their absentee ballot by fax or email, or to access and

4

A133

Case: 20-2835

Document: 46

Filed: 09/25/2020

Pages: 20

download their absentee ballot at myvote.wi.gov and return them by mail. See dkt. 247, Deposition
of Meagan Wolfe (“Wolfe Tr.”) at 130:21-131:14; 136:20-139:19.
In 2016, Act 75’s ban on emailing or faxing mail-in absentee ballots to domestic civilian
voters was struck down by the district court’s decision in One Wisconsin Institute, 198 F. Supp.
3d at 946. WEC has construed the law to limit email or fax delivery to replacement mail-in
absentee ballots and, therefore, has permitted requests for email or fax delivery of absentee ballots
only until the regular deadline for mail-in absentee ballots (October 29). See dkt. 423, Sherman
Decl., Ex. 23, WEC, Uniform Instructions for Absentee Voting, at 2 (“A voter may request that a
replacement ballot be faxed or emailed to him or her.”); Wis. Stat. § 6.86(5). In the 2016
presidential election, 9,619 mail-in absentee ballots were delivered by email to voters without
incident.7 7,231 of these email-delivered ballots were ultimately returned by mail.8 There was no
documented incident with email delivery.
In June, the Seventh Circuit reversed the One Wisconsin Institute order invalidating the
ban on electronic delivery of absentee ballots to domestic civilian voters. Luft, 963 F.3d at 676.
The mandate issued at the end of July. Consequently, the pre-One Wisconsin Institute reach of
Section 6.87(3)(d)’s restriction to overseas civilian and military voters has been restored.
The district court has preliminarily enjoined the ban reinstated by Luft. The injunction
temporarily permits municipal clerks to issue replacement ballots via email or make them available
at myvote.wi.gov to civilian Wisconsin voters who properly request absentee ballots but do not
receive their ballots by mail. This fail-safe can be exercised from October 22-29. See dkt. 539 at
3. This decision was based on the high percentage of registered voters who have requested absentee

7
8

See dkt. 423, Sherman Decl., Ex. 3, WEC, Absentee Ballot Report (Nov. 8, 2016).
Id.
5

A134

Case: 20-2835

Document: 46

Filed: 09/25/2020

Pages: 20

ballots for the November 3 election, account for the Covid-19 pandemic, which has prompted an
unprecedented number of voters to choose not to vote in person, and potential U.S. Postal Service
(“USPS”) delivery delays or failures that may prevent registered voters from timely receiving
ballots.
LEGAL STANDARD
“In deciding whether to stay a federal court decision (other than a money judgment) while
review proceeds, on appeal or otherwise, courts consider the merits of the moving party’s case,
whether the moving party will suffer irreparable harm without a stay, whether a stay will injure
other parties interested in the proceeding, and the public interest.” Venckiene v. United States, 929
F.3d 843, 853 (7th Cir. 2019) (citing Nken v. Holder, 556 U.S. 418, 428 (2009)). The movant must
demonstrate the district court abused its discretion in denying a stay. Nken, 556 U.S. at 433.
This Court reviews findings of fact for clear error. Venckiene, 929 F.3d at 853.
ARGUMENT
I.

The Intervenor-Defendants-Appellants lack standing to move for a stay.
Neither the Legislature nor the RNC has standing to appeal the district court’s order. The

Gear Plaintiffs-Appellees join and incorporate herein Plaintiffs-Appellees Democratic National
Committee and Democratic Party of Wisconsin’s arguments as to the Legislature’s lack of
standing, while further noting that the Supreme Court has held that state legislatures have no
cognizable interest in cases challenging “the constitutionality of a concededly enacted” state
statute and thus do not have standing to appeal rulings in such cases. Va. House of Delegates v.
Bethune-Hill, 139 S. Ct. 1945, 1954 (2019); Planned Parenthood of Wis., 942 F.3d 793, 798 (7th
Cir. 2019). Here, because the Gear Plaintiffs-Appellees challenge the constitutionality of Wis.

6

A135

Case: 20-2835

Document: 46

Filed: 09/25/2020

Pages: 20

Stat. § 6.87(3)’s electronic ballot delivery restrictions during the pandemic, the Legislature has no
actionable interest in this case and, therefore, no standing to appeal.
The RNC and RPW equally lack standing to appeal. They identify no interests in their brief
supporting their motion to stay that confer standing to appeal. Moreover, the Supreme Court has
indicated that only states have an interest in enforcing state statutes, and that third parties lack
standing to stay orders enjoining those statutes. Hollingsworth v. Perry, 570 U.S. at 701–02. The
Court also recently rejected for lack of standing the RNC’s attempt to stay a court order in another
voting rights case, Common Cause Rhode Island v. Gorbea. There, the plaintiffs and state entered
into a consent decree enjoining the state’s requirement that mail-in ballots be signed by two
witnesses or notarized, as it concerned ballots cast in the upcoming general election. See No. 1:20cv-00318-MSM-LDA, 2020 WL 446091 (D.R.I. July 30, 2020). Subsequently, the RNC
intervened and asked the Supreme Court to stay the decree. The Court denied that request because
the RNC lacked standing: “[H]ere the state election officials support the challenged decree, and
no state official has expressed opposition. Under this [sic] circumstances, the applicants lack a
cognizable interest in the State’s ability to ‘enforce its duly enacted’ laws.” No. 20A28, 2020 WL
4680151, at *1 (U.S. Sup. Ct. Aug. 13, 2020) (Mem). So too here.
WEC has neither appealed nor opposed the narrowly tailored relief granted below.
Whatever interest Wisconsin holds in enforcing Section 6.87(3) rests solely with WEC.
II.

The Intervenor-Defendants-Appellants are unlikely to succeed on the merits.
Sections 6.87(3)(a) and 6.87(3)(d) together provide that mail-in absentee ballots may only

be delivered to regular civilian voters by mail. Wisconsin voters can request replacement mail-in
absentee ballots if they spoil or fail to receive a ballot up until the ballot request deadline. Wis.

7

A136

Case: 20-2835

Document: 46

Filed: 09/25/2020

Pages: 20

Stat. §§ 6.80(2)(c), 6.86(5); dkt. 247, Wolfe Tr. at 145:9-20. Plaintiffs filed an Anderson-Burdick
challenge to this delivery method restriction.
The Seventh Circuit applies Anderson-Burdick “to all First and Fourteenth Amendment
challenges to state election laws.” Acevedo v. Cook Cty. Officers Electoral Bd., 925 F.3d 944, 948
(7th Cir. 2019) (emphasis in original); Harlan v. Scholz, 866 F.3d 754, 759 (7th Cir. 2017). The
Supreme Court has developed the following test:
[T]he rigorousness of our inquiry into the propriety of a state election law depends
upon the extent to which a challenged regulation burdens First and Fourteenth
Amendment rights. Thus, as we have recognized when those rights are subjected to
“severe” restrictions, the regulation must be “narrowly drawn to advance a state
interest of compelling importance.” But when a state election law provision
imposes only “reasonable, nondiscriminatory restrictions” upon the First and
Fourteenth Amendment rights of voters, “the State’s important regulatory interests
are generally sufficient to justify” the restrictions.
Burdick v. Takushi, 504 U.S. 428, 434 (1992) (internal citations omitted). “A court considering a
challenge to a state election law must weigh the character and magnitude of the asserted injury to
the rights protected by the First and Fourteenth Amendments that the plaintiff seeks to vindicate
against the precise interests put forward by the State as justifications for the burden imposed by its
rule, taking into consideration the extent to which those interests make it necessary to burden the
plaintiff’s rights.” Id. at 434.
Here, the district court applied Anderson-Burdick and correctly concluded that the
confluence of the Covid-19 pandemic, USPS’s delivery failures, and WEC’s ongoing challenges
with the unprecedented demand for mail-in absentee ballots necessitates limited relief to guarantee
voters have a fail-safe option when their ballots do not arrive by mail on time or at all:
[T]he evidence is nearly overwhelming that the pandemic does present a unique
need for relief in light of: (1) the experience during the Spring election, (2) much
greater projected numbers of absentee ballot requests and votes in November, and
(3) ongoing concerns about the USPS’s ability to process the delivery of absentee
ballot applications and ballots timely. None of this was remotely contemplated by

8

A137

Case: 20-2835

Document: 46

Filed: 09/25/2020

Pages: 20

the Legislature in fashioning an election system based mainly [on] in person voting,
nor addressed by the Seventh Circuit’s recent decision in Luft.
See dkt. 538 at 53. The district court found that the record was “replete” with examples of voters
not receiving their ballots on time or at all. Id. at 52-53. These factual findings are not clearly
erroneous and point inexorably to one conclusion: under these exigent circumstances, the
injunction is necessary to comply with this Court’s instruction that because “‘the right to vote is
personal’…‘the state must accommodate voters’ who cannot meet the state’s voting requirements
‘with reasonable effort.’” Dkt. 538 at 34 (quoting Luft, 963 F.3d at 669). A voter who does not
receive a timely-requested ballot in the mail and cannot safely vote in person is denied their right
to vote without any justification—the Anderson-Burdick scales tip decisively in one direction. As
the district court held, that voter must be provided with a fail-safe option to receive their mail-in
absentee ballot. See dkt. 538 at 54. Noting that vulnerable voters’ rights will depend on this failsafe remedy, the district court held that, under this Court’s precedent, judicial intervention is
necessary to protect a narrow subset of voters from disenfranchisement. See dkt. 538 at 53.
Luft v. Evers—a case decided on a record developed long before the Covid-19 pandemic
and USPS delivery breakdowns—neither changes this calculus nor forecloses this action. This
“Courts weigh these burdens against the state’s interests by looking at the whole electoral system.”
Luft, 963 F.3d at 671-72. But if the election code addresses a particular burden or denial of the
right to vote, then unrelated provisions such as Election Day registration provide no defense to an
Anderson-Burdick claim. When voters face disenfranchisement due to ballot delivery issues and a
Covid-19 risk that makes in-person voting unduly dangerous, no part of the code mitigates this
constitutional violation.
Absent the district court’s injunctive relief, that voter’s only recourse is to request a
replacement mail-in absentee ballot, once again by mail delivery, and to hope it arrives faster than

9

A138

Case: 20-2835

Document: 46

Filed: 09/25/2020

Pages: 20

the first ballot they requested but never received. Indeed, several Plaintiffs-Appellees tried just
that, but the replacement ballot also failed to arrive in the mail on time. See dkt. 372, Declaration
of Katherine Kohlbeck ¶¶ 7-9; dkt. 373, Declaration of Diane Fergot ¶¶ 5-7; dkt. 373, Declaration
of Gary Fergot ¶¶ 5-7. Many voters would reasonably continue to wait for their initially-requested
mail-in ballot’s arrival until after the deadline to request a ballot and/or it is far too late to guarantee
a ballot can arrive timely by mail. Voters will also reasonably conclude they cannot safely vote in
person due to Covid-19. Dkt. 538 at 19. Because Wisconsin law fails to safeguard the right to vote
safely during this pandemic, judicial intervention is necessary.
Intervenor-Defendants-Appellants nevertheless claim that “[t]he district court essentially
overruled Luft.” See R. 9-1 at 16.9 This misrepresents both Luft and the limited, fact-specific nature
of the district court’s ruling here. Luft does not foreclose this action. The claim in One Wisconsin
Institute attacking Section 6.87(3)(d)’s restriction of email delivery to military and overseas voters
was based in large part on the disparate treatment of domestic civilian voters and did not consider
the burdens of voting safely during a pandemic. 198 F. Supp. 3d at 946 (“Plaintiffs contend that
this provision unjustifiably burdens voters who are traveling but who do not qualify as overseas
electors.”). Luft characterized that claim much the same way. 963 F.3d at 676-77. By contrast, the
Gear action focuses on the burdens facing all voters trying to cast ballots safely during the
pandemic but particularly those more vulnerable to Covid-19. This case was not based on the
disparate availability of email delivery but on the unique challenges of voting during this pandemic
and evidence of its impact election administration and USPS’s operations.
Intervenor-Defendants-Appellants do not contest the district court’s finding that the April
7 election was marred by absentee ballot processing and delivery problems or that the procedures

9

Citations to the docket in this action are to “R.__.”
10

A139

Case: 20-2835

Document: 46

Filed: 09/25/2020

Pages: 20

at municipal clerks’ offices and USPS will be insufficient to prevent “something go[ing] wrong
with the processing or mailing of their absentee ballots” for a portion of voters once again. See R.
9-1 at 15. They also appear to have abandoned their longstanding argument that it is speculative
Covid-19 transmission and mortality continue through Election Day. See dkt. 454 at 125. Instead,
they press their argument that Plaintiff-Appellees can safely vote in person, R. 9-1 at 17,
notwithstanding Covid-19’s death toll, extremely serious clinical manifestations (including longlasting health complications), and persistent transmission in Wisconsin. R. 9-1 at 17. But that
argument is undermined by the record epidemiological evidence, see infra, and the evidence of
unsafe conditions at polling places, see, e.g. dkt. 386, Declaration of Barbara Keresty ¶¶ 3- 7.
The Covid-19 pandemic poses a serious danger to in-person voters, particularly those at
higher risk.10 The threat of airborne transmission in indoor settings where people congregate is
real, substantial, and not meaningfully mitigated by any available protective measures. See dkt.
370, Declaration of Dr. Megan Murray (“Murray Decl.”) ¶¶ 6-20, 32-44. Forcing at-risk voters to
take this risk is per se a severe burden on the right to vote. Due to pre-symptomatic and
asymptomatic transmission of SARS-CoV-2, voters will cast their ballots in person at the polls not
knowing that they are Covid-19-positive and further transmit viral particles in large respiratory
droplets and much smaller aerosolized droplet nuclei that can stay suspended in the air for much
longer. Id. ¶¶ 8-9, 32-42; see also dkt. 440, Murray Tr. at 122:15-123:11. Because these
microdroplets stay aloft and travel farther, aerosolized transmission is the hardest to control via
interventions like sanitization, masks other than N95s, or social distancing. Id. at 123:11-17, 124:26, 125:9-126:3, 126:15-127:22, 129:9-130:6, 133:1-6; see dkt. 370, Murray Decl. ¶ 36; id. ¶¶ 48-

10

See dkt. 503, Sherman Reply Decl., Ex. 5, CDC, Coronavirus Disease 2019 (COVID-19), People
with Certain Medical Conditions, https://www.cdc.gov/coronavirus/2019-ncov/need-extraprecautions/people-with-medical-conditions.html (updated July 30, 2020).
11

A140

Case: 20-2835

Document: 46

Filed: 09/25/2020

Pages: 20

56; dkt. 490, Reply Declaration of Dr. Megan Murray (“Murray Reply. Decl.”) ¶¶ 1-3; id., Ex. 1
(Dr. Murray Deposition Exhibit 4). If at-risk voters cannot vote safely absentee by mail, they
cannot vote at all.
Moreover, COVID-19 transmission is increasing in Wisconsin. As the district court found,
“with flu season yet to arrive, Wisconsin has already broken numerous new case records this
month, with over 2,000 new cases reported on September 17, 2020, up from a daily average of
1,004 just one week prior.” See dkt. 538 at 20. The district court correctly found that “[c]ertain
individuals, such as those who are elderly, immunocompromised or suffer comorbidities, are at a
greater risk for complications from COVID-19” and that in-person appearances pose too great a
risk of Covid-19 exposure, therefore severely restricting their right to vote. Dkt. 538 at 10; see also
id. at 40.
Intervenor-Defendants-Appellants posit that Plaintiffs-Appellees can bring an as-applied
challenge should harm come to them. See R. 9-1 at 10-11. Such relief would be illusory. It would
be absurd and infeasible to require voters to file individual constitutional lawsuits to secure a
replacement absentee ballot when their initial request fails, just days before Election Day. The
Constitution requires a fail-safe that can actually prevent the violation.
If state lawmakers and executive officials need not wait until electoral fraud actually occurs
to create and enforce requirements they believe will prevent such crimes, see Crawford v. Marion
Cty. Election Bd., 553 U.S. 181, 194-96 (2008) (finding state anti-fraud interest even given absence
of “evidence of any such fraud actually occurring”), then voters need not wait until they suffer
grievous injury to their right to vote or health before securing preliminary injunctive relief. See,
e.g., Democratic Exec. Comm. of Fla. v. Lee, 915 F.3d 1312, 1319 (11th Cir. 2019) (granting
motion for preliminary injunction because “Florida’s signature-match scheme subjects vote-by-

12

A141

Case: 20-2835

Document: 46

Filed: 09/25/2020

Pages: 20

mail and provisional electors to the risk of disenfranchisement”) (emphasis added). To hold
otherwise would privilege credible risks to the state’s legitimate interest in protecting election
integrity while dismissing credible risks to voters’ rights to participate in their democracy. Such
disparate treatment of these competing interests would run counter to the Supreme Court’s
precedent, which emphasizes that preliminary injunctive relief is warranted “to prevent a
substantial risk of serious injury from ripening into actual harm.” Farmer v. Brennan, 511 U.S.
825, 845 (1994); Babbitt v. UFW Nat’l Union, 442 U.S. 289, 298 (1979).
The burdens on voters are severe when a timely-requested absentee ballot does not arrive
in the mail. As to the state’s interest, the Intervenor-Defendants-Appellants raise third parties’
interests, but actually misrepresent them. The only evidence in the record from municipal clerks’
offices are declarations noting that the duplication of electronically-delivered ballots is not an
extreme hardship but is justified by its enfranchising effects, and that the October 29 cut-off for
email delivery of replacement ballots under the preliminary injunction is sufficient time to ensure
adequate staffing at polling places to remake or duplicate ballots. See dkt. 382, Declaration of
Maribeth Witzel-Behl (“Witzel-Behl Decl.”) ¶ 14; dkt. 383, Declaration of Tara Coolidge
(“Coolidge Decl.”) Decl. ¶¶ 9-10; Declaration of Debra Salas (“Salas Decl.”) ¶ 16.
Any arguments that the injunctive relief could be exercised by voters who did not timely
request their ballots, see R. 9-1 at 16-17, can be resolved by slightly modifying the injunction.
Plaintiffs-Appellees suggested to the district court that voters exercising the fail-safe could be
required to apply some number of days in advance of the fail-safe period. Dkt. 505 at 34.
III.

The Intervenor-Defendants-Appellants will suffer no irreparable harm without a
stay.
The movants have failed to articulate any interest that will be irreparably harmed absent a

stay of the preliminary injunction. The RNC and RPW do not describe their interests or how they

13

A142

Case: 20-2835

Document: 46

Filed: 09/25/2020

Pages: 20

would be irreparably harmed if the motion to stay were denied, and instead “simply adopt[ed] the
Legislature’s motion and incorporate[d] those arguments” into their brief in support of their motion
to stay. R. 4 at 5. Accordingly, because the RNC/RPW have not identified any interests that will
be irreparably harmed, their motion fails. Nken, 556 U.S. at 434.
The Legislature raises a general, abstract harm to the state’s ability “to enforce its duly
enacted” election laws. R. 9-1 at 20. It also claims, without evidence, that the electronic
transmission of replacement ballots “will likewise sow needless confusion into Wisconsin’s
election” because “it will be difficult for local election officials statewide to determine which
voters qualify for the district court’s judicial bypass.” Id. at 22. It also states that “processing faxed
and mailed ballots creates serious practical problems.” Id. These are of course third parties’
purported administrative concerns, not the Legislature’s or the RNC and RPW’s.
“As the party invoking this Court’s jurisdiction, [the Legislature] bears the burden of doing
more than simply alleging a nonobvious harm.” Bethune-Hill, 139 S. Ct. at 1955 (citation,
quotation marks, alteration omitted). Yet, the Legislature’s arguments as to how it will be
irreparably harmed by the fail-safe remedy are speculative and in direct conflict with the record.
Multiple clerks have submitted declarations explaining that election officials can determine which
voters have been mailed a ballot by looking up the voter’s record in MyVote, then cancel the
mailed ballot in the system before emailing a replacement ballot. See dkt. 382, ¶ 11; dkt. 383, ¶
11; dkt. 384, ¶ 14. Even if a voter receives, completes, and returns the initial ballot, it will not
count because it bears a unique numerical code and will have been cancelled. Dkt. 384, ¶ 14. It is
the professional opinion of these clerks—the officials responsible for issuing ballots to voters—
that any administrative burdens caused by the fail-safe option constitute “minor inconveniences”

14

A143

Case: 20-2835

Document: 46

Filed: 09/25/2020

Pages: 20

and do not render this remedy infeasible or impractical, much less irreparably harmful. See dkt.
383, ¶ 10; dkt. 384, ¶ 16.
IV.

The balance of the equities and the public interest favor denying the IntervenorDefendants-Appellants’ motion for a stay.
Appellants argue Purcell v. Gonzalez, 549 U.S. 1 (2006) instructs this Court to stay its hand

this close to an election. R.9-1 at 20-21. But that case did not create a per se rule requiring courts
to reject any request for injunctive relief as to voting rules brought within a certain timeframe
before an election. Appellants’ argument is divorced from the animating concerns in the Supreme
Court’s original decision, which directed federal courts to weigh “considerations specific to
election cases”—namely the risks of confusing voters, increasing administrative burdens, and
suppressing voter turnout—amongst the normal equitable factors for issuance of an injunction.
Purcell, 549 U.S. at 4-5.
First, a close review of Purcell and subsequent cases demonstrate that Purcell does not bar
injunctive relief when the relief ordered would vindicate voters’ rights and prevent
disenfranchisement. The district court’s preliminary injunction creates a fail-safe option for voters
who do not receive a ballot in the mail. This will enable, not deter, voter participation and turnout.
Circuit courts have upheld injunctions issued shortly before an election where the challenged law
or rule would have the effect of disenfranchising voters. See League of Women Voters of the United
States v. Newby, 838 F.3d 1, 12 (D.C. Cir. 2016); Obama for Am. v. Husted, 697 F.3d 423, 436–
37 (6th Cir. 2012); U.S. Student Ass’n Fdn. v. Land, 546 F.3d 373, 387 (6th Cir. 2008).
Second, Appellants cannot invoke the purported risk of voter confusion as support for rules
that disenfranchise and burden voters. Purcell should be taken at its word; the Supreme Court was
deeply concerned with the risk of suppressing turnout. 549 U.S. at 4-5 (citing the “consequent
incentive to remain away from the polls”). But here, the requested injunction will facilitate and

15

A144

Case: 20-2835

Document: 46

Filed: 09/25/2020

Pages: 20

increase voter turnout. Any confusion over an injunction that benefits voters and facilitates their
participation hurts voters, not Defendants. Cf. Frank v. Walker, No. 11-C-1128, slip op. at 38-39
(E.D. Wis. July 19, 2016).
The risk of voter confusion in this case approaches zero. There is still time to adjudicate
this dispute before this relief takes effect on October 22. While it would be best to have this
resolved some time in advance of October 22, it is most important that clerks offer it as an option
for replacement ballot delivery during the fail-safe period. This case is clearly distinguishable from
the recent order in Common Cause v. Thomsen, No. 3:19-cv-323, dkt. 51, at 3 (W.D. Wis. Sept.
23, 2020), in which the Court expressed concern that an “inevitable appeal” and potentially
changing rulings would confuse college student voters as to which college IDs are valid. There is
no such risk of voter confusion here, particularly because email delivery of absentee ballots has
previously been available in Wisconsin for twenty years and available to all voters upon request
over the last four years, minus the last two months. Voters would be much more confused if their
ballot did not arrive in the mail and a replacement was also stalled. Further, unlike in Common
Cause, there is no action the voter needs to take here, like procuring a compliant student ID; voters
will simply learn what their options are when they contact their municipal clerks’ office.
Third, Intervenor-Defendants-Appellants have no basis to claim that this remedy will
increase WEC’s or municipal clerks’ burdens. In April, this Court and the U.S. Supreme Court
issued rulings days before the April 7 election. See Democratic Nat’l Comm. v. Republican Nat’l
Comm., No. 20-1538 (7th Cir. Apr. 3, 2020), stayed in part, 140 S. Ct. 1205 (2020). Despite the
legal battles, WEC has continually and successfully issued new guidance, developed new policies,
and updated its websites and materials throughout the Covid-19 pandemic. In the run-up to the
April 7 election, WEC successfully issued over fifty communications and guidance documents to

16

A145

Case: 20-2835

Document: 46

Filed: 09/25/2020

Pages: 20

clerks to keep pace with the unprecedented and rapidly-evolving pandemic. See dkt. 446,
Declaration of Meagan Wolfe ¶ 23. Such extensive administrative responses to the pandemic
proved manageable for the WEC and did not unduly confuse voters in either the April election or
elections in past years.
Finally, the Supreme Court has soundly rejected arguments that increased administrative
burdens and costs override First Amendment rights. See Tashjian v. Republican Party of
Connecticut, 479 U.S. 208, 218 (1986) (“[T]he possibility of future increases in the cost of
administering the election system is not a sufficient basis here for infringing appellees’ First
Amendment rights.”). This principle should apply with maximum force in a case that concerns
voters’ rights and where the relief will not require any training of municipal clerks or poll workers.
Poll workers are not involved in absentee ballot delivery, and municipal clerks already have
experience with email delivery. Granted, remaking or duplicating ballots at polling places is
necessary when a ballot is electronically transmitted so that the ballot can be scanned and tabulated,
but the net result will overwhelmingly be less burdensome for administrators and voters alike. The
Intervenor-Defendants-Appellants’ arguments are self-defeating. They claim that absentee ballot
preparation and delivery failures will be “extremely rare,” dkt. 454 at 43, but then this fail-safe
would be exercised by many fewer voters and impose a minimal burden. The only clerks who
testified in this case have stated that this burden is a “minor inconvenience” and well worth
safeguarding voters’ rights.
Accordingly, the public interest strongly favors affirming this narrow relief to protect
voters’ rights.
CONCLUSION
Respectfully, the motion to stay should be denied.

17

A146

Case: 20-2835

Document: 46

Filed: 09/25/2020

DATED: September 25, 2020

Pages: 20

Respectfully submitted,
/s/ Jon Sherman
JON SHERMAN
MICHELLE KANTER COHEN
CECILIA AGUILERA
FAIR ELECTIONS CENTER
1825 K St. NW, Suite 450
Washington, DC 20006
jsherman@fairelectionscenter.org
mkantercohen@fairelectionscenter.org
caguilera@fairelectionscenter.org
(202) 331-0114
DOUGLAS M. POLAND
JEFFREY A. MANDELL
STAFFORD ROSENBAUM LLP
222 West Washington Avenue, Suite 900
Post Office Box 1784
Madison, Wisconsin 53701-1784
dpoland@staffordlaw.com
jmandell@staffordlaw.com
(608) 256-0226
Attorneys for Plaintiffs-Appellees

18

A147

Case: 20-2835

Document: 46

Filed: 09/25/2020

Pages: 20

CERTIFICATE OF COMPLIANCE
Pursuant to Federal Rule of Appellate Procedure 32(g), I certify the following:
1.

This brief complies with the type-volume limitations of Fed. R. App. P. 27(d)(2)

because this brief contains 5,197 words, excluding the parts of the brief exempted by Fed. R.
App. P. 32(f).
2.

This brief complies with all typeface requirements of Fed. R. App. P. 27(d)(1)(E)

and 32(a)(5)-(6) because this brief has been prepared in a proportionally spaced typeface using
Microsoft Word in Times New Roman 12-point font.
Dated: September 25, 2020
/s/ Jon Sherman
Jon Sherman

19

A148

Case: 20-2835

Document: 46

Filed: 09/25/2020

Pages: 20

CERTIFICATE OF SERVICE
I hereby certify that on September 25, 2020, I electronically filed the foregoing with the
Clerk of the Court of the United States Court of Appeals for the Seventh Circuit by using the
CM/ECF system.
I further certify that all participants in the case are registered CM/ECF users and that
service will be accomplished by the CM/ECF system.
Dated: September 25, 2020

/s/ Jon Sherman
Jon Sherman

20

A149

Case: 3:15-cv-00324-jdp Document #: 235 Filed: 08/01/16 Page 1 of 3

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF WISCONSIN
ONE WISCONSIN INSTITUTE, INC.,
CITIZEN ACTION OF WISCONSIN
EDUCATION FUND, INC., RENEE M.
GAGNER, ANITA JOHNSON, CODY R.
NELSON, JENNIFER S. TASSE, SCOTT
T. TRINDL, MICHAEL R. WILDER,
JOHNNYM. RANDLE, DAVID
WALKER, DAVID APONTE, and
CASSANDRA M. SILAS,

JUDGMENT IN A CIVIL CASE
Case No. 15-cv-324-jdp

Plaintiffs,
v.
MARK L. THOMSEN, ANN S. JACOBS,
BEVERLY R. GILL, JULIE M. GLANCEY,
STEVE IGNG, DON M. MILLS,
MICHAEL HMS, MARIC GOTTLIEB,
and KRISTINA BOARDMAN, all in their
official capacities,
Defendants.

This action came before the court for consideration with District Judge
James D. Peterson presiding. The issues have been considered and a decision has
been rendered.

IT IS ORDERED AND ADJUDGED that judgment is entered in favor of plaintiffs as
follows:
1. As to Count 1 of the Second Amended Complaint:
a. The challenged provisions limiting in-person absentee voting to one location
per municipality violate the Voting Rights Act; and

A150

Case: 3:15-cv-00324-jdp Document #: 235 Filed: 08/01/16 Page 2 of 3
Judgment in a Civil Case

Page 2

b. The challenged provisions restricting the hours and days for in-person absentee
voting, except for the provision preventing in-person absentee voting from
occurring on the Monday before an election, violate the Voting Rights Act.
2. As to Count 2 of the Second Amended Complaint:
a. The challenged provisions limiting in-person absentee voting to one location
per municipality are unconstitutional under the First and Fourteenth
Amendments to the United States Constitution;
b. The challenged provisions restricting the hours and days for in-person absentee
voting, except for the provision preventing in-person absentee voting from
occurring on the Monday before an election, are unconstitutional under the
First and Fourteenth Amendments to the United States Constitution;
c. The challenged provisions requiring that "dorm lists" to be used as proof of
residence include citizenship information are unconstitutional under the First
and Fourteenth Amendments to the United States Constitution;
d. The challenged provisions increasing the durational residency requirement
from 10 days to 28 days are unconstitutional under the First and Fourteenth
Amendments to the United States Constitution;
e. The challenged provisions prohibiting municipal clerks from distributing
absentee ballots by fax or email are unconstitutional under the First and
Fourteenth Amendments to the United States Constitution; and
f.

The IDPP as implemented is unconstitutional under the First and Fourteenth
Amendments to the United States Constitution.

3. As to Count 3 of the Second Amended Complaint, the challenged provisions
prohibiting voters from using expired, but otherwise qualifying, student IDs are
unconstitutional under the Fourteenth Amendment to the United States
Constitution.
4. As to Count 5 of the Second Amended Complaint, the challenged provisions of
2013 Wis. Act 146 are unconstitutional under the Fourteenth and Fifteenth
Amendments to the United States Constitution.
IT rs FURTHER ORDERED AND ADJUDGED that:
1. Plaintiffs' request for a permanent injunction is GRANTED, and defendants are
permanently enjoined from enforcing any of the provisions identified above;
2. Defendants, and their officers, agents, servants, employees, attorneys, and all those
acting in active concert or participation with them, or having actual or implicit
knowledge of this judgment, are ORDERED to:

A151

Case: 3:15-cv-00324-jdp Document #: 235 Filed: 08/01/16 Page 3 of 3
Judgment in a Civil Case

Page 3

a. Promptly issue a credential valid as a voting ID to any person who enters the
IDPP or who has a petition pending;
b. Provide that any such credential has a term of expiration equivalent to that of
a Wisconsin driver license or photo ID and will not be cancelled without cause;
c. Inform the general public that credentials valid for voting will be issued to
persons who enter the IDPP;
d. Further reform the IDPP so that qualified electors will receive a credential valid
for voting without undue burden; and
3. Provisions 2.a. through 2.d., immediately above, are to be effectuated within 30
days so that they will be in place and available for voters well before the November
8, 2016, election.
IT IS FURTHER ORDERED AND ADJUDGED that judgment is entered in favor of
defendants on all remaining claims in the Second Amended Complaint.

sr

Approved as to form this _/_ _ day of August, 2016.

District Judge

I

Peter Oppeneer, Clerk of Court

Date

A152

Case: 3:15-cv-00324-jdp Document #: 240 Filed: 08/03/16 Page 1 of 2

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF WISCONSIN
ONE WISCONSIN INSTITUTE, INC,
et al.,
Plaintiffs,
v.

Case No. 15-CV-324

MARK L. THOMSEN, et al.,
Defendants.
NOTICE OF CROSS 1-APPEAL
0F

PLEASE TAKE NOTICE that Defendants Mark L. Thomsen,
Ann S. Jacobs, Beverly R. Gill, Julie M. Glancey, Steve King, Don M. Millis,
Michael Haas, Mark Gottlieb, and Kristina Boardman, by their attorneys,
Attorney General Brad D. Schimel and Assistant Attorneys General
S. Michael Murphy, Gabe Johnson-Karp, and Jody J. Schmelzer, appeal to
the United States Court of Appeals for the Seventh Circuit from the Decision
and Order entered by this Court on July 29, 2016. (Dkt. 234) and the
Judgment entered by this Court on August 1, 2016 (Dkt. 235).

Plaintiffs filed a notice of appeal on August 2, 2016. (Dkt. 236.) Under Federal
Rule of Appellate Procedure 28.1(b) the party who first files a notice of appeal is the
appellant and the later-filing party is the cross-appellant.

1

A153

Case: 3:15-cv-00324-jdp Document #: 240 Filed: 08/03/16 Page 2 of 2

A true and correct copy of the Decision and Order is being filed with
this Notice of Appeal, along with a Docketing Statement. The appropriate
filing fee is being paid concurrent with this Notice of Appeal.
Dated this 3rd day of August, 2016.
Respectfully submitted,
BRAD D. SCHIMEL
Wisconsin Attorney General
/s/S. Michael Murphy
S. MICHAEL MURPHY
Assistant Attorney General
State Bar #1078149
GABE JOHNSON-KARP
Assistant Attorney General
State Bar #1084731
JODY J. SCHMELZER
Assistant Attorney General
State Bar #1027796
Attorneys for Defendants
Wisconsin Department of Justice
Post Office Box 7857
Madison, Wisconsin 53707-7857
(608) 266-5457 (Murphy)
(608) 267-8904 (Johnson-Karp)
(608) 266-3094 (Schmelzer)
(608) 267-2223 (Fax)
murphysm@doj.state.wi.us
johnsonkarpg@doj.state.wi.us
schmelzerjj@doj.state.wi.us

A154

No. 16-3091 [Consolidated with 16-3083]

In the United States Court of Appeals
FOR THE SEVENTH CIRCUIT

ONE WISCONSIN INSTITUTE, INC., ET AL.,
PLAINTIFFS-APPELLEES, CROSS-APPELLANTS,

v.
MARK L. THOMSEN, ET AL.,
DEFENDANTS-APPELLANTS, CROSS-APPELLEES.
Appeal From The United States District Court
For The Western District Of Wisconsin, No. 3:15-cv-324,
The Honorable James D. Peterson, Presiding
DEFENDANTS-APPELLANTS, CROSS-APPELLEES’
EMERGENCY MOTION TO STAY THE INJUNCTION PENDING APPEAL
BRAD D. SCHIMEL
Wisconsin Attorney General
MISHA TSEYTLIN
Solicitor General
Counsel of Record
RYAN J. WALSH
Chief Deputy Solicitor General
S. MICHAEL MURPHY
GABE JOHNSON-KARP
Assistant Attorneys General
Wisconsin Department of Justice
17 West Main Street
P.O. Box 7857
Madison, Wisconsin 53707-7857
tseytlinm@doj.state.wi.us
(608) 267-9323

Attorneys for Defendants-Appellants, Cross-Appellees

A155

TABLE OF CONTENTS
INTRODUCTION .......................................................................................................... 1
STATEMENT ................................................................................................................. 2
I.

The District Court Facially Enjoins Seven Election Provisions ...................... 2

II. The District Court Declines To Stay Its Across-The-Board Injunctions
Of The Seven Invalidated Laws ........................................................................ 5
LEGAL STANDARD...................................................................................................... 5
ARGUMENT .................................................................................................................. 6
I.

Defendants Are Very Likely To Succeed On Appeal ........................................ 6

II. The Injunction Will Irreparably Harm The State And Public, And A
Stay Will Cause Plaintiffs No Harm ............................................................... 13
CONCLUSION............................................................................................................. 17

A156

INTRODUCTION
The district court in this case enjoined seven of Wisconsin’s election laws on
their face. These laws govern ordinary election logistics, and do so in a manner consistent with both nationwide practice and sound election administration. They include such banal provisions as a 28-day residency requirement (where 30 days is a
common standard), rules governing the time and location for no-questions-asked inperson absentee voting (a permissive type of absentee voting many States do not even
offer), and a mandate that clerks distribute absentee ballots by mail. The court invalidated all of these rules even though a longer residency requirement would have been
lawful, see, e.g., Marston v. Lewis, 410 U.S. 679, 680 (1973) (per curiam) (upholding a
50-day residency requirement), and even though there is no constitutional right to
unrestricted absentee voting, see Griffin v. Roupas, 385 F.3d 1128, 1129, 1130–32
(7th Cir. 2004); McDonald v. Bd. of Election Comm’rs of Chicago, 394 U.S. 802, 807–
08 (1969).
Without a stay, the district court’s “disruption of the state’s electoral system
will cause irreparable injury” to Wisconsin and its citizens. Frank v. Walker, No. 163003, Dkt. 42, at 1 (7th Cir. Aug. 10, 2016) (order granting stay). The court’s judgment
upsets the status quo, overturning a regime under which Wisconsinites have voted
for years. Forcing the State to put its entirely reasonable, commonplace election-administration rules on hold will waste the time and resources of the State’s election
officials and county clerks’ offices, requiring a revamping of their election publications, official forms, website notices, training materials, polling schedules, and more.

A157

Meanwhile, the risk of any harm to Plaintiffs from a stay is minimal, given that even
the district court concluded that most of these provisions impose only meager burdens.
In light of the upcoming deadlines in Wisconsin’s election laws—especially the
Wednesday, August 31, 2016, date for printing and mailing absentee ballots, see infra
pp. 15–18—the State respectfully asks for a decision on this stay motion as soon as
practicable, but preferably no later than Friday, August 26.
STATEMENT
I.

The District Court Facially Enjoins Seven Election Provisions
Over the last decade, Wisconsin has adopted (and, in one case, declined to

adopt) several election rules relevant to this appeal. On July 29, 2016, the district
court invalidated and enjoined seven laws on their face. R.234:118–19.1
28-day durational residency law. Wisconsin law requires that residents who
move within Wisconsin fewer than 28 days before an election vote in their former
municipalities (or by absentee), but residents who move into Wisconsin from out of
State must have lived in Wisconsin for at least 28 days before voting here (except if
casting a ballot for the offices of president and vice president), R.234:74. Wis. Stat.
§§ 6.02, 6.15(1); 6.85. The 28-day minimum is slightly more favorable to voters than
the average of the 25 States and the District of Columbia that have reported a datespecific residency threshold. See R.86:23–24. The district court enjoined this provision

1

Citations of the district court record are: “R.[ECF Entry Number]:[Page Number].”

-2-

A158

under the “Anderson-Burdick” test—derived from the First and Fourteenth Amendments, see Burdick v. Takushi, 504 U.S. 428, 434 (1992)—holding that the burdens
that the 28-day rule imposed were not outweighed by the State’s interests. R.234:53–
54; 74–79. The court then mandated that the State impose a 10-day residency requirement, which the court derived from Wisconsin’s prior law.
Three laws providing for the locations and times for in-person absentee voting.
Wisconsin has a highly permissive in-person absentee voting program that is available “for any reason” to almost any eligible voter who is “unable or unwilling” to vote
in person. Wis. Stat. § 6.85(1). Such a no-questions-asked in-person absentee voting
program is not available in 23 States.2 The district court invalidated three provisions
of that voter-friendly regime, even though none of the provisions make this type of
absentee voting unavailable to any voter.
Wisconsin law permits municipalities to designate an alternate site for absentee voting. Wis. Stat. § 6.855(1). Some in the Legislature preferred that there be more
than one site, so they introduced Senate Bill 91, which “would have permitted municipalities to open multiple in-person absentee voting locations.” R.234:10. The Bill was
never signed into law, yet the district court held that the Anderson-Burdick doctrine
requires the reforms as proposed in Senate Bill 91. R.234:61–62.
Wisconsin law also directs municipalities to offer in-person absentee voting between the third Monday preceding an election day and the Friday before election day,

National Conference of State Legislatures, Absentee and Early Voting, available at
http://goo.gl/uSPUZx.
2

-3-

A159

and makes the timing of in-person absentee voting consistent across the State, limiting it generally to weekdays between 8 a.m. and 7 p.m. Wis. Stat. § 6.86(1)(b). The
court held that these timing rules were unlawful because the State could not justify
the “moderate burdens” they supposedly imposed. R.234:56, 62. The court also held
the provisions invalid under the Voting Rights Act. R.234:109–10. And the court held
that the law requiring uniform timing of in-person absentee voting intentionally discriminated on the basis of race, in violation of the Fifteenth Amendment, because, in
the court’s view, the legislative history showed that the law was enacted with Milwaukee and other “large municipalities” in mind. R.234:45.
Law requiring that absentee ballots be sent by regular mail. Before 2011, municipal clerks transmitted some absentee ballots to voters “by fax or email,” in addition to regular mail. R.234:85. This put a demand on clerk resources and exposed
absentees’ votes to election officials, who had to “re-create electronically returned ballots in paper form on election day.” R.234:85. Wisconsin thus enacted a law prohibiting “municipal clerks from faxing or emailing absentee ballots to absentee voters
other than overseas and military voters.” R.234:9. The court struck down this law
under Anderson-Burdick, concluding that it “places a moderate burden on voters who
are traveling” but that it lacks sufficient “justification[s].” R.234:84.
Two laws relating to voting by college students. Under Wisconsin law, a college
student may establish residency for voter registration by relying on a certified list,
provided at the university’s option, of those who live in college housing. Wis. Stat.

-4-

A160

§ 6.34(3)(a)7.b (“dorm lists”). To also confirm students’ citizenship, Wisconsin law requires that any dorm list include only U.S. citizens. Wis. Stat. § 6.34(3)(a)7. The court
held that this rule put “only slight” burdens on students, yet, because the court
thought the rule not even “minimally rational,” it was held invalid under the Anderson-Burdick test. R.234:69.
Finally, Wisconsin law provides that students may use current, but not expired, student IDs to satisfy the photo ID requirement. Wis. Stat. § 5.02(6m)(f). The
court concluded that this rule failed rational-basis review. R.234:112–15.
II.

The District Court Declines To Stay Its Across-The-Board Injunctions
Of The Seven Invalidated Laws
Defendants asked the district court to stay its judgment and injunction, point-

ing out that the court’s rulings were likely to be reversed and would cause the State
substantial harm while also confusing voters. R.241:1–14. On August 11, 2016, the
district court denied the motion in relevant part, reiterating its view that the invalidated laws are unconstitutional and adding that no irreparable harm would befall
the State during the pendency of the appeal. R.255:1–12.3
LEGAL STANDARD
Presented with a motion for stay pending appeal, this Court “consider[s] the
moving party’s likelihood of success on the merits, the irreparable harm that will

Defendants also asked the court to stay an as-applied injunction of Wisconsin’s ID
Petition Process (“IDPP”), which relates to the State’s photo ID law, see 2011 Wis. Act 23.
The district court granted, in part, Defendants’ stay motion as to that portion of the injunction. R.234:2. Accordingly, this motion will not address the IDPP decision, although Defendants intend to challenge the district court’s injunction with regard to the IDPP in their merits
briefing.
3

-5-

A161

result to each side if the stay is either granted or denied in error, and whether the
public interest favors one side or the other. . . . [A] sliding scale approach applies; the
greater the moving party’s likelihood of success on the merits, the less heavily the
balance of harms must weigh in its favor, and vice versa.” In re A & F Enters., Inc. II,
742 F.3d 763, 766 (7th Cir. 2014) (citations omitted).
ARGUMENT
I.

Defendants Are Very Likely To Succeed On Appeal
A. The court held seven of Wisconsin’s laws facially invalid under the First

and/or Fourteenth Amendments, principally under the Anderson-Burdick test. But
the court’s analysis violated at least three principles: First, to warrant an “acrossthe-board injunction” under Anderson-Burdick, an election regulation must unduly
burden the right to vote not of discrete pockets of electors but of voters generally,
Frank v. Walker, 819 F.3d 384, 386 (7th Cir. 2016) (Frank II) (“[T]he burden some
voters face[ ]” under a challenged law “[can]not prevent the state from applying the
law generally.”); see Burdick, 504 U.S. at 436–37; see also Crawford v. Marion Cnty.
Election Bd., 553 U.S. 181, 202–03 (2008) (opinion of Stevens, J.) (courts must consider “the statute’s broad application to all [of the State’s] voters”). Second, “the usual
burdens of voting” set the objective benchmark of an election regulation’s severity,
Crawford, 553 U.S. at 198 (plurality) (holding in context of facial challenge that, “for
most voters,” getting an ID is “surely” not “a substantial burden” (emphasis added)).
Third, non-severe burdens on voting “trigger less exacting review, and a State’s ‘im-

-6-

A162

portant regulatory interests’ will usually be enough to justify ‘reasonable, nondiscriminatory restrictions,’” Timmons v. Twin Cities Area New Party, 520 U.S. 351, 358
(1997) (citing Burdick, 504 U.S. at 434), meaning that mere rational-basis review
usually applies, see, e.g., Citizens for Legislative Choice v. Miller, 144 F.3d 916, 921
(6th Cir. 1998), just as it does in many equal-protection challenges.
28-day durational residency law. The district court concluded that the 28-day
rule imposed only “a moderate burden on voters,” but then claimed three pages later
that the burden was “severe” in light of its supposed impact on some poor and transient voters, R.234:74–77. Regardless of which (if any) of these contradictory views
one accepts (in reality, any “burden” is mild: Wisconsin’s rule is friendlier to residents
than similar requirements in many other States, see supra pp. 3–4), there is no possible claim that the 28-day rule even prevents “a significant number of voters from
participating in [State] elections in a meaningful manner,” Crawford, 553 U.S. at 190
(opinion of Stevens, J.) (describing the basis of Justice Kennedy’s dissent in Timmons), or that it lacks a “plainly legitimate sweep,” id. at 202–03. Moreover, the district court did not account for the State’s interest in efficient, secure election
administration, R.206:64–66 (and record citations therein),4 which is more than
enough to justify this “reasonable, nondiscriminatory” rule. Timmons, 520 U.S. at

R.206 is the defendants’ post-trial brief. Citations in this brief refer to the page number of the brief on the bottom of the page and not to the ECF page numbers on the top of each
page.
4

-7-

A163

358. Notably, the Supreme Court has rejected an equal-protection challenge to a residency requirement of 50 days, explaining that “[S]tates have valid and sufficient interests in providing for some period of time [for durational residency]—prior to an
election—in order to prepare adequate voter records and protect its electoral processes from possible frauds.” Marston, 410 U.S. at 680. Wisconsin’s more voterfriendly law is lawful under the same rationale.
Three laws providing for the locations and times for in-person absentee voting.
Wisconsin has enacted three relevant laws that impose certain limitations on the
State’s no-questions-asked in-person absentee voting regime—a regime that many
States do not offer. See supra p. 4. These three laws limit municipalities to one alternate site for in-person absentee voting (aside from the office of the municipal clerk),
provide for a 10-day in-person absentee voting window, and mandate uniform rules
for in-person absentee voting hours. See supra pp. 4–5. The court evaluated these inperson absentee timing and location rules as applied to certain subgroups’ “[p]re-existing disadvantages.” R.234:57. What was missing from the district court’s analysis
was any explanation of how these in-person absentee voting rules impose burdens on
the electorate in general, Crawford, 553 U.S. at 202–03 (plurality), or involve greater
burdens than those involved in election-day in-person voting, id. at 198 (plurality).
The court also concluded that any burden these laws placed upon voters was “moderate,” R.234:56, but then impermissibly invalidated them on their face, R.234:118,
even though these banal laws plainly served the legitimate interest of reducing burdens on election officials before election day. R.206:54–60 (and record citations

-8-

A164

therein); see Timmons, 520 U.S. at 358. The court further did not adequately address
the point that no-questions-asked in-person absentee voting is not constitutionally
required at all, see Griffin, 385 F.3d at 1129, 1131, McDonald, 394 U.S. at 807–08,
meaning that Wisconsin has already provided voters with more in-person absentee
voting rights than the Constitution mandates.
Law requiring that absentee ballots must be sent by regular mail. The court
invalidated a law requiring that most absentee ballots be sent only by regular mail—
rather than by fax or email—because the court believed that this “moderate[ly]” burdened voters “who are traveling [around election day], particularly [those] outside of
the country or in locations with unreliable mail delivery.” R.234:84. But facial invalidation based upon a “moderate” burden on only an exceedingly small group of voters
is forbidden. Crawford, 553 U.S. at 190 (plurality). The district court further erred by
disregarding the State’s interest in reducing burdens on clerks’ offices and alleviating
concerns that actual votes not be exposed to election officials, see, e.g., R.86:19, which
interests easily sustain a “reasonable, nondiscriminatory” rule. Timmons, 520 U.S.
at 358. Anyway, there is no general constitutional right to unrestricted absentee voting to begin with. See Griffin, 385 F.3d at 1129; McDonald, 394 U.S. at 807.
Two laws relating to voting by college students. The court also invalidated a
law providing that if a university submits a dorm list for voter-registration purposes,
such a list must confirm that the students are U.S. citizens. The court stated that the
“burdens” this imposed were “only slight,” but concluded that the rule was not “min-

-9-

A165

imally rational,” in part because “none of the state’s other methods for proving residence require voters to ‘confirm’ their U.S. citizenship beyond signing” a form.
R.234:69. But a law “aimed at remedying a problem need not entirely eliminate the
problem”—“reform may take one step at a time.” Greater Chicago Combine & Ctr.,
Inc. v. City of Chicago, 431 F.3d 1065, 1072 (7th Cir. 2005) (citation omitted). Regardless, this rule cannot plausibly be described as a meaningful burden: college students
continue to have numerous options to prove their residency, the same options available to all voters in general. R.217:133. Even if the provision does impose a “burden,”
albeit “only [a] slight” one, the district court also erroneously failed to consider
whether the burden fell upon voters generally—or even all student voters—before
striking it down on its face. See Crawford, 553 U.S. at 202–03 (plurality).
The court made a similar error when it invalidated, on mere rational-basis review, the provision deeming non-expired student IDs acceptable for purposes of the
photo ID law. R.234:112–15. Permitting current—as opposed to expired—student IDs
is not even arguably “discriminatory” and is, in any event, clearly “related to [the]
legitimate state interest” served by a voter ID law. Schroeder v. Hamilton Sch. Dist.,
282 F.3d 946, 950–51 (7th Cir. 2002).
B. The court also held that certain in-person absentee timing rules violate the
Fifteenth Amendment’s ban on intentional race discrimination because, when the
Legislature passed Act 146, it was focused upon in-person absentee voting in Milwaukee and other “large municipalities.” R.234:45. That holding has several flaws.

- 10 -

A166

To begin with, the district court rested its finding of discrimination on statements from two legislators (out of 132) “objecting to the extended hours for in-person
absentee voting in Milwaukee and Madison,” and one election official testifying
secondhand as to what he thought the Legislature knew about the law’s possible effects. R.234:42–45. The court’s theory was that, by “specifically” regulating “large
municipalities,” the Legislature was targeting “African Americans and Latinos” by
proxy. R.234:45. This does not add up. The challenged rules also affect Milwaukee’s
non-black and non-Hispanic voters, who make up a substantial part of the city.5 And
in Madison and many other “large municipalities,” African Americans and Latinos
are disproportionately underrepresented relative to national averages6—sometimes
vastly.7 Far stronger “large municipality” theories of intentional discrimination have
failed. See Hearne, 185 F.3d at 776 (rejecting equal-protection argument that legislation applying only to Chicago targeted African Americans by “proxy”); Moore v. Detroit Sch. Reform Bd., 293 F.3d 352, 370 (6th Cir. 2002) (holding that, by restricting
the voting rights of only Detroit residents, “the Michigan legislators sought to address
a problem that they perceived to exist in [places] with large populations, not that they
wanted to disenfranchise African-Americans”).

U.S. Census Bureau (USCB), QuickFacts: Milwaukee city, Wisconsin, available at
http://goo.gl/ZRgPJL.
6
E.g., U.S. Census Bureau, QuickFacts: Madison city, Wisconsin, available at
https://goo.gl/Xq5Vrt.
7 E.g.,
U.S. Census Bureau, QuickFacts: Appleton city, Wisconsin, available at
https://goo.gl/5kVLkb; U.S. Census Bureau, Quickfacts: Eau Claire city, Wisconsin, available
at https://goo.gl/y69PNQ.
5

- 11 -

A167

In any event, under the district court’s own theory, the law was not racially
motivated. The court concluded that the Legislature’s “intent” had been at worst
merely “to secure [a] partisan advantage,” R.234:45, not to harm certain racial minorities, which would mean that the Legislature had been at worst indifferent to the
law’s supposed disparate racial impact. This point alone should have doomed any
claim of discriminatory purpose. See Bond v. Atkinson, 728 F.3d 690, 693 (7th Cir.
2013) (“[I]t is not enough to show that” the Legislature “knew” that members of certain racial groups “would fare worse than [white voters]”; must show “that the [Legislature] adopted that policy because of, not in spite of or with indifference to,” any
disparate racial effect). Compounding its error, the court did not dismiss the Legislature’s race-neutral justifications of the law as simply “pretextual,” David K. v. Lane,
839 F.2d 1265, 1272 (7th Cir. 1988), but instead as “meager.” R.234:45.
C. The court also concluded that the 28-day residency rule violated Section 2
of the Voting Rights Act (the Act) because, in the court’s view, the rule imposed a
burden on voting closely linked to “historical conditions of discrimination” caused in
particular by the City of Milwaukee. R.234:107. But Frank I held that “units of government are responsible for their own discrimination” under Section 2. Frank v.
Walker, 768 F.3d 744, 753 (7th Cir. 2014) (Frank I). While the district court seemed
to recognize that Milwaukee’s discrimination was “technically not the state’s own discrimination,” it thought the “broad remedial purpose” of the Act trumped what it described as Frank I’s “rigid distinction.” R.234:107. But the district court had no
authority to question Frank I’s “distinction[s],” rigid or otherwise.

- 12 -

A168

The court alternatively held that it was enough that Milwaukee’s discrimination “interact[ed]” with the 28-day rule to produce “disparate burdens,” R.234:107–
08, but such “interaction” hardly establishes the State’s supposed “purpose” of curtailing minority voting, Frank I, 768 F.3d at 753–54. In any event, the Act’s 1970
Amendments permit States to close registration 30 days before elections for federal
office, which supports the conclusion that Wisconsin’s less restrictive 28-day rule
(which does not even apply to votes for president or vice president) is lawful under
Section 2. See 52 U.S.C. § 20507(a).
II.

The Injunction Will Irreparably Harm The State And Public, And A
Stay Will Cause Plaintiffs No Harm
A stay of the district court’s sweeping injunction would “simply . . . preserve

the status quo.” Flynn v. Sandahl, 58 F.3d 283, 287 (7th Cir. 1995). Most of the enjoined laws have been on the books for years. With fewer than 90 days remaining
before the November elections, and “the state’s election machinery already in progress,” Reynolds v. Sims, 377 U.S. 533, 585 (1964), requiring clerks’ offices and election administrators to discard their election manuals and comply immediately with
the court’s wide-ranging injunction would waste public resources and “result in voter
confusion,” Purcell v. Gonzalez, 549 U.S. 1, 4–5 (2006). Meanwhile, any risk of temporary harm to Plaintiffs from a stay is either minimal or speculative.
Declining to stay the district court’s decision and injunction would prevent the
State from “effectuating” its laws, itself “a form of irreparable injury,” Maryland v.
King, 133 S. Ct. 1, 3 (2012) (Roberts, C.J., in chambers). The election reforms targeted

- 13 -

A169

in this litigation represent the will of Wisconsin’s citizens. Until each of the provisions’ validity has been finally determined, the popular will should not be frustrated.
See Ill. Bell Tel. Co. v. WorldCom Techs., Inc., 157 F.3d 500, 503 (7th Cir. 1998) (“[T]he
court must consider that all judicial interference with a public program has the cost
of diminishing the scope of democratic governance.”).
While this democratic-governance rationale is sufficient to justify a stay here
as to all of the laws, failure to issue a stay will also cause law-specific harms, further
reinforcing the need for immediate relief.
28-day durational residency law. Absentee ballots—which must be printed and
ready for circulation by August 31, 2016, see Wisconsin Government Accountability
Board (now “Elections Commission”), Calendar of Election and Campaign Events at
15, available at http://goo.gl/ZTK2M1—will need to inform voters what the durational-residency rule is in Wisconsin: either presumably 10 days (under the court’s
ruling) or 28 days (per the statute). That is because an absentee voter must certify, if
appropriate, that he has not “changed [ ] residence within the state from one ward to
another later than 28 days [or, under the judgment below, 10 days] before the election.” Elections Commission, Official Absentee Ballot Application/Certification (EL122), available at http://goo.gl/udSS11. Relatedly, if the decision below is not stayed,
the Commission may well need to rewrite, reprint, and recirculate the statewide
voter-registration application, which presently references the 28-day rule. Elections
Commission, Wisconsin Voter Registration Application (EL-131), available at

- 14 -

A170

http://goo.gl/9W8QUL (“Voter Registration Form”); see also DMV, Voter Registration
in Wisconsin, available at http://goo.gl/YlycAz (informing voters of 28-day rule).
In addition, without a stay, the public would also suffer from a sudden (and
likely temporary) change in the durational-residency rule. As the district court explained, R.234:74, knowing where to go to cast one’s ballot is important; potential
absentees must be allowed to make plans. Finally, changing the “28” to “10” in the
registration form could raise a different problem: if the judgment were not stayed,
but this Court were to reverse near election day, the State would need to determine
whether registrations completed between 28 days and 10 days before the election are
valid.
Three laws providing for the locations and times for in-person absentee voting.
The court’s micromanagement of the location and times of in-person absentee voting
will impose administrative and financial burdens on local election administrators,
putting pressure on clerks to open additional voting places and keep longer hours at
the municipalities’ expense—the avoidance of which expense was a reason for the
reforms. See R.216:118–20; R.219:14–16, 32–33; R.218:114–15, 160–61. The court’s
new in-person-absentee election rules also threaten widespread voter confusion. See
Purcell, 549 U.S. at 4–5. For example, without a stay, voters will need to figure out
their municipalities’ new schedules for in-person absentee voting. See R.219:15–16;
R.216:118–20; R.218:114. And those schedules surely will differ even across regions
of the State, a problem especially for residents of smaller municipalities in the Milwaukee and Madison media networks, where news of the big cities’ unique voting

- 15 -

A171

schedules could crowd out reports of which polling places in their own towns will be
open for absentee voting and when. See R.218:160–61, 170–71, 179–80.
Law requiring that absentee ballots must be sent by regular mail. As noted
above, on August 31, election clerks will mail absentee ballots to voters with valid
requests on file. See supra p. 15. Absent a stay, clerks will need to start emailing and
faxing absentee ballots and also process the ballots that are returned via those methods. Supra pp. 5, 10. Both tasks will drain clerk-office resources.
Two laws relating to voting by college students. The injunction will have a similarly disruptive effect on the rule requiring dorm lists to confirm students’ citizenship. The registration form currently in circulation throughout the State instructs
student applicants that they may present a student “ID . . . coupled with an on-campus housing listing . . . that denotes US Citizenship.” Voter Registration Form at 2.
Unless the judgment is stayed, the Elections Commission will need to reprint and
recirculate the corrected version.
In addition, changing the list of permissible IDs will also cause harm to the
State and public. As voters begin receiving their absentee ballots, they will need to
know what forms of ID may be presented with their votes. As of today, notices on
official state election websites, including the posted instructions for submitting absentee ballots, specify in detail what forms of ID are acceptable. Elections Commission, Application for Absentee Ballot (EL-121), available at http://goo.gl/yZOACv.
Absent a stay, these and other forms (including the absentee ballots themselves)
would likely need to be altered—and immediately.

- 16 -

A172

CONCLUSION
The judgment and permanent injunction should be stayed pending appeal.
Dated: August 12, 2016.
Respectfully Submitted,
BRAD D. SCHIMEL
Wisconsin Attorney General
s/ Misha Tseytlin
MISHA TSEYTLIN
Solicitor General
Counsel of Record
RYAN J. WALSH
Chief Deputy Solicitor General
S. MICHAEL MURPHY
GABE JOHNSON-KARP
Assistant Attorneys General

- 17 -

A173

CERTIFICATE OF SERVICE
I hereby certify that on this 12th day of August, 2016, I filed the foregoing
Motion with the Clerk of the Court using the CM/ECF System, which will send notice
of such filing to all registered CM/ECF users.
Dated: August 12, 2016
s/Misha Tseytlin
MISHA TSEYTLIN

A174

Case: 16-3091

Document: 20

Filed: 08/22/2016

Pages: 1

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Everett McKinley Dirksen United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

ORDER
August 22, 2016
Before
FRANK H. EASTERBROOK, Circuit Judge
MICHAEL S. KANNE, Circuit Judge
DIANE S. SYKES, Circuit Judge

ONE WISCONSIN INSTITUTE, INC., et al.,
Plaintiffs - Appellees, Cross -Appellants,
Nos. 16-3091 &16-3083

v.
MARK L. THOMSEN,et al.,
Defendants - Appellants, Cross - Appellees.

Originating Case Information:
District Court No: 3:15-cv-00324-jdp
Western District of Wisconsin
District Judge James D. Peterson

The following are before the court:
1. DEFENDANTS-APPELLANTS, CROSS-APPELLEES’ EMERGENCY MOTION TO
STAY THE INJUNCTION PENDING APPEAL , filed on August 12, 2016, by counsel
for the defendants.
2. PLAINTIFF-APPELLEES, CROSS-APPELLANTS’ OPPOSITION TO
DEFENDANT-APPELLANTS, CROSS-APPELLEES’ EMERGENCY MOTION TO
STAY THE INJUNCTION PENDING APPEAL, filed on August 18, 2016, buy counsel
for the plaintiffs.
3. DEFENDANTS-APPELLANTS, CROSS-APPELLEES’ REPLY IN SUPPORT OF
THE EMERGENCY MOTION TO STAY THE INJUNCTION PENDING APPEAL,
filed on August 19, 2016, by counsel for the defendants.
IT IS ORDERED the motion to stay is DENIED.
form name: c7_Order_3J(form ID: 177)

A175

Case: 16-3003

Document: 39

Filed: 08/26/2016

Pages: 4

In the

United States Court of Appeals
For the Seventh Circuit
____________________
Nos. 16‐3003 & 16‐3052
RUTHELLE FRANK, et al.,
Plaintiffs‐Appellees, Cross‐Appellants,
v.
SCOTT WALKER, in his official capacity as
Governor of the State of Wisconsin, et al.,
Defendants‐Appellants, Cross‐Appellees.
____________________
Nos. 16‐3083 & 16‐3091
ONE WISCONSIN INSTITUTE, INC., et al.,
Plaintiffs‐Appellees, Cross‐Appellants,
v.
MARK L. THOMSEN, et al.,
Defendants‐Appellants, Cross‐Appellees.
____________________
On Petitions for Initial Hearing En Banc

____________________
AUGUST 26, 2016
____________________

A176

Case: 16-3003

2

Document: 39

Filed: 08/26/2016

Pages: 4

Nos. 16‐3003, 16‐3052, 16‐3083 & 16‐3091
Before

WOOD, Chief Judge, and POSNER, FLAUM,
EASTERBROOK, KANNE, ROVNER, SYKES, and HAMILTON, Circuit
Judges.*
PER CURIAM. Before us are two sets of appeals and cross‐
appeals, each of which concerns Wisconsin’s law requiring
voters to have qualifying photo identification. In each matter,
one originating in the Eastern District of Wisconsin and the
other in the Western District of Wisconsin, the plaintiffs have
petitioned for initial review en banc. We have consolidated
their petitions for the purposes of this order. The plaintiffs ar‐
gue that only initial en banc treatment will permit a decision
in time for the court’s conclusions to be put into effect for the
election upcoming in November 2016. It is questionable
whether action on that schedule is feasible, given that Wis‐
consin will start printing absentee ballots at the end of this
month. We will assume for the sake of argument, however,
that this obstacle alone is not enough to deny the petitions.
There is a more important concern, however, which has to
do with the regularity of the judicial process. Whether this
court should try to resolve the parties’ disputes on such a
short schedule depends in part on whether qualified electors
will be unable to vote under Wisconsin’s current procedures.
In evaluating that question, we must take account of the con‐
clusions reached by the district court in the Western District
of Wisconsin in One Wisconsin Institute, Inc. v. Thomsen, No.
15‐CV‐324‐JDP, 2016 U.S. Dist. LEXIS 100178 (W.D. Wis. July
29, 2016). The Eastern District of Wisconsin, in the decision
under review in Nos. 16‐3003 and 16‐3052, concluded that
*

Circuit Judge Williams took no part in the consideration or decision
on these petitions.

A177

Case: 16-3003

Document: 39

Filed: 08/26/2016

Nos 16‐3003, 16‐3052, 16‐3083 & 16‐3091

Pages: 4

3

every registered voter should be allowed to vote if he or she
signs an affidavit stating that obtaining a qualifying photo ID
would be unreasonably hard. A panel of this court has stayed
that order. See Order, Frank v. Walker, Nos. 16‐3003 & 16‐3052
(7th Cir. Aug. 10, 2016). The Western District, by contrast, de‐
clined to adopt the affidavit procedure but required Wiscon‐
sin to reform its ID Petition Process (IDPP), revised in May in
response to this court’s decision in Frank v. Walker, 819 F.3d
384 (7th Cir. 2016) (Frank II).
Frank II held that “[t]he right to vote is personal and is not
defeated by the fact that 99% of other people can secure the
necessary credentials easily”, and that the state may not frus‐
trate this right for any eligible person by making it unreason‐
ably difficult to obtain a qualifying photo ID. Id. at 386. The
district court in One Wisconsin Institute concluded from this
that an eligible voter who submits materials sufficient to ini‐
tiate the IDPP is entitled to a credential valid for voting, un‐
less readily available information shows that the petitioner is
not a qualified elector. The court in One Wisconsin Insti‐
tute also held that the state must inform the general public
that those who enter the IDPP will promptly receive a creden‐
tial valid for voting, unless readily available information
shows that the petitioner is not a qualified elector entitled to
such a credential. 2016 U.S. Dist. LEXIS 100178 at *181–82.
This court denied the State’s motion to stay the Western Dis‐
trict’s injunction pending appeal. See Order, One Wis. Inst.,
Inc. v. Thomsen, Nos. 16‐3083 & 16‐3091 (7th Cir. Aug. 22,
2016).
The State assures us that the temporary credentials re‐
quired in the One Wisconsin Institute decision will indeed be

A178

Case: 16-3003

4

Document: 39

Filed: 08/26/2016

Pages: 4

Nos. 16‐3003, 16‐3052, 16‐3083 & 16‐3091

available to all qualified persons who seek them. In its re‐
sponse to the petition for initial hearing en banc in Nos. 16‐
3003 and 16‐3052, it said this: ʺ[T]he State has already volun‐
tarily accommodated any concerns relating to the November
2016 election. Specifically, Wisconsin has enacted a rule that
requires the Division of Motor Vehicles (‘DMV’) to mail auto‐
matically a free photo ID to anyone who comes to DMV one
time and initiates the free ID process. See Wis. EmR1618, § 10.
No one must present documents, that, for some, have proved
challenging to acquire; no one must show a birth certificate,
proof of citizenship, and the like. Id. § 6.” Resp. to Pet. For
Initial Hr’g En Banc at 1, Frank v. Walker, Nos. 16‐3052 & 16‐
3003 (7th Cir. Aug. 8, 2016) (emphasis in original).
Given the State’s representation that “initiation” of the
IDPP means only that the voter must show up at a DMV with
as much as he or she has, and that the State will not refuse to
recognize the “initiation” of the process because a birth certif‐
icate, proof of citizenship, Social Security card, or other par‐
ticular document is missing, we conclude that the urgency
needed to justify an initial en banc hearing has not been
shown. Our conclusion depends also on the State’s compli‐
ance with the district court’s second criterion, namely, that the
State adequately inform the general public that those who en‐
ter the IDPP will promptly receive a credential for voting, un‐
less it is plain that they are not qualified. The Western District
has the authority to monitor compliance with its injunction,
and we trust that it will do so conscientiously between now
and the November 2016 election.
On these understandings, the petitions for initial hearing
en banc are DENIED.

A179

Case: 16-3083

Document: 107

Filed: 07/29/2020

Pages: 3

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

Everett McKinley Dirksen United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

NOTICE OF ISSUANCE OF MANDATE
July 29, 2020

To:

Gina M. Colletti
UNITED STATES DISTRICT COURT
Eastern District of Wisconsin
Milwaukee , WI 53202-0000

RUTHELLE FRANK, et al.,
Plaintiffs - Appellees
v.
No. 16-3003
TONY EVERS, in his official capacity as Governor of the State of
Wisconsin, et al.,
Defendants - Appellants

RUTHELLE FRANK, et al.,
Plaintiffs - Appellants
v.
No. 16-3052
TONY EVERS, in his official capacity as Governor of the State of
Wisconsin, et al.,
Defendants - Appellees

ONE WISCONSIN INSTITUTE, INC., et al.,
Plaintiffs - Appellants
No. 16-3083

v.
MARK L. THOMSEN, et al.,

A180

Case: 16-3083

Document: 107

Filed: 07/29/2020

Pages: 3

Defendants - Appellees

ONE WISCONSIN INSTITUTE, INC., et al.,
Plaintiffs - Appellees
No. 16-3091

v.
MARK L. THOMSEN, et al.,
Defendants - Appellants

Originating Case Information:
District Court No: 2:11-cv-01128-LA
Eastern District of Wisconsin
District Judge Lynn Adelman
Originating Case Information:
District Court No: 2:11-cv-01128-LA
Eastern District of Wisconsin
District Judge Lynn Adelman
Clerk/Agency Rep Gina M. Colletti

Originating Case Information:
District Court No: 3:15-cv-00324-jdp
Western District of Wisconsin

Herewith is the mandate of this court in this appeal, along with the Bill of Costs, if any. A
certified copy of the opinion/order of the court and judgment, if any, and any direction as to
costs shall constitute the mandate.
RECORD ON APPEAL STATUS:

No record to be returned

NOTE TO COUNSEL:
If any physical and large documentary exhibits have been filed in the above-entitled cause, they are
to be withdrawn ten (10) days from the date of this notice. Exhibits not withdrawn during this period
will be disposed of.
Please acknowledge receipt of these documents on the enclosed copy of this notice.
-----------------------------------

A181

Case: 16-3083

Document: 107

Filed: 07/29/2020

Pages: 3

Received above mandate and record, if any, from the Clerk, U.S. Court of Appeals for the
Seventh Circuit.
Date:

Received by:

_________________________

____________________________________

form name: c7_Mandate(form ID: 135)

A182

